<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        WEDNESDAY, MARCH 9, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:45 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Tester, Landrieu, Murkowski, 
Cochran, Collins, and Blunt.

                       DEPARTMENT OF THE INTERIOR

STATEMENT OF HON. KEN SALAZAR, SECRETARY
ACCOMPANIED BY:
        DAVID HAYES, DEPUTY SECRETARY
        PAM K. HAZE, DEPUTY ASSISTANT SECRETARY FOR BUDGET, FINANCE, 
            PERFORMANCE, AND ACQUISITION


                 opening statement of senator jack reed


    Senator Reed. Let me call the hearing to order.
    I want to thank the Secretary for joining us this 
afternoon. I also appreciate your consideration of our 
schedule, Mr. Secretary, but you have had some experience here 
with the Senate schedule, so I think you were not shocked and 
surprised when we had to delay this 30 minutes.
    We certainly appreciate your taking time from your very 
hectic schedule to come up and talk about the administration's 
fiscal year 2012 budget for your Department, the Department of 
the Interior.
    And before I begin, I would like to commend and thank 
Senators Feinstein and Alexander for their great leadership of 
the subcommittee. As you know, they have shifted their focus 
now to the Energy and Water Development Subcommittee, but they 
still retain their membership on this subcommittee. They are 
valuable members, and we look forward to their insights and to 
their assistance as we go forward.
    Now, I want to just, from the beginning, prove that the 
Senator from Alaska and I are not a force to be taken lightly. 
I would just point out the fact that between our two States, we 
have more than half of the land in the National Park System.
    Now, you could quibble over whether 41 million acres and 5 
acres is--there is a difference, but together we are 51.5 
percent of the park system. So you have got a majority right 
here before you, Mr. Secretary.
    Let me just say that I am delighted to be able to work with 
Senator Murkowski. She is an extraordinarily talented and 
dedicated representative not only of Alaska, but of commitment 
to the issues that are important to the Nation as a whole. So 
thank you, Senator, for your help and your assistance.
    And also I recognize--and she has done a good job of 
educating me already--that many of these issues are central to 
the communities of her State, vitally central, and I do 
recognize that and I look forward to working with her for her 
constituents as well as the Nation.
    These programs have impacts everywhere, though. In my home 
State of Rhode Island, we have a rich, historic heritage. The 
National Park Service--we have what I used to think was the 
smallest park in America, but apparently there is a park in 
Philadelphia, the Pulaski Park, that is smaller. It is less 
than 5 acres, but we have a national park. We have the John H. 
Chafee Blackstone River Valley Corridor. So we have a national 
park influence and impacts, and I appreciate that very much.
    We also have a wildlife refuge complex. We have many things 
that we treasure deeply in Rhode Island that are governed by 
your Department.
    We are involved in offshore wind development. You and I, 
Mr. Secretary, had discussions about that several times. So the 
Bureau of Ocean Energy Management (BOEM) is central not only to 
the gulf and Senator Landrieu, but up in Rhode Island, in New 
England, New Jersey, both coasts, every waterway.
    And I really want to say how I look forward to working with 
you. Every area of this country is affected by what you do. The 
issues are critical, and as we go forward, I will continue to 
ask for your advice, assistance, and help, as I have in the 
past.
    The administration for the Department of the Interior is 
seeking approximately $11.175 billion. That is an increase of 
about $100 million, or about 1 percent above the equivalent 
2010 enacted level. That might not seem like a lot, but it 
covers so many vital programs. For example, the Land and Water 
Conservation Fund (LWCF) would be increased. Funding necessary 
to complete the very important reorganization of the BOEM would 
be included. Landsat operations are proposed for the U.S. 
Geological Survey (USGS), in fact, an increase of about $61 
million for those operations.
    Some of these changes are laudable, in fact overdue, but in 
this fiscal environment, I do not have to tell you, Mr. 
Secretary, everything has to be weighed very carefully and very 
tough choices have to be made among programs.
    There are also in your budget reductions: $151 million for 
management efficiencies. I applaud those proposals, and we want 
to help you achieve those reductions.
    I know, Mr. Secretary, you recognize that this is a 
difficult budget. I also know and expect that you will be there 
to help us make these decisions. And as I begin my tenure here, 
it is our commitment to work with you to ensure that our public 
lands are protected, that we uphold our responsibility to 
Native Americans, that the Department has its resources in so 
many different ways to carry out its critical missions.
    Senator Reed. With that, Mr. Secretary, I would like to 
recognize the ranking member, Senator Murkowski.


                  statement of senator lisa murkowski


    Senator Murkowski. Thank you, Mr. Chairman. It is indeed a 
pleasure to be working with you on this subcommittee. We laugh 
about this kind of odd couple pairing, the largest State in 
terms of geographic size with the smallest, but as you point 
out, we have some shared issues. We have a lot of commonality, 
and I look forward to working with you.
    We have already decided that during our August break, we 
are going to visit some national parks in my State and do the 
same in Rhode Island and get to know the differences just a bit 
better.
    But I think one of the things that is important to 
recognize is that we both share a common interest in ensuring 
that taxpayer dollars are spent wisely, that the agencies under 
our jurisdiction are accountable to the Congress and to the 
public. We will work forward with that.
    I would also like to recognize the members of our 
subcommittee. We have got three new folks on the Republican 
side who are new to the Senate, much less the subcommittee: 
Senator Blunt, Senator Hoeven, and Senator Johnson. Senator 
Landrieu and I have worked on so many of these issues over the 
years. You recognized the work of Senator Feinstein and Senator 
Alexander as the former chairman and the ranking member, 
respectively, on this subcommittee, and we do appreciate their 
leadership and their guidance.
    Secretary, I am pleased to have you before us. I know that 
these subcommittee hearings before the Senate committees and 
the House are a bit arduous, but you always come with good 
demeanor and kind words. I appreciate your leadership. I 
appreciate your work. You do have a very difficult task in 
front of you. I hate to think that Alaska is your problem every 
day when you wake up, but so much of what goes on in our State 
is under your jurisdiction. So we look forward to continuing 
the relationship that we had when you were a member of the 
Senate here and under your leadership as the Secretary.
    I mentioned to the chairman here that my opening statement 
may be a bit longer than usual. I promise you that I do not 
typically do this, but there are a few important issues that I 
would like to just put out on the table since we are always 
more limited in our questions.
    Without question, the most significant budgetary aspect of 
the Department's request is the increase for LWCF programs as 
part of America's Great Outdoors initiative. These programs are 
proposed to grow by well more than 100 percent from $310 
million to $675 million. An additional $225 million is proposed 
in the Forest Service budget as part of a larger effort to fund 
LWCF programs at their fully authorized level of $900 million.
    I have got a couple of different concerns with this 
approach. For example, in order to fund these large increases 
for land acquisition in what is an overall flat budget for the 
Department, other programs necessarily have to be cut. We 
recognize that that is what happens. But one of the cuts that 
has been made is the Bureau of Land Management's (BLM) Alaska 
conveyance program. Mr. Secretary, we have had a chance to talk 
about this. The fact that 50 years ago--actually it was 52 
years ago--we became a State. There were certain promises, 
conditions made at statehood, and we are still waiting in many 
cases to receive patents to the lands that we were entitled to 
under that statehood act.
    I worked hard to address this problem. We got legislation 
passed in 2004 to help accelerate it, but under the proposal 
that we have got now, the BLM is not accelerating the transfer 
of these lands. It is slamming on the brakes. In fact, at the 
rate that the lands selected in Alaska--if we work this 
transfer process as it currently goes, we do not finish this 
until the year 2075. I am probably not going to be around by 
then, and it is something that we believe that the commitment 
needs to be there, and unfortunately, that translates into a 
budgetary commitment as well.
    Other cuts are also troubling. Every one of the 
Department's construction accounts has been significantly cut 
at a time when we are seeing a multibillion dollar maintenance 
backlog at the Park Service, at the BLM, at Fish and Wildlife. 
And it begs the question of how you can place such a high 
priority on acquiring more land when you have got to cut the 
very funds that you need to take care of the current 
infrastructure in order to do so.
    I also have to question these large increases when other 
longstanding obligations languish. In Alaska, we have roughly 
half of the federally recognized tribes. So one of my top 
priorities has been ensuring that we honor our commitments to 
Native Americans and Alaska Natives.
    The Federal Government is responsible for two school 
systems, one at the Department of Defense, one at the Bureau of 
Indian Affairs (BIA). BIA funds 183 elementary and secondary 
schools and dormitories for approximately 41,000 students. 
According to the National Congress of American Indians, at the 
beginning of last year, one-third of BIA schools were in 
significant need of repair at an estimated cost of $1.34 
billion. These deteriorating schools are part of a larger 
problem with the school system that consistently lags far 
behind our traditional schools. Chairman Reed and I have 
already spoken about the need to work on this issue, and I hope 
that we can see some progress this year.
    In addition to my concerns about funding priorities, I am 
very troubled by some of the proposed policy provisions in the 
budget request. One that I find very, very troubling is the fee 
on the so-called nonproducing oil and gas leases. The Trans-
Alaska Pipeline is the main economic artery of my State and a 
major asset to our Nation's energy security and independence, 
but production is falling to the point where this pipeline is 
in jeopardy. We have to find new sources of oil and we have to 
find it soon or we risk the possibility that that pipeline will 
be decommissioned, dismantled, and we will no longer have the 
ability to provide the domestic resource coming off the North 
Slope to the rest of the country.
    One of the areas that has the most promise is in the 
Beaufort and the Chukchi Seas. Shell oil paid more than $2 
billion to the Department of the Interior for leases back in 
2005. That company is now halfway through its lease term, but 
the Environmental Protection Agency (EPA) is preventing the 
company from developing its leases by not issuing necessary air 
permits, and this is after a 5-year process. The Interior 
Department has elected to undergo yet another round of 
environmental review. So we have got a situation where Shell 
has spent literally thousands of man-hours, tens of millions of 
dollars trying to thread the needle through the EPA's 
regulatory morass, and now the Department of the Interior is 
essentially saying we want to assess the company a fee because 
they are not producing. They want to produce in the worst way. 
So we need to address this.
    What is perhaps even more galling on top of this is that 
the company is currently paying rent to the Government on these 
leases while they are not in production. So it is just kind of 
an insult to injury type of a situation. We had an opportunity 
to bring this up in the Energy Committee hearing just last 
week. It is something, Mr. Secretary, that I do hope that you 
will commit to working with us on that initiative.
    I repeat the statement from the chairman in terms of 
willingness to work with you. I know we have got some tough, 
tough, tough issues. We are trying to get through CD-5 so that 
we can develop the National Petroleum Reserve--Alaska. We are 
trying to get offshore. We have got opportunities in the State 
to provide for the rest of the country. We need to be working 
together. I look forward to doing that with you. If sometimes 
it appears that we are overly aggressive, it is because we feel 
we have so much to offer up north, and we just need the 
cooperation of those here in Washington. I look forward to your 
leadership in helping us get there.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Murkowski.
    Now if my colleagues have opening statements, Senator 
Landrieu, and then I will go back and forth.


                   statement senator mary l. landrieu


    Senator Landrieu. Thank you, Mr. Chairman and Ranking 
Member. I am looking forward to your leadership of this 
subcommittee and enjoyed working with both of you on other 
committees.
    I am going to submit my statement for the record because I 
have got, unfortunately, another 4 o'clock meeting.
    I just want to welcome you, Secretary Salazar, but to 
restate just briefly again how important it is to expedite the 
reforms underway in the Gulf of Mexico and to get our people 
back to work, get permits issued in the gulf. I know there is a 
step up in funding for the reorganization of BOEM. That 
reauthorization language needs to go through, of course, the 
Energy Committee and move forward and not done exactly through 
the appropriations process.
    But I am interested in providing additional resources to 
you and want to tell the chairman and ranking member of my 
support so that we can process more quickly the permits that 
are pending in the Gulf of Mexico. And with prices rising, you 
know, at the pump, it is just important that we continue to 
press forward on that accelerator, and we are still running 
into some difficulty. I will submit the specifics to you.
    I look forward to working with you on some aspects of this 
budget. But please remain committed and focused, if you would, 
on the Gulf of Mexico not just our restoration issues, which 
are important and we really appreciate your leadership, Mr. 
Secretary, but on getting our people back to work and getting 
those permits issued.
    Thank you.
    Senator Reed. Thank you.
    Senator Blunt, do you have a statement?


                     statement of senator roy blunt


    Senator Blunt. I will submit my statement for the record.
    [The statement follows:]
                Prepared Statement of Senator Roy Blunt
    Thank you Chairman Reed and Ranking Member Murkowski for holding 
this hearing today. This hearing is a great opportunity to not only 
examine the budgetary needs of the Interior Department (DOI) throughout 
our country, but also to make the proper investments that produce the 
greatest return on taxpayer dollars.
    Additionally, I would like to thank Secretary Salazar.
    Your hard work on the budget is greatly appreciated. I look forward 
to working with you now and in the future to address our country's 
needs.
    Last month the Federal Government added as much money to the debt 
as it did in 2007. The numbers are stark and should serve as call for 
immediate action. All across Missouri and the country, Americans at 
home and at work are being expected to do more with less and now it is 
time for the Federal Government to do the same.
    Unfortunately, the DOI like the rest of the administration is 
avoiding the necessary cuts that we all need to be making to address 
our skyrocketing debt. But on top of this, I am concerned with the fact 
that the DOI is using taxpayer dollars to hamper energy exploration.
    For example, while the budget takes credit for expanding 
protections against the impacts of coal mining, it doesn't address the 
repercussions it will have on jobs and energy production.
    Your recent stream protection rule would, according to your own 
assessments, kill more than 20,000 coal mining and related jobs, and 
wipe out a significant amount of coal production.
    Our Nation relies on coal to power almost 50 percent of our 
electricity, and in Missouri that number is more than 80 percent. I am 
concerned with the consequences of this administration's attempts to 
broadly penalize the use of coal in this country, and I hope that you 
take a hard look at your policies to make sure that doesn't happen.
    The budget calls for more money to the newly formed Bureau of Ocean 
Energy Management office, and yet this administration has only managed 
to approve one new offshore drilling permit since the Deepwater Horizon 
spill last April. You have also officially blocked access to new areas 
of the Gulf of Mexico until 2017, and caused such uncertainty that even 
shallow-rig operators have idled.
    A recent study showed that delays in offshore drilling could result 
in the loss of 125,000 jobs and billions of dollars in investment and 
government revenue--something I think we can all agree we sorely need 
right now.
    On top of blocking access to offshore drilling, your recently 
announced ``wild lands'' policy out of the Bureau of Land Management 
would block access to energy exploration on Federal lands. There is 
great potential for energy development of oil and natural gas on our 
Federal lands.
    These lands need to be managed in a way that provides the greatest 
benefit to the public--and what could be more beneficial than using 
them to provide low-cost, reliable and plentiful energy to this Nation.
    Right now, oil and gas production in Libya have fallen by an 
estimated 60 to 90 percent since the outbreak of unrest. Libya accounts 
for only about 2 percent of global supply, but that doesn't mean the 
market impact isn't something we aren't feeling worldwide. We've seen 
this impact now as oil as hit $100 a barrel and retail gas rates rose 
32 cents between February 21 and March 7. This one-two punch--a 
reliance on foreign oil and an administration with little concern for 
expanding exploration--puts us in an extremely vulnerable situation. 
Secretary Salazar I look forward to your testimony and working with you 
to see how we can use our resources to make sure this Nation has the 
energy we need to keep our economy running.

    Senator Reed. Thank you, Senator.
    Senator Tester.
    Senator Tester. Just welcome.
    Senator Reed. Senator Collins.

                   STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you, Mr. Chairman. I just want to 
welcome our former colleague and good friend, the Secretary, 
back to the U.S. Senate. We miss you, but look forward to 
working with you on several issues.
    The issues that I am going to raise today are not 
unfamiliar to the Secretary. I look forward to talking to him 
about the exciting research and development that is occurring 
in the State of Maine, led by the University of Maine, and to 
the potential for deepwater, offshore wind energy. I also want 
to talk to him about the gem of a national park that we have in 
the State of Maine, which the Secretary has visited, Acadia 
National Park.
    Senator Collins. Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Collins.
    We will proceed with 6-minute rounds. I am told the 
Secretary has an appointment at 5 p.m., and I would assume that 
we can do at least two rounds so that we will have ample time 
to ask questions.
    Mr. Secretary, again, thank you for being here this 
afternoon.
    Although the reorganization of the former Minerals 
Management Service (MMS) is moving forward, I am concerned that 
a lot of the attention is being focused on the leasing and 
enforcement side of the ledger, not enough attention on the 
revenue collection side. I know you have already moved that 
into a different organization. And this has been an ongoing 
problem going back several years. Just last week, in fact, the 
Government Accountability Office (GAO) testified the Department 
could not--in their words--provide reasonable assurance that it 
was assessing and collecting the appropriate amount of 
royalties. In February, the GAO added that revenue collection 
program to its high-risk program list.
    You are asking for a budget of $148 million for the revenue 
office. That is an increase of about $38 million at the 2010 
level with 55 new employees. Can you please tell us 
specifically what the increases are for, what steps the office 
has taken to address the problems that get it on the high-risk 
list? This is central actually to many things. So your comments 
will be appreciated.
    Secretary Salazar. Thank you very much----
    Senator Reed. Oh, excuse me, Mr. Secretary. I have 
committed the, hopefully pardonable, offense of being a new 
subcommittee chairman not allowing you to deliver your 
statement before I deliver a question.
    That was a test. I hoped you would interrupt and say, wait 
a second. So let me withhold that question, recognize the 
Secretary for his statement, indicate that your statement has 
been made a part of the record so you may be concise. Mr. 
Secretary, forgive me.

                    SUMMARY STATEMENT OF KEN SALAZAR

    Secretary Salazar. Thank you very much, Chairman Reed. Let 
me make a few opening comments and try to be brief because I 
think it is probably more important to engage in a dialogue on 
some of the issues which you have raised, including the one you 
just raised.
    Let me at the outset say to you and to Ranking Member 
Murkowski, to Senator Tester, Senator Blunt, and Senator 
Collins, and all the members of the subcommittee, I very much 
look forward to working with you. Senator Feinstein and Senator 
Alexander set a great template working with their staffs and 
working with the Department of the Interior on the budget in 
the last 2 years I have been the Secretary of the Interior and 
hope to be able to continue the same bipartisan approach to how 
we move forward on the budgetary matters relating to the 
Interior.
    I also want to congratulate you, Mr. Chairman, on your 
position as a chairman of this subcommittee. Oftentimes when I 
took this position, people would describe this as a 
``Department of the West'', and I think while there is a 
tremendous amount of focus in places like Alaska and the State 
of Montana and major activities on the part of the Department, 
it truly is the Department of all of America. We have seen with 
the Gulf of Mexico and the oil and gas production issues there, 
all of the offshore wind issues on the Atlantic, the great 
places, iconic places in Maine like Acadia National Park, and 
their interest in wind power. Throughout all 50 States and the 
1.75 billion acres of the Outer Continental Shelf, it truly is 
an honor and a privilege to be the custodian of America's 
natural resources and America's cultural heritage. I very much 
look forward to working with all of you and with your staffs.
    With me today, Deputy Secretary of the Interior, David 
Hayes, who helps me on the broad array of issues that we face 
at Interior every day. He is a problem solver on so many 
issues, including trying to work on many of the Alaska issues 
which Senator Murkowski alluded to. Then Pam Haze, who has 
worked for multiple administrations as the Deputy Assistant 
Secretary for Budget, Finance, Performance, and Acquisition, 
and works with your staff who know so much about the Interior 
budget.

                              2012 BUDGET

    Let me just make a few comments about the budget. The 2012 
budget, from our perspective, as we put it together is a freeze 
budget. We went through the budget line-by-line and put 
together what we believed was an appropriate budget for the 
times which the President endorsed. It includes cuts which are 
about $1.1 billion when you accumulate them all.
    Also, as the members of this subcommittee would expect of 
me, we went through and we tried to find places where we could 
be much more efficient in the delivery of Government services, 
including $179 million in administrative type cuts which 
include $42 million in travel, $36 million in information 
technology, and $53 million in procurement reform.
    I want to comment briefly on three key initiatives because 
I know they are an issue of concern to members of this 
subcommittee and to Members of the Congress.

                                 ENERGY

    One is on energy. And the first comment I want to make is, 
we continue to believe at the Department of the Interior and in 
the White House under the President's energy program, 
conventional oil and gas resources are a very important part of 
powering our economy. We are involved in what we consider to be 
a robust energy production program for both oil and natural 
gas.
    The request we have in front of this subcommittee for 
BOEMRE is an increase of $119 million to help us deal with 
standing up an organization you as a Congress can be rightly 
proud of. I think if there is a look back at the last 30 years 
under multiple administrations, Republican and Democrats as 
well, not enough attention had been given to the development of 
oil and gas resources in America's oceans. We saw the 
consequence with nearly 5 million barrels of oil flowing out 
into the Gulf of Mexico last year in what became essentially 
one of the national crises which all of us lived through in one 
way or another.
    It is essential the funding be there in order for us to be 
able to continue to look at not only the Gulf of Mexico, but 
also other places as well to develop oil and gas from our 
oceans in a safe way. The same thing is true with respect to 
the great renewable energy potential we find in the offshore, 
especially along the Atlantic States where we have made it a 
major priority within the Department of the Interior.
    Number two, a quick comment just on the renewable energy. 
It is a significant initiative of the Department. Since I 
became Secretary of the Interior, I am proud that in 2010 we 
were able to permit 3,700 megawatts of power, most of that 
solar power in the deserts of the Southwest, but significant 
power that also came from wind and geothermal energy as well. 
We have also permitted nearly 5,000 miles of transmission in 
the West to make sure we can move the renewable energy from the 
places it is produced to the places where it is consumed. The 
budget before you for 2012 has a goal that I believe is 
achievable, and it is to get to a point where we have 
authorized and are standing up 10,000 megawatts of renewable 
energy power.
    My comment overall on energy is that we need energy coming 
from a lot of different sources. The President's agenda on 
energy includes oil and gas. It includes nuclear. It includes 
all of the renewables which I spoke about here. We believe we 
need to have a robust energy program for the Nation and for the 
future. Hopefully as we move forward, this is an area where we 
can work with the Congress on a bipartisan basis to create a 
framework to finally get to a point where we are dealing with 
the issues of overdependence on foreign oil which, frankly, I 
know all of you on this subcommittee have worked on and 
commented on in terms of how it compromises our national 
security.
    Just an interesting factoid. Over the last 2 years, we have 
seen the amount of energy we are importing from foreign 
countries go down to about 50 percent. And that is as a result 
of domestic production we have. It is also as a result of 
demand reduction through efficiencies, including the higher 
vehicle mileages that we are now getting on our roadways in 
America. The energy agenda, which is one I work on closely with 
the President and Secretary Chu and my other colleagues in the 
Cabinet is very important and which is integrally tied into the 
funding proposals before you.

                              CONSERVATION

    The second area I want to touch on briefly is conservation 
and our efforts including the proposal for $900 million in 
funding for LWCF, which is included in this budget. As many of 
you in this subcommittee know, over the years since the mid-
1960s, there was a promise essentially made that the LWCF and 
the Historic Preservation Fund would be funded from offshore 
oil and gas royalties. Yet, it has been an empty and broken 
promise to America. Senator Collins and I actually led an 
effort, a letter that was signed by some 50 Senators a few 
years ago, where we restored some of the funding for LWCF.
    I think it is important when we look at the issue, and I 
ask you as subcommittee members when you look at the issue and 
ask yourself the question why now and why this kind of funding. 
To look back at Abraham Lincoln in the midst of the Civil War, 
who had the courage to set aside the lands that became Yosemite 
National Park or to look at Teddy Roosevelt. As Senator Cochran 
knows so well from his great work on the Migratory Bird 
Commission where we met this morning, we have done a lot in 
this country to stand up a conservation legacy and an agenda we 
can all be truly proud of, Democrats and Republicans, hunters 
and anglers, bikers, and so many others, that really are part 
of not only the conservation legacy, but also part of the 
economic engine of America. The conservation outdoor activities 
here in the United States alone produce about 6.5 million jobs 
a year. In the quest of standing up our economy, it is 
important to recognize tourism that comes with outdoor 
recreation is very important and that all is what is fed with 
the conservation efforts we have.
    I will put a footnote on that, my intention, as we move 
forward with all of our conservation initiatives in the 
America's Great Outdoors, is to follow the model we have 
incorporated through the Migratory Bird Commission where we 
allocate, in cooperation with the States, the funding for 
conservation to the high-priority projects local communities 
and the States want. In doing so, what we end up getting is 
significant additional matching dollars to advance the 
conservation agenda of America.
    When you think about our population today at 307 million 
people, knowing that the population over the next 20 years will 
probably grow by an additional 100 million people here in the 
United States, you have to ask the question where will those 
100 million people go? As we continue to grow as a country, it 
is going to be important to protect the areas where we hunt 
ducks and pheasants and we do all of the rest of the kind of 
activity so important to outdoor recreation. I would ask you to 
consider the conservation funding in that context.

                           PREPARED STATEMENT

    Finally, just a quick word about water. Water is such an 
important issue, especially all over the country, without a 
doubt, all over the world, but I think in particular in the 
West. We come from such arid States. It is the lifeblood of 
most of our communities. The Water Smart program, which we have 
included in the budget, will make sure we are doing more with 
the water we have. An example of the Water Smart program, with 
37 water projects in 2010, we are able to save 490,000 acre 
feet of water which is a very significant amount of water when 
you come from one of the arid States like Montana.
    With that, Mr. Chairman, I am delighted to have the 
opportunity to work with you as we address the difficult issues 
of our country.
    [The statement follows:]
                   Prepared Statement of Ken Salazar
    Mr. Chairman and members of the subcommittee, I am pleased to be 
here today to present the details of the 2012 budget request for the 
Department of the Interior. I want to thank the members of this 
subcommittee for your strong interest and support of our Department. 
Your efforts have helped to build a strong foundation for our 
initiatives.
    The 2012 budget builds on that strong foundation with $12.2 billion 
requested for the Department of the Interior. This budget includes 
$11.2 billion for programs funded by the Interior, Environment, and 
Related Agencies appropriation. The 2012 budget is a freeze at the 2010 
level, including significant reductions and savings totaling $1.1 
billion, while funding key priorities.
    The budget demonstrates that we can responsibly cut the deficit, 
while investing to win the future and sustain the national recovery. 
Our budget promotes the actions and programs that America told us are 
important in 50 listening sessions across the country. With that 
inspiration we developed a new 21st century conservation vision--
America's Great Outdoors. The budget continues to advance efforts that 
you have facilitated in renewable energy and sustainable water 
conservation, cooperative landscape conservation, youth in the 
outdoors, and reforms in our conventional energy programs.
                              introduction
    Interior's mission is simple, but profound--to protect America's 
resources and cultural heritage and honor the Nation's trust 
responsibilities to American Indians and Alaska Natives. Interior's 
people and programs impact all Americans.
    The Department is the steward of 20 percent of the Nation's lands 
including national parks, national wildlife refuges, and the public 
lands. Interior manages public lands and the Outer Continental Shelf 
(OCS)--providing access for renewable and conventional energy 
development and overseeing the protection and restoration of surface-
mined lands. The Department of the Interior is also the largest 
supplier and manager of water in the 17 Western States and provides 
hydropower resources used to power much of the country. Interior is 
responsible for migratory wildlife and endangered species conservation 
as well as the preservation of the Nation's historic and cultural 
resources. The Department supports cutting edge research in the earth 
sciences--geology, hydrology, and biology--to inform resource 
management decisions at Interior and improve scientific understanding 
worldwide. The Department of the Interior also fulfills the Nation's 
unique trust responsibilities to American Indians and Alaska Natives, 
and provides financial and technical assistance for the insular areas.
    The Department makes significant contributions to the Nation 
measured in economic terms. The Interior Department supports more than 
1.3 million jobs and more than $370 billion in economic activity each 
year. Parks, refuges, and monuments generate more than $24 billion in 
economic activity from recreation and tourism. Conventional and 
renewable energy produced on Interior lands and waters results in about 
$295 billion in economic benefits and the water managed by Interior 
supports more than $25 billion in agriculture. The American outdoor 
industry estimates 6.5 million jobs are created every year from outdoor 
activities.
    In measures that cannot be translated into dollars and cents, the 
Department protects the Nation's monuments and priceless landscapes, 
conserves wildlife and fisheries, offers unparalleled recreational 
opportunities, protects and interprets the cultural collections that 
tell America's history, and manages resources that help to fulfill the 
Nation's demands for energy, minerals, and water. Through its trust 
responsibilities on behalf of American Indians and Alaska Natives, 
Interior supports tribal self-governance and the strengthening of 
Indian communities. For affiliated island communities, the Department 
fulfills important commitments providing much needed technical and 
financial assistance.
                 2010--a year of challenge and success
    At the start of the administration in 2009, I set Interior on a 
course to create a comprehensive strategy to advance a new energy 
frontier; tackle the impacts of a changing landscape; improve the 
sustainable use of water; engage youth in the outdoors; and improve the 
safety of Indian communities. These priority goals integrate the 
strengths of the Department's diverse bureaus and offices to address 
key challenges of importance to the American public. Interior has been 
making progress in these areas, including:
  --Approving 12 renewable energy projects on public lands that when 
        built, will produce almost 4,000 megawatts of energy, enough 
        energy to power close to 1 million American homes, and create 
        thousands of construction and operational jobs.
  --Designating more than 5,000 miles of transmission corridors on 
        public lands to facilitate siting and permitting of 
        transmission lines and processing more than 30 applications for 
        major transmission corridor rights-of-way.
  --Establishing 3 of 8 planned regional climate science centers and 9 
        of 21 landscape conservation cooperatives.
  --Increasing the number of youth employed in conservation through 
        Interior or its partners increased by 45 percent more than 2009 
        levels.
  --Reducing overall crime in four Indian communities as a result of a 
        concerted effort to increase deployed law enforcement officers, 
        and conduct training in community policing techniques, and 
        engage the communities in law enforcement efforts.
    The tragic events resulting from the explosion and sinking of the 
Deepwater Horizon drilling rig in April of last year drew the attention 
of the world to the Gulf of Mexico. Much of the focus of the Interior's 
bureaus and offices in 2010 was on oil spill response, gulf coast 
restoration, strengthening safety and environmental standards for 
offshore energy production, and re-organizing and reforming the former 
Minerals Management Service (MMS). Nonetheless, the Department advanced 
other key priorities and strategic goals that will improve the 
conservation and management of natural and cultural resources into the 
future:
  --Interior, along with the Department of Agriculture, the 
        Environmental Protection Agency, and the Council on 
        Environmental Quality (CEQ), participated in the White House 
        Conference on America's Great Outdoors and held 50 public 
        listening sessions across the Country that have helped shape a 
        conservation vision and strategy for the 21st century. We have 
        released a report, America's Great Outdoors: A Promise to 
        Future Generations, that lays out a partnership agenda for 21st 
        century conservation and recreation.
  --In the spirit of America's Great Outdoors, we welcomed new national 
        wildlife refuges in Kansas and Colorado and proposed a new 
        conservation area in Florida at the headwaters to the 
        Everglades. These refuges mark a new era of conservation for 
        the Department, one that is community-driven, science-based, 
        and takes into account entire ecosystems and working 
        landscapes.
  --The Department worked with others to develop an action plan to 
        bring relief for the drought-stricken California Bay-Delta 
        area, invested more than $500 million in major water projects 
        over the past 2 years, and moved forward on long-standing water 
        availability issues in the Colorado River Basin.
  --In December, I issued my recommendation to the Congress to 
        undertake an additional 5.5 miles of bridging on the Tamiami 
        Trail in the Everglades above and beyond the 1-mile bridge now 
        under construction. When combined with other planned work in 
        the Everglades Agricultural Area and water conservation areas, 
        this project should restore 100 percent of historic water 
        quantity and flow to Everglades National Park.
  --With the help of the Congress, we brought about resolution of the 
        Cobell v. Salazar settlement and resolved four long-standing 
        Indian water rights issues through enactment of the Claims 
        Resolution Act of 2010. We also completed negotiation of a new 
        Compact of Free Association with the island of Palau which 
        awaits congressional approval.
  --In December of last year, the President hosted the second White 
        House Tribal Nations Conference bringing together tribal 
        leaders from across the United States; we are improving the 
        Nation-to-nation relationship with 565 tribes.
                      interior's budget in context
    In his State of the Union Address in January, President Obama spoke 
of what it will take to ``win the future.'' He challenged the Nation to 
encourage American innovation, educate young people, rebuild America, 
and shrink the burden of mounting debt. Interior's 2012 budget request 
responds to this challenge. The investments proposed in this budget are 
balanced by reductions in other programs--recognizing the Nation's need 
to live within its means to ensure a legacy of economic strength.
    Taking Fiscal Responsibility.--Interior's 2012 budget must be 
viewed in context of the difficult fiscal times facing the Nation and 
the President's freeze on discretionary funding. The 2012 budget 
reflects many difficult budget choices, cutting worthy programs and 
advancing efforts to shrink Federal spending. The budget contains 
reductions totaling $1.1 billion or 8.9 percent of the 2010 enacted/
2011 continuing resolution level. Staffing reductions are anticipated 
in some program areas, which will be achieved through attrition, 
outplacement, and buy-outs to minimize the need to conduct reductions 
in force to the greatest extent possible. These reductions are a 
necessary component of maintaining overall fiscal restraint while 
allowing us to invest additional resources in core agency priorities.
    This budget is responsible. The $12.2 billion budget funds 
important investments by eliminating and reducing lower-priority 
programs, deferring projects, reducing redundancy, streamlining 
management, and capturing administrative and efficiency savings. It 
maintains funding levels for core functions that are vital to uphold 
stewardship responsibilities and sustain key initiatives. The 2012 
request includes $11.2 billion for programs funded by the Interior, 
Environment, and Related Agencies appropriation. This is $69.2 million, 
or less than 1 percent, more than the 2010 enacted level and $87.6 
million above the 2011 annualized continuing resolution level. The 2012 
request for the Bureau of Reclamation (BOR) and the Central Utah 
Project Completion Act, funded in the Energy and Water Development 
Appropriations Act, is $1.1 billion in current appropriations, $88.3 
million or 8 percent below the 2010 enacted level and $78.3 million or 
7 percent below the 2011 continuing resolution level.
    Permanent funding that becomes available as a result of existing 
legislation without further action by the Congress results in an 
additional $5.6 billion, for $17.8 billion in total budget authority 
for the Interior in 2012.
    Program Reductions and Terminations.--Interior's $12.2 billion 
budget proposal includes $913.6 million in program terminations and 
program reductions of which $188 million are featured in the 
President's list of terminations and reductions. This also includes the 
elimination of $47.6 million in congressional earmarks not related to 
land acquisition or construction.
    These cuts were identified as part of a top to bottom review that 
considered mission criticality, the ability of partners to support the 
function, duplication or overlap, relevance to key initiatives, program 
performance, the relevance of timing and if the activity could be 
deferred, and short- and long-term strategic goals.
    Examples of the tough decisions made in 2012 include terminating 
the $7 million Rural Fire Assistance program which is duplicative of 
other fire assistance grant programs managed by the Department of 
Homeland Security and Department of Agriculture. The National Park 
Service's (NPS) Save America's Treasures and Preserve America programs 
are eliminated in 2012 to focus the NPS resources on the highest-
priority park requirements. The NPS Heritage Partnership Programs are 
reduced by half to encourage self-sufficiency among well-established 
National Heritage Areas while continuing support for newer areas. In 
the Bureau of Indian Affairs (BIA), the Indian Guaranteed Loan Program 
is reduced 63 percent in 2012 pending an evaluation of the program's 
effectiveness and alternatives to improve program performance.
    Program reductions are proposed in every bureau and office in the 
Department. One area that is reduced Interior-wide is construction. The 
budget includes $178.8 million for the Bureau of Land Management (BLM), 
Fish and Wildlife Service (FWS), and the NPS construction programs; in 
total this is a reduction of $100.2 million or 36 percent from the 2010 
enacted/2011 continuing resolution level. To achieve these reductions, 
the Department has frozen construction of new facilities in 2012 and 
deferred construction of replacement facilities. Interior's 2012 
request for construction focuses on the highest-priority health and 
safety and mission critical projects and defers lower priorities. The 
Department is committed to the repair and rehabilitation of current 
assets and funding for facility maintenance is held nearly level.
    Administrative Savings.--The budget includes $99.4 million in 
reductions reflecting administrative cost savings as part of the 
administration's Accountable Government initiative. These reductions 
will be generated by efficiencies throughout Interior, changing how the 
Department manages travel, employee relocation, acquisition of supplies 
and printing services, and the use of advisory services. These 
reductions are in addition to $620 million in travel, information 
technology, and strategic sourcing savings identified as part of the 
President's 2011 request. These reductions are sustained in the 2012 
request along with bureau-specific efficiencies.
  --The Department will achieve $42 million in savings in travel and 
        relocation through improved management at the program level and 
        re-examination of Departmental policies.
  --An estimated $53 million in savings will be achieved through 
        acquisition improvement initiatives including shared contracts 
        to use Interior-wide for the acquisition of commodities, 
        supplies, and services. In 2011, Interior is implementing 
        Department-wide strategic-sourcing initiatives for office 
        supplies and copier-based multifunctional devices. Savings from 
        expanded strategic sourcing is one component of a comprehensive 
        plan to improve acquisition practices throughout Interior.
  --Efficiency savings from expanded strategic sourcing is one 
        component of a comprehensive plan to improve acquisition 
        practices throughout Interior. Another component to reduce 
        advisory services spending will achieve an approximate $15 
        million in savings.
  --Through careful planning, strategic investments, and unprecedented 
        cooperation, significant opportunity exists to realize 
        efficiencies in the Department's IT infrastructure of an 
        estimated $36 million, including energy and cost savings. The 
        Department has identified five primary focus areas:
    --risk-based information security services;
    --infrastructure consolidation;
    --unified messaging;
    --workstation ratio reduction;
    --radio site consolidation; and
  --The Department's 2012 budget reflects a freeze on Federal salaries 
        for 2011 and 2012 and requirements to address fixed-cost 
        increases are limited to anticipated changes in the Federal 
        contributions to health benefits, GSA rent increases, changes 
        in workers and unemployment compensation costs, and specific 
        contract requirements for Public Law 93-638 agreements.
    Cost Recovery.--The budget proposes to increase cost recovery to 
offset the cost of some source development activities that provide 
clear benefits to customers.
    The budget proposes to increase fees for offshore oil and gas 
inspections from $10 million in the 2010 enacted budget to $65 million 
in 2012. These fee collections incorporate a more robust inspection 
program and expand the scope of offshore inspection fees to include 
offshore drilling rigs, given the need for greater scrutiny of drilling 
operations as a core component of deepwater oil and gas development. 
This is consistent with the National Commission on the BP Deepwater 
Horizon Oil Spill and Offshore Drilling. The report states that the oil 
and gas industry should be ``required to pay for its regulators'' so 
that the costs of regulation ``would no longer be funded by taxpayers 
but instead by the industry that is permitted to have access to a 
publicly owned resource.''
    Similarly, the budget proposes to collect $38 million for onshore 
oil and gas inspection activities conducted by the BLM. The budget also 
proposes new fees totaling $4.4 million for coal and other minerals 
inspections conducted by the BLM to recover the costs of inspecting 
these operations.
    Likewise, the budget proposes to decrease Office of Surface Mining 
(OSM) grants to State programs that regulate the coal industry, to 
encourage those States to increase cost recovery fees for coal mine 
permit processing.
                       investments for the future
    America's Great Outdoors.--Last year, the administration initiated 
a national dialogue at the White House Conference on America's Great 
Outdoors. In 50 listening sessions held across the Country, the public 
communicated their conservation and recreation priorities, and the 
result is a report to the President, America's Great Outdoors: A 
Promise to Future Generations. The report outlines how the Federal 
Government can support a renewed and refreshed conservation vision by 
working in collaboration with communities, farmers and ranchers, 
businesses, conservationists, youth and others who are working to 
protect the places that matter to them and by engaging people across 
the country in conservation and recreation.
    The report calls for the Government and its partners to help 
conserve and recreate on the lands and places that Americans care about 
most. To this end, the report recommends expanding access to green 
spaces for recreation, restoring, and connecting open spaces and rural 
landscapes to power economic revitalization and species conservation, 
and increasing our investment of revenue from oil and gas development 
in the protection of open spaces. The report calls for the revision of 
Government policies to improve program effectiveness and alignment, and 
leverage local, community-driven efforts and asks the Federal 
Government to be a better partner with States, tribes, landowners, 
local communities, the private sector and others to meet shared 
conservation goals.
    The 2012 President's budget identifies resources that are targeted 
on these outcomes with $5.5 billion for programs included in the 
America's Great Outdoors initiative, an increase of $363 million more 
than the fiscal year 2010 level. The components of this budget request 
include land management operations, programs funded through the Land 
and Water Conservation Fund (LWCF), and grant programs focused on 
partnerships that conserve natural resources, restore, rivers and 
trails, and preserve the Nation's historic assets.
    The 2012 budget for the America's Great Outdoors initiative 
includes $4.6 billion for core operations, an increase of $13.5 
million, in the land and resource management bureaus--the BLM, FWS, and 
NPS. Increases in Interior's land management bureaus will enhance 
cultural and interpretative programs throughout our network of national 
parks, refuges, and public lands. This funding will also support day-
to-day operations, improve the condition of facilities, and address 
natural resource management needs. More than 285 million Americans and 
foreign tourists visited the Nation's national parks in 2009, nearly 11 
million more than in 2008, a 3.9 percent increase. This was the fifth 
busiest year for the National Park System, just missing the all-time 
visitation record set in 1987. The increased visitation to the national 
parks reinforces the importance and value Americans place on their 
treasured landscapes.
    The initiative also includes $675 million for programs funded from 
the LWCF. The components of this request are: $375 million for Federal 
land acquisition, $200 million for an expanded LWCF State grants 
program including competitive grants, and $100 million for Cooperative 
Endangered Species Conservation Grants.
    The 2012 budget for Interior and the U.S. Forest Service (USFS) 
includes full funding, $900 million, for the LWCF. This funding is 
drawn from revenue generated each year from oil and gas development. 
This fulfills the vision for the LWCF, with a dedicated source of 
funding generated from the depletion of resources to be used annually 
to advance resource conservation and recreational opportunities. For 
the 2012 budget, the Department coordinates Interior bureaus' and the 
USFS's land acquisition priorities and presents a joint conservation 
strategy that maximizes conservation outcomes in key geographic focal 
areas.
    The 2012 budget also includes $150 million for fish and wildlife 
conservation grants, an increase of $7 million, including $50 million 
for the North American Wetlands Conservation Fund, $95 million for 
State and Tribal Wildlife Grants, and $5 million for Neotropical 
Migratory Bird Conservation Grants. An additional $72.4 million is 
proposed for the NPS partnership programs, including $62.4 million for 
historic preservation grants to States and tribes, an increase of $6.5 
million and $10 million for the Rivers, Trails and Conservation 
Assistance program, an increase of $1.1 million.
    The 2012 America's Great Outdoors initiative focuses on investments 
that will lead to healthy lands, waters, and resources while 
stimulating the economy--goals that are complementary. Through 
strategic partnerships, Interior will support and protect historic uses 
of lands, restore lands and resources, protect and interpret historic 
and cultural resources, and expand outdoor recreation opportunities. 
All of these activities have significant economic benefits in rural and 
urban communities. An economic impact analysis completed by the 
Department in December 2009 estimates that in 2008 more than 400 
million visits to the Nation's parks, refuges, and public lands 
generated nearly $25 billion and more than 300,000 jobs in recreation 
and tourism, contributing significantly to the economic vitality of 
many communities.
    New Energy Frontier.--The 2012 budget continues the Department's 
New Energy Frontier initiative to create jobs, reduce the Nation's 
dependence on fossil fuels and oil imports, and reduce carbon impacts. 
Facilitating renewable energy development is a major component of this 
strategy along with effective management of conventional energy 
programs.
    The Department has made significant advances in its priority goal 
to increase approved capacity for renewable energy production on 
Interior lands by at least 10,000 megawatts by the end of 2012, while 
ensuring full environmental review. To date, the BLM has approved 
projects that, when built, will generate approximately 4,000 megawatts 
of energy. The budget requests $72.9 million for renewable energy 
programs in 2012, an increase of $13.9 million more than the 2010 
enacted/2011 continuing resolution level.
    While we work to develop renewable energy sources, domestic oil and 
gas production remain critical to our Nation's energy supply and to 
reducing our dependence on foreign oil. As was underscored by the 
tragic explosion of the Deepwater Horizon and the oil spill that 
followed, we must take immediate steps to make production safer and 
more environmentally responsible. The recently released report from the 
National Commission on the BP Deepwater Horizon Oil Spill and Offshore 
Drilling concludes that neither industry nor the Government were 
adequately prepared to respond to a blowout in deepwater. We have been 
aggressively pursuing reforms to raise the bar on safety standards for 
offshore drilling--including new standards for how well they are 
drilled and for the safety systems to prevent blowouts, as well as 
requiring operators to demonstrate that they are able to respond 
promptly and effectively to a loss of well control in deepwater. We are 
also making fundamental changes to improve the effectiveness of 
Government safety oversight and environmental protection.
    The Commission's recommendations are, in many ways, a strong 
validation of the reforms that we at the Department of the Interior 
have been undertaking to promote safety and science in offshore oil and 
gas operations. Moreover, the Commission's findings and recommendations 
bolster the case for Interior's comprehensive reforms and the 
reorganization of offshore oil and gas oversight that will remedy 
conflicted missions, stand up a stronger regulatory framework, create 
an internal review unit to investigate problems in a timely manner, 
improve agency and industry management of safety and environmental 
protection, and expand the team of inspectors, engineers and other 
safety personnel. Many reforms have already been accomplished 
including:
  --Implementation of strong new safety and environmental standards 
        including:
    --a safety rule that raises standards for everything from drilling 
            equipment and well design to casing and cementing;
    --a requirement that companies establish comprehensive risk 
            management programs;
    --a requirement that operators demonstrate capability to deal with 
            a catastrophic blowout;
    --limiting the use of categorical exclusions so that proposed lease 
            sales and drilling projects go through rigorous 
            environmental reviews under the National Environmental 
            Policy Act (NEPA); and
    --requiring companies to put their signature on the line to state 
            that their rigs comply with safety and environmental laws 
            and regulations; and
  --Termination of the controversial royalty-in-kind program, which 
        accepted oil and natural gas from producers in lieu of cash 
        royalty payments, in favor of a more transparent and 
        accountable royalty collection system.
  --Dissolution of the MMS with the transfer of minerals revenue 
        management to the Office of Natural Resources Revenue (ONRR) in 
        the Office of the Secretary and creation of the Bureau of Ocean 
        Energy Management, Regulation and Enforcement (BOEMRE) as an 
        interim organization while further structural changes are made.
  --Formulation of a plan for reorganization of the former MMS that 
        will separate the offshore resource management and the safety 
        and environmental enforcement programs into two independent 
        organizations--the Bureau of Ocean Energy Management and the 
        Bureau of Safety and Environmental Enforcement.
  --Development and implementation of regulations and guidance to 
        operators to heighten standards for drilling safety, including 
        requiring operators to demonstrate the ability to respond to a 
        deepwater blowout.
  --Continuing to pursue changes responsive to the recommendations of 
        the Safety Oversight Board, the National Academy of 
        Engineering, and the National Commission on the BP Deepwater 
        Horizon oil Spill.
  --Completion of a review of ethics issues related to the Department's 
        management of the OCS program and creation of the 
        Investigations and Review Unit.
  --Implementation of a recruitment strategy for BOEMRE to expand the 
        field of inspectors and engineers including recruitment tours 
        of petroleum engineering programs at universities across the 
        country.
  --Establishment of the Offshore Energy Safety Advisory Committee to 
        advise BOEMRE on issues related to offshore energy safety, 
        including drilling and workplace safety, well intervention and 
        containment, and oil spill response.
    The 2012 budget includes $506.3 million for the components of the 
former MMS to continue our efforts at reorganization and reform of both 
offshore energy development activities and mineral revenue collection. 
This includes a total program of $358.4 million for the BOEMRE, an 
increase of $119.3 million, or 50 percent, more than the 2010 enacted 
level, after adjusting for the transfer of mineral revenue collections 
to the new ONRR. The budget proposes to offset BOEMRE program funding 
with $160.2 million in offsetting rental receipts and cost recoveries 
and $65 million from oil and gas inspection fees.
    The budget makes investments to increase capacity for leasing and 
environmental review, safety and environmental enforcement, and oil 
spill research. This request will enable Interior to hire more than 100 
inspectors, engineers, and other safety and enforcement staff by the 
end of 2012. The 2012 budget includes funding for the Investigations 
and Review Unit to respond to allegations or evidence of misconduct and 
unethical behavior; oversee and coordinate internal auditing, 
regulatory oversight and enforcement systems and programs; and ensure 
the organization's ability to respond to emerging issues and crises, 
including spills and accidents. Funding is also included to support the 
use of sound science in all of the Department's offshore energy 
activities.
    The 2012 budget request also includes $147.9 million for the ONRR 
located in the Office of the Secretary. The proposed $38.7 million 
increase more than the 2010 enacted level will allow us to strengthen 
auditing and compliance efforts for royalty revenue collections and to 
complete the transition of the royalty-in-kind program to royalty-in-
value collections.
    Youth in the Great Outdoors.--Furthering the youth and conservation 
goals of the America's Great Outdoors initiative, the 2012 budget 
proposes to continue engaging youth by employing and educating young 
people from all backgrounds. The 2012 budget includes $46.8 million for 
youth programs, an increase of $7.6 million more than the 2010 enacted/
2011 continuing resolution level.
    Interior is uniquely qualified to engage and educate young people 
in the outdoors and has programs that establish connections for youth 
ages 18 to 25 with natural and cultural resource conservation. These 
programs help address unemployment in young adults and address health 
issues by encouraging exercise and outdoor activities. For example, 
Interior is taking part in the First Lady's Let's Move initiative to 
combat the problem of childhood obesity. The BLM, NPS, and FWS have 
Let's Move Outside programs to promote physical activity for children 
and families on the Nation's public lands. Interior has long-standing 
partnerships with organizations such as the 4-H, the Boy Scouts, the 
Girl Scouts, the Youth Conservation Corps, and the Student Conservation 
Association. These programs leverage Federal investments to put young 
people to work and build a conservation ethic.
    In 2010, Interior met its high-priority performance goal to employ 
15,900 in conservation-related careers through the Department or its 
partners. This is a 45 percent increase from 2009. The 2012 goal is to 
increase this youth employment by 60 percent.
    Cooperative Landscape Conservation.--The 2012 budget realigns 
programs and funding to better equip land and resource managers with 
the tools they need to effectively conserve resources in a rapidly 
changing environment. Significant changes in water availability, longer 
and more intense fire seasons, invasive species, and disease outbreaks 
are creating challenges for resource managers and impacting the 
sustainability of resources on public lands. These changes result in 
bark beetle infestations, deteriorated range conditions, and water 
shortages that negatively impact grazing, forestry, farming, as well as 
the status of wildlife and the condition of their habitats. Many of 
these problems are caused by or exacerbated by climate change.
    The 2012 budget includes $175 million for cooperative landscape 
conservation, an increase of $43.8 million. The budget funds the 
completion of the climate science centers and landscape conservation 
cooperatives, the organizing framework for the Department's efforts to 
work collaboratively with others to understand and manage these 
changes. These efforts will allow the Department to meet its priority 
goal to identify resources vulnerable to climate change and implement 
coordinated adaptation response actions for 50 percent of the Nation by 
the end of 2012.
    The request for the USGS climate variability science is $73 
million, which includes $14.3 million for carbon sequestration 
research. The USGS is conducting cutting-edge research in biological 
and geological carbon sequestration, to investigate the potential of 
removing carbon dioxide from the atmosphere for storage in vegetation, 
soils, sediments, oil and gas reservoirs, and saline geologic 
formations. The 2012 budget will advance USGS research to assess rates 
and potential capacity for carbon storage in ecosystems, and evaluate 
the Nation's potential resources for geological storage.
    Water Challenges.--Interior is working to address the 21st century 
pressures on the Nation's water supplies. Population growth, aging 
water infrastructure, changing climate, rising energy demands, impaired 
water quality and environmental needs are among the challenges. Water 
shortage and water use conflicts have become more commonplace in many 
areas of the United States, even in normal water years. As competition 
for water resources grows, the need for information and tools to aid 
water resource managers also grows. Water issues and challenges are 
increasing across the Nation, but particularly in the West and 
Southeast due to prolonged drought. Traditional water management 
approaches no longer meet today's needs.
    The request for the BOR funded in the Energy and Water Development 
appropriation proposes to fund WaterSMART at $58.9 million. This 
program is a joint effort with the USGS. The USGS will use $10.9 
million, an increase of $9 million, for a multi-year, nationwide water 
availability and use assessment program.
    The Department is working hard to address water issues throughout 
the West. Most of the work is led by the Department's BOR funded 
through the Energy and Water Development appropriation. Many of the 
Department's other bureaus, like the FWS, and the U.S. Geological 
Survey (USGS), partner and offer additional support to these efforts.
    The Bay-Delta is a source of drinking water for 25 million 
Californians and sustains about $400 billion in annual economic 
activity, including a $28 billion agricultural industry and up until 
recently supported a thriving commercial and recreational fishing 
industry. Our efforts in the Bay-Delta are focused on co-leading an 
inter-agency effort with the CEQ to implement the December 2009 Interim 
Federal Action Plan for the California Bay-Delta Conservation Plan. In 
coordination with five other Federal agencies, we are leveraging our 
activities to address California water issues, promote water efficiency 
and conservation, expand voluntary water transfers in the Central 
Valley, fund drought relief projects, and make investments in water 
infrastructure. Over the past 2 years, we have invested more than $500 
million in water projects in California. We have also, in close 
coordination with NOAA and the State of California, worked on the 
California Bay-Delta Conservation Plan, a long-term plan aimed at 
restoring both reliable water supplies and a healthy Bay-Delta 
ecosystem.
    On February 18, we announced the initial 2011 Water Supply 
Allocation for Central Valley Project (CVP) water users. We were 
pleased to report that some of the CVP contractors and waters users 
will receive a 100 percent allocation due to the precipitation and 
snowpack in the Sierra Nevada Mountains and improved carryover 
reservoir storage. Agricultural water service contractors South-of-
Delta have an initial allocation of 50 percent, but this is an 
improvement on the 46 percent initial allocation they've averaged over 
the past 20 years. These allocations represent good news given recent 
years, but many challenges remain. We will continue to work with our 
Federal, State, and local partners to improve water supply reliability 
while addressing significant ecological issues.
    Our 2012 budget for the BOR includes $53.1 million for the CVP 
Restoration Fund that is offset by collections estimated at $52.8 
million. The 2012 budget for BOR includes $39.7 million for the 
California Bay-Delta Restoration account and $35.1 million for San 
Joaquin River restoration. An additional $6.9 million is included in 
the budget for the FWS and the USGS activities in support of Bay-Delta 
ecosystem restoration.
    Strengthening Tribal Nations.--The 2012 budget for Indian programs 
is $2.5 billion, a decrease of $118.9 million. The reduction includes 
completion of a one-time $50 million forward funding payment to tribal 
colleges, completion of $47 million in public safety projects normally 
funded by the Department of Justice, and $14.5 million for completed 
water settlements.
    The BIA budget includes reductions that are tougher choices, 
including reductions of $27 million in Trust Real Estate Services, 
$14.2 million in central oversight programs, and $5.1 million in the 
Indian Guaranteed Loan Program.
    The 2012 budget provides $89.6 million in increases including: 
$42.3 million for programs that advance the Nation-to-Nation 
relationship; $20 million to enhance public safety and justice 
programs; $18.4 million to improve trust land management; and $8.9 
million for education programs. The 2012 budget includes an increase of 
$29.5 million for contract support and the Indian Self-Determination 
Fund--this was the highest priority of the Indian tribes. These funds 
will enable tribes to fulfill administrative requirements associated 
with operating programs.
    The 2012 budget supports achievement of a priority goal to reduce 
violent crime by at least 5 percent within 24 months on targeted tribal 
reservations through a comprehensive and coordinated strategy. The 
budget includes $354.7 million, an increase of $20 million, for law 
enforcement operations, detention center operations and maintenance, 
tribal courts, and conservation law enforcement officers.
    Indian Land and Water Settlements.--The 2012 budget includes $84.3 
million in the BOR and BIA to implement land and water settlements.
    The BOR's budget includes $51.5 million, an increase of $26.7 
million, for the initial implementation of four settlements authorized 
in the Claims Resolution Act of 2010. The legislation included water 
settlements for the Taos Pueblo of New Mexico and Pueblos of New Mexico 
named in the Aamodt case, the Crow Tribe of Montana, and the White 
Mountain Apache Tribe of Arizona.
    The Claims Resolution Act of 2010 establishes trust funds for 
tribes to manage water systems and settlement funds to develop 
infrastructure. The primary responsibility for constructing these water 
systems was given to the BOR, while the BIA is responsible for the 
majority of the trust funds, which includes $207.2 million in mandatory 
funding in 2011.
    These settlements will deliver clean water to the Taos Pueblo and 
the Pueblos of Nambe; Pojoaque, San Ildefonso, and Tesuque in New 
Mexico; the Crow Tribe of Montana; and the White Mountain Apache Tribe 
of Arizona. In addition to funding for the initial implementation of 
these four settlements, BOR's budget includes $24.8 million for the 
Navajo-Gallup Water Supply project. In the 2012 budget, BOR is 
establishing an Indian Water Rights Settlements account to assure 
continuity in the construction of the authorized projects and to 
highlight and enhance transparency.
    The BIA 2012 budget includes $32.9 million for ongoing Indian land 
and water settlements, a reduction of $12.9 million, reflecting 
completion of the Pueblo of Isleta, Puget Sound regional shellfish, and 
Soboba Band of Luiseno Indians settlements.
    Land Remote Sensing.--For 40 years, Landsat satellites have 
recorded the global landscape, creating an archive of both natural and 
manmade changes. This imagery generates $935 million in value for the 
U.S. economy by driving innovation in the agricultural, water 
management, and disaster response sectors. For example, foresters 
around the country use Landsat imagery to remotely map and monitor the 
status of woodlands in near real-time. This allows them to track the 
devastation caused by the pine bark beetle in the Rocky Mountains and 
monitor drought and fire-prone areas.
    Landsat fills an essential need for data that is refreshed on a 
time scale and with a level of resolution and granular detail that is 
otherwise not available. Commercial data is not available that fill a 
void that could be created in the absence of continuous Landsat 
coverage.
    The 2012 budget for the USGS includes $48 million to begin planning 
activities with the National Aeronautics and Space Administration 
(NASA) for an operational Landsat program. Consistent with the 
administration's national space policy, the 2012 budget enables the 
USGS to assume management responsibility for a new operational Landsat 
program that will ensure continuity of Landsat data in the future. The 
USGS will provide data requirements and funding, while NASA, drawing on 
its historic expertise, will build the Landsat satellites on a 
reimbursable basis for the USGS. This new operating structure is 
consistent with the approach used for NOAA's JPSS weather satellites, 
and will ensure sufficient oversight while avoiding duplication.
    The 2012 budget will enable the USGS to gather and prioritize 
Federal user community requirements for land image data, conduct trade 
studies on key design alternatives related to the development of the 
imaging device, initiate the procurement process through NASA for the 
Landsat 9 and 10 instruments and spacecrafts, and establish a science 
advisory team, in order to launch Landsat 9 in fiscal year 2019 and 
Landsat 10 in fiscal year 2024.
    Also included within a new separate account for National Land 
Imaging is an increase of $13.4 million to complete the retooling of 
the ground receiving stations to be able to receive data from the new 
instruments on Landsat 8, expected to be launched in December 2012.
                          mandatory proposals
    Interior continues to generate more revenue for the U.S. Treasury 
than its annual discretionary appropriation. In 2012, Interior will 
generate revenue of approximately $14.1 billion and propose mandatory 
legislation estimated to generate another $3 billion in revenue and 
savings over 10 years. The budget assumes the enactment of legislative 
proposals that we plan to submit to the Congress in the coming weeks. 
These proposals will reform abandoned mine reclamation and hardrock 
mining on Federal lands, and collect a fair return to the American 
taxpayer for the development of Federal resources.
    Reform Abandoned Mine Land (AML) Reclamation.--The administration 
proposes to reform the AML program to reduce unnecessary spending and 
ensure that the Nation's highest- priority abandoned coal and hardrock 
sites are reclaimed. First, the budget proposes to terminate the 
unrestricted payments to States and tribes that have been certified for 
completing their coal reclamation work as these payments are no longer 
needed for reclamation of abandoned coal mine lands. Second, the budget 
proposes to reform the distribution process for the remaining 
reclamation funding to competitively allocate available resources to 
the highest-priority coal AML sites. Through a competitive grant 
program, a new Abandoned Mine Lands Advisory Council will review and 
rank the AML sites, so that the OSM can distribute grants to reclaim 
the highest-priority coal sites each year.
    Third, to address the legacy of abandoned hardrock mines across the 
United States, Interior will create a parallel AML program for 
abandoned hardrock sites. Like the coal program, hardrock reclamation 
would be financed by a new AML fee on the production of hardrock 
minerals on both public and private lands displaced after January 2012. 
The BLM would distribute the funds through a competitive grant program 
to reclaim the highest priority hardrock abandoned sites on Federal, 
State, tribal, and private lands.
    Altogether, this proposal will save $1.3 billion over the next 10 
years, focus available coal fees on the Nation's most dangerous 
abandoned coal mines, and hold the hardrock mining industry responsible 
for cleaning up the hazards left by their predecessors.
    Reform Hardrock Mining on Federal Lands.--The budget proposes to 
provide a fair return to the taxpayer from hardrock production on 
Federal lands. The proposal would institute a leasing program under the 
Mineral Leasing Act of 1920 for certain hardrock minerals including 
gold, silver, lead, zinc, copper, uranium, and molybdenum, currently 
covered by the General Mining Law of 1872.
    After enactment, mining for these metals on Federal lands would be 
governed by the new leasing process and subject to annual rental 
payments and a royalty of not less than 5 percent of gross proceeds. 
Half of the receipts would be distributed to the States in which the 
leases are located and the remaining half would be deposited in the 
Treasury. Existing mining claims would be exempt from the change to a 
leasing system, but would be subject to increases in the annual 
maintenance fees under the General Mining Law of 1872. The ONRR will 
collect, account for, and disburse the hardrock royalty receipts. This 
proposal would generate an estimated $100 million in revenue over 10 
years.
    Fee on Nonproducing Oil and Gas Leases.--The administration will 
submit a legislative proposal to encourage energy production on lands 
and waters leased for development. A $4 per-acre fee on nonproducing 
Federal leases both onshore and offshore would provide a financial 
incentive for oil and gas companies to either get their leases into 
production or relinquish them so that the tracts can be leased to and 
developed by new parties. The proposed $4 per-acre fee would apply to 
all new leases and would be indexed annually. In October 2008, the 
Government Accountability Office issued a report critical of past 
efforts by Interior to ensure that companies diligently develop their 
Federal leases. Although the report focused on administrative actions 
that the Department could undertake, this proposal requires legislative 
action. This proposal is similar to other nonproducing fee proposals 
considered by the Congress in the last several years. The fee is 
projected to generate revenues to the U.S. Treasury of $25 million in 
2012 and $874 million over 10 years.
    Net Receipts Sharing for Energy Minerals.--The administration 
proposes to make permanent the current arrangement for sharing the cost 
to administer energy and minerals receipts, beginning in 2013. Under 
current law, States receiving significant payments from mineral revenue 
development on Federal lands also share in the costs of administering 
the Federal mineral leases from which the revenue is generated. In 
2012, this net receipts sharing deduction from mineral revenue payments 
to States would be implemented as an offset to the Interior 
appropriations act, consistent with the provision included in 2010 and 
continued under the 2011 continuing resolution. Permanent 
implementation of net receipts sharing is expected to result in savings 
of $44 million in 2013 and $441 million over 10 years.
    Repeal Oil and Gas Fee Prohibition and Mandatory Permit Funds.--The 
administration proposes to repeal portions of section 365 of the Energy 
Policy Act, beginning in 2013. Section 365 diverted mineral leasing 
receipts from the U.S. Treasury to a BLM Permit Processing Improvement 
Fund and also prohibited the BLM from establishing cost recovery fees 
for processing applications for oil and gas permits to drill. The 
Congress has implemented permit fees through appropriations language 
for the last several years and the 2012 budget proposes to continue 
this practice. Starting in 2013, upon elimination of the fee 
prohibition, the BLM will promulgate regulations to administratively 
establish fees for applications for permits to drill. In combination 
with normal discretionary appropriations, these cost recovery fees will 
then replace the permit fees set annually through appropriations 
language and the mandatory permit fund, which would also be repealed 
starting in 2013. Savings from terminating this mandatory funding are 
estimated at $20 million in 2013 and $57 million over 3 years.
    Geothermal Energy Receipts.--The administration proposes to repeal 
section 224(b) of the Energy Policy Act of 2005. Prior to passage of 
this legislation, geothermal revenues were split between the Federal 
Government and States, with 50 percent directed to States, and 50 
percent to the Treasury. The Energy Policy Act of 2005 changed this 
distribution beginning in 2006 to direct 50 percent to States, 25 
percent to counties, and for a period of 5 years, 25 percent to a new 
BLM Geothermal Steam Act Implementation Fund. The allocations to the 
new BLM geothermal fund were discontinued a year early through a 
provision in the 2010 Interior, Environment, and Realted Agencies 
Appropriations Act. The repeal of section 224(b) will permanently 
discontinue payments to counties and restore the disposition of Federal 
geothermal leasing revenues to the historical formula of 50 percent to 
the States and 50 percent to the Treasury. This results in savings of 
$6.5 million in 2012 and $74 million over 10 years.
    Deep Gas and Deepwater Incentives.--The administration proposes to 
repeal section 344 of the Energy Policy Act of 2005. section 344 
mandated royalty incentives for certain ``deep gas'' production on the 
OCS. This change will help ensure that Americans receive fair value for 
federally owned mineral resources. Based on current oil and gas price 
projections, the budget does not assume savings from this change; 
however, the proposal could generate savings to the Treasury if future 
natural gas prices end up below current projections.
    Repeal of Authorities to Accept Royalty Payments In Kind.--The 
administration proposes to solidify a recent Departmental reform 
terminating the Royalty-in-Kind program by repealing all Interior 
authorities to accept future royalties through this program. This 
change will help increase confidence that future royalty payments will 
be properly accounted for. The budget does not assume savings from this 
change because the administration does not anticipate restarting the 
program; however, if enacted, this proposal would provide additional 
certainty that a new Royalty-in-Kind program would not be initiated at 
some point in the future.
    Federal Land Transaction Facilitation Act.--The administration 
proposes to reauthorize this act, eliminating the 2011 sunset date and 
allowing lands identified as suitable for disposal in recent land use 
plans to be sold using the act's authority. The act's sales revenues 
would continue to be used to fund the acquisition of environmentally 
sensitive lands and the administrative costs associated with conducting 
sales.
    Federal Migratory Bird Hunting and Conservation Stamps.--Federal 
Migratory Bird Hunting and Conservation Stamps, commonly known as Duck 
Stamps, were originally created in 1934 as the annual Federal license 
required for hunting migratory waterfowl. Today, 98 percent of the 
receipts generated from the sale of these $15 stamps are used to 
acquire important migratory bird areas for migration, breeding, and 
wintering. The price of the Duck Stamp has not increased since 1991, 
while the cost of land and water has increased significantly. The 
administration proposes to increase these fees to $25 per stamp per 
year, beginning in 2012. Increasing the price of Duck Stamps will bring 
the estimate for the Migratory Bird Conservation account to 
approximately $58 million. With these increased receipts, the 
Department anticipates additional acquisition of approximately 7,000 
acres in fee and approximately 10,000 acres in conservation easement in 
2012. Total acres acquired for 2012 would then be approximately 28,000 
acres in fee title and 47,000 acres in perpetual conservation 
easements.
    Compact of Free Association.--On September 3, 2010, the United 
States and the Republic of Palau successfully concluded the review of 
the Compact of Free Association and signed a 15-year agreement that 
includes a package of assistance through 2024. Under the agreement, 
Palau committed to undertake economic, legislative, financial, and 
management reforms. The conclusion of the agreement reaffirms the close 
partnership between the United States and the Republic of Palau. 
Permanent and indefinite funding for the compact expired at the end of 
2010. The 2012 budget seeks to authorize permanent funding for the 
Compact as it strengthens the foundations for economic development by 
developing public infrastructure, and improving healthcare and 
education. Compact funding will also undertake one or more 
infrastructure projects designed to support Palau's economic 
development efforts. The Republic of Palau has a strong track record of 
supporting the United States and its location is strategically linked 
to Guam and United States operations in Kwajalein Atoll. The cost for 
this proposal for 2012-2021 is $188.5 million.
    Extend Service First Authority.--The budget includes legislative 
language to extend authority for the Service First program. The laws 
creating Service First give the Departments of the Interior and 
Agriculture the authority to establish pilot programs that leverage 
joint resources. Service First allows certain land management agencies 
to conduct activities jointly or on behalf of one another; collocate in 
Federal offices or leased facilities; make reciprocal delegations of 
respective authorities, duties, and responsibilities; and transfer 
funds and provide reimbursements on an annual basis, including 
transfers and reimbursements for multi-year projects. This authority is 
currently set to expire at the end of 2011. The extension included in 
the budget will make the Service First authority permanent to continue 
these arrangements that have saved costs and improved effectiveness.
                               conclusion
    Thank you for the opportunity to testify on the President's 2012 
budget request for the Department of the Interior. We have a tremendous 
opportunity to improve the future for our children and grandchildren 
with smart investments. This budget has fiscal discipline and 
restraint, but it includes forward looking investments. For America to 
be at its best and win the future, we need lands that are healthy, 
waters that are clean, and an expanded range of energy options to power 
our economy. I thank you again for your continued support of the 
Department's mission. I look forward to working with you to implement 
this budget. This concludes my written statement. I am happy to answer 
any questions that you may have.

    Senator Reed. Mr. Secretary, thank you for your statement, 
and I apologize that I almost pre-empted it inadvertently. So 
forgive me.
    I know Senator Cochran is here. Senator, do you have any 
comments?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. I am 
pleased to join the other members of the subcommittee in 
welcoming the distinguished Secretary to our subcommittee.
    We did start off the day together at the Migratory Bird 
Conservation Commission meeting where we have worked together 
for some time. Of course, he was a Senator and he knows us all 
very well. So we cannot get away with bluffing or any of that.
    We have got to know what we are talking about today.
    But it is a pleasure to welcome him to our subcommittee.
    Senator Reed. You are absolutely right, Senator. This is 
more conversational than testimonial. That is why I think I 
slipped into the questions too quickly. But forgive me.

                          OIL AND GAS REVENUES

    Just renewing the initial question, Mr. Secretary, with 
respect to the revenue program, there is a request for 
additional resources, additional employees. Can you tell us how 
you are going to use these resources to increase revenues and 
get this office off the GAO high-risk list?
    Secretary Salazar. Absolutely. It is important to 
recognize, Senator Reed, that the principle we are aiming at is 
to get a fair return to the taxpayer because these are assets 
owned by the American citizen. It is a responsibility which I 
take seriously. It is a responsibility I know you want me to 
take seriously.
    We have moved forward with significant reform efforts on 
the revenue side of what we do at the Department of the 
Interior, including the creation of the Office of Natural 
Resources Revenue (ONRR), so we can make sure the problems in 
the past, including the ethical lapses and criminality within 
the royalty-in-kind program in Lakewood, Colorado, do not occur 
again. We are implementing the recommendations from the General 
Accounting Office, and in the budget that is before you, we 
have a request for $10 million for audit and compliance. 
Hopefully it will allow us to do an even better job in honoring 
that principle.
    Senator Reed. Thank you.

                        OIL AND GAS INSPECTIONS

    A related issue and that is the issue in terms of 
inspection of some of this offshore drilling. You have 
requested the authority to impose an increase in fees from $10 
million to $65 million. This has been objected to in some 
quarters as sort of an unsupportable burden on the industry. 
But we did a little checking and just as a comparison, for 
example, BP, which had Gulf of Mexico revenues last year of 
$10.9 billion, is being asked to pay under this new scheme 
about $1.5 million. That is .01 percent of their revenues. 
Similarly, Shell Oil, which made $61.1 billion in the gulf last 
year, is being asked to pay $1.8 million, or .03 percent of 
their gross revenues. And I could go on and on and on.
    This money seems to be essential to benefit these companies 
and the American public by allowing you to be more thorough in 
your inspections, more confident in your leasing. And I am just 
surprised that this would be greeted by any opposition. I think 
it is a sensible business-like way of getting the job done.
    So if you do not get this increase in fees, if you have to 
rely on the appropriations, the $10 million, what will that do 
in terms of the inspectors, in terms of speeding up the process 
of not only inspecting, but of just overall development of 
resources, Mr. Secretary?
    Secretary Salazar. Thank you, Chairman Reed.
    First, let me just say the revenues we seek here for the 
BOEMRE are absolutely essential if this Congress wants us to 
move forward with robust energy and gas production in America's 
oceans. We intend to do that, but we cannot do it without the 
personnel to do the job.
    Second, I believe the fees we have suggested are reasonable 
fees. I will walk through a couple of them. For example, a 
$17,000 inspection fee for facilities that have up to 10 wells. 
You know, $17,000 in terms of the inspection fees for those 
kinds of facilities--and there are many of those operating on 
platforms off the gulf--does not seem to me to be unreasonable. 
An inspection fee of $31,500 for facilities with more than 10 
wells. When you understand the complexity of these operations 
in the offshore, you have to recognize the need in order to be 
able to do the job of inspecting them. You need to have the 
right personnel and the right resources to do it. The fee 
program we have put forward in the budget to do the 
inspections, I think, is a reasonable one.
    Senator Reed. Thank you, Mr. Secretary.
    I have additional questions, but at this time I would like 
to recognize the ranking member. Then we will conduct a second 
round if your time allows.

                        CHUKCHI SUPPLEMENTAL EIS

    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Secretary, I would like to ask my initial question 
about a decision that came out Friday of last week. The BOEM 
announced that as part of its ongoing litigation in the lease 
sales up north, that it has revised its schedule for the 
completion of the supplemental EIS that is being prepared for 
the oil and gas lease sale 193 up in the Chukchi. And now I 
understand that the supplemental EIS is going to be revised to 
include a very large oil spill scenario. This is going to be 
made available to the public for comment, I understand, in May.
    I am trying to understand kind of the thought process or 
what was behind all this, understanding when the supplemental 
EIS is expected to be completed, whether or not it will be 
worked on at the same time as the exploration plans.
    What I am trying to get at here is, as you know very well, 
we have already experienced some very lengthy delays in the 
leasing process with both the Beaufort and the Chukchi. Shell 
canceled their plans for the 2011 season. I am trying to 
determine what impact this additional assessment, this revision 
is going to have on Shell and their proposal moving forward in 
2012. So if I can ask you to speak to that.
    Secretary Salazar. I will have David Hayes to speak to the 
specifics in terms of the timelines when we expect the 
supplemental EIS to be completed because I think he has those 
on the tip of his tongue.
    Senator Murkowski, because I know your great interest in 
this, as well as the members of the subcommittee, our view on 
the Arctic, looking at what happened in the Gulf of Mexico last 
year, is it is a place where we need to move forward 
thoughtfully and make sure that we have adequate resources for 
oil spill response, and the science is well understood. We are, 
in fact, for the proposed plan scoping in the Arctic in both 
the Beaufort and the Chukchi Seas.
    Having said that, I will also tell you there is a lot of 
work to be done up there. We had hoped the Shell exploration 
well could have moved forward this year in 2011. It probably 
will be on schedule to move forward in 2012.
    Because your question is specifically on Chukchi 193 and 
the decision that came down, let me just have David Hayes speak 
about the SEIS and the rationale behind moving forward with 
that process. David.
    Mr. Hayes. Yes. Senator, the reason for the additional 
environmental review is, during the comment period on the 
supplemental EIS, many critical comments came in suggesting the 
spill response analysis in the original EIS was vulnerable in a 
post-Macando world because it assumed no blowout had occurred 
in 30 years and had sort of the usual pre-Macando suggestion 
that the blowout was virtually inconceivable. We thought it was 
important, therefore, to address the issue on the record to 
ensure the environmental review associated with sale 193 will 
be valid and will provide the basis for moving forward with 
drilling.
    We are on an expedited schedule to complete the 
supplemental work. As you correctly said, the draft we expect 
to come out in May and a final SEIS is scheduled for September. 
We are looking forward to reviewing in parallel the exploration 
plan from Shell. We do not want this or expect this to affect 
the permitting process. We understand the timing sensitivity.
    Senator Murkowski. Let me ask you, though, because the 
initial comment period for the original SEIS had ended in 
October. So why did it take from October until just now last 
week in March to initiate this new scenario study? What was 
going on?
    I guess an additional question to that was was there any 
consultation or discussion of the pros and cons regarding the 
additional study with any of the stakeholders on either side as 
we kind of talk about how we move forward to 2012.
    Mr. Hayes. Senator, I am not privy to what sort of 
discussions there were. I know this was largely driven by the 
legal view the EIS was vulnerable and it should be addressed. I 
will be happy to look into the issue for you in terms of the 
outreach to the stakeholders.
    Senator Murkowski. Do you know why it took from October 
until now to add this additional scenario, if you will?
    Mr. Hayes. I do not.

                       DEEPWATER DRILLING PERMITS

    Senator Murkowski. One more question before my time expires 
here, and this relates to an issue that was brought up in the 
Energy Committee hearing last week. I had asked you, Mr. 
Secretary, about Judge Feldman's ruling that the Department 
needed to act on five deepwater drilling permits in the Gulf of 
Mexico by the end of next week. I asked you if you were still 
on track. You at that time said that there was some 
disagreement, of course, with Judge Feldman's ruling. Mr. Hayes 
went on to state, I believe it was, that you did feel that you 
would be on track to complete or to comply with the order.
    So where are we? That time period, as I understand, now for 
compliance is the end of next week. So the question is, will we 
be seeing anything in terms of additional permits between now 
and the time that the judge has requested?
    Secretary Salazar. Senator Murkowski, let me say two 
things.
    First, I disagree with the court order. Not only this court 
order, but other court orders issued in this particular 
situation. We will be appealing the judge's decision. So that 
is something that we will work out, work its way through the 
legal review, and we will see what the Fifth Circuit has to say 
about what I consider to be an overreach into administrative 
authority. Those arguments will obviously go into the realm of 
the legal review.
    With respect to the issuance of permits, which is I think 
the more fundamental question you care so much about, as do 
other members of the subcommittee, we are moving. We did issue, 
as I testified in front of the Senate Energy and Natural 
Resources Committee, the first of the deepwater permits. It is 
a well which is at about 6,000 feet deep and will go almost 
3\1/2\ miles below the ocean. It is a well which is expected, 
based on the geophysical information available, to be a huge 
producer in the Gulf of Mexico.
    We have in hand a number of other permits that we expect to 
issue very soon in the deep water. These first permits, 
hopefully, will become the template for allowing other 
deepwater permits to be issued in the Gulf of Mexico.
    Part of the reason why these deepwater permits have not 
been issued until this point is because the oil spill 
containment efforts, which industry had been working on and 
which we had been encouraging, frankly were not ready and, 
indeed, are now just basically ready to come on line. Both the 
Helix oil spill containment program as well as the Marine Well 
Containment Corporation program are works that have been in 
progress.
    The Deputy Secretary, along with Michael Bromwich and 
myself, went to Houston to do a visual inspection of the 
sealing caps and other things proposed as part of the 
containment program. We are more comfortable today, but frankly 
if industry is straight with the Congress and with the American 
people, they will tell you they were not ready to deal with an 
oil spill or blowout of the kind we saw at Macando, and we are 
just getting there now.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Murkowski.
    Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman and Ranking 
Member Murkowski. It is a pleasure to serve with you on this 
subcommittee.
    Welcome, Secretary Salazar. Thank you for being here. I 
will tell you that I appreciate your vision for public lands 
and keeping them public for access. Critically important is 
your vision for water. You know how important water is being a 
Westerner. It is our most valuable resource. And I appreciate 
the work you have done for our Native Americans in this 
country. It has been very impressive.
    And I know you have had a very difficult year with what 
transpired in the gulf. I think a lesser man would have had all 
his hair pulled out, and it is good it has not affected you in 
that way at all.
    So thank you for being here.

                                 WOLVES

    Secretary, of course, you know what I am going to talk 
about. I am going to talk about wolves. Secretary Salazar, last 
month you began reviewing a conservation hunt proposal for the 
State of Idaho so that State professionals can cull wolf packs 
to protect livestock and big game. This is important. It is 
allowed under the 10(j) rule of the Endangered Species Act.
    The State of Montana submitted an application for a 
professional hunt in the Bitterroot Valley, but the request has 
not moved forward. We had visited earlier about this issue. I 
was assured that Montana would receive authority last month in 
an expedited process. It is a critically important issue, as 
you know, that we get Montana's hunt approved as soon as 
possible. Can you give me the assurance today that we will 
start the same review, Montana being ``we'', as Idaho this 
week?
    Secretary Salazar. The answer, Senator Tester, is yes. Let 
me just make two quick comments about the wolf issue because I 
know it is one of the issues which you have been so concerned 
about and have been pushing very hard to allow the wolf 
management to be turned back to the State of Montana so the 
hunts can be continued.
    We believe at the Department of the Interior, the wolf has, 
in fact, been recovered and we should, in fact, return 
management of the wolf back to the State of Montana. We have 
litigation saying we have to consider Wyoming and Idaho as 
well. The Idaho and Montana plans are acceptable to us, as well 
as to the courts. On the other hand, Wyoming's plan is not. We 
are trying to work through a solution. We support your 
legislative efforts to move forward to find a solution.
    Senator Tester. Well, I appreciate that. I appreciate your 
leadership on that.

                         MONUMENTS AND REFUGES

    I want to talk about monuments and refuges for a second. 
Mr. Secretary, the Department of the Interior does some great 
work in Montana. You need to be commended for that. You are 
partnering with landowners, local nongovernmental 
organizations, community groups, local businesses, and others 
to protect the way of life in the Rocky Mountain front for 
generations to come from oil and gas development. And make no 
mistake. There are folks who do not understand how important 
the front is to Montana's ranching and outdoor heritage. You 
do.
    I appreciate your work with Canada, British Columbia, and 
the State of Montana to protect the North Fork of the Flathead 
from mining in the headwaters of the Flathead up in Canada. You 
have done some great work on that. It is outstanding.
    These are all great efforts with huge benefits now for our 
children and grandchildren. The projects are locally supported, 
and they are great conservation success stories and I firmly 
believe any conservation in Montana must have solid local 
support before anything happens.
    On the other hand, the Department of the Interior is not 
hearing a clear voice from eastern Montana residents about 
monuments and refuges. There is not the kind of local support 
that is critical to making this work. We have talked about this 
in the past. You have told me that nothing would go forward 
without local input, and I do appreciate that. But I am here to 
tell you that I am hearing clearly from the folks in eastern 
Montana when it comes to monuments and refuges, do not do this. 
There cannot be a new monument or refuge on the Missouri River 
in eastern Montana. Period.
    Let us focus your efforts on the Rocky Mountain front, the 
Blackfoot, the North Fork, where you have done such great work. 
Let us focus making life better in Indian country in Montana. 
But the will is simply not there in eastern Montana. You can 
either comment to that or not. That is up to you.
    Secretary Salazar. I would first say the great work you 
have done on the Flathead and the Rocky Mountain front, I 
think, are the great examples in Montana, and I could cite many 
of those kinds of examples all over the United States. It is 
what we want to do and we want to do it with our America's 
Great Outdoors effort throughout the country. They are locally 
driven conservation initiatives where we as the Federal 
Government can be partners in the same way as in the Migratory 
Bird Commission with Senator Cochran. I think we reviewed seven 
very significant projects for wetlands and wildlife. It is that 
kind of approach that underpins everything we will do in 
conservation.
    Senator Tester. I appreciate that, Secretary Salazar. I can 
tell you what the people in eastern Montana told me very, very 
recently. Montana is a State of about 950,000 people. Not a lot 
of them live in the eastern part of the State. The majority of 
the population lives in the West. And they said we are a few 
people. We have been on this land for more than 100 years in 
many cases, and when it comes to input, is our input going to 
be given more weight than folks that live outside the State or 
outside the area? And that is really what their concern is. 
When we talked about ground up, you and I both know what we are 
talking about when we talk about ground up. But the fact is 
that if people within the EPA give as much weight to people 
that live outside the area and outside the State, as folks who 
have lived there, it could be a real problem.
    Do you have any comment about that?
    Secretary Salazar. I fully agree with the concept. I think 
coming from a very rural area myself, I never liked Denver 
telling the San Luis Valley what to do, and I did not like 
Washington telling Colorado what to do. I very much understand. 
And that is why we have engaged in significant outreach. I will 
tell you, Senator Tester, I intend to continue that kind of 
outreach in all the 50 States of the United States before we 
make final decisions on how we are moving forward on 
conservation initiatives.
    Senator Tester. Okay, thank you.
    My time has run. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Tester.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman. I look forward to 
working with you and Senator Murkowski and others on this 
subcommittee.
    Secretary, it is nice to see you again. I am glad you are 
here and I look forward to working with you too.
    Just a couple of comments before I get to a question.

                            LAND ACQUISITION

    One is in line with--maybe I will go ahead and ask a 
question. Do you anticipate acquiring more land? You mentioned 
that comment we are going to grow by another 100 million 
people. Where do they go? Is it part of your budget to acquire 
more Federal lands?
    Secretary Salazar. The answer is yes, as appropriate, but 
as we have seen--and if I may, Senator Blunt and Mr. Chairman, 
just take as an example of what we did in Kansas with former 
Senator Brownback and now Governor Brownback and others as we 
created the Foothills National Conservation Area. It was an 
effort which was supported strongly by the Kansas Livestock 
Association, the Kansas Farm Bureau, and the Nature 
Conservancy, and a whole host of other organizations. What we 
did there was to create a 1.1 million acre national wildlife 
conservation area which will protect the last of the remaining 
tall grass prairie within North America. It was important for 
the ranchers that we do that because the ranchers wanted to 
make sure they had the ranching heritage on these working lands 
to pass on to future generations. They have been partners with 
us as we moved forward with the initiative. We are not buying 
those lands. It is a partnership that we are working on with 
private landowners. We will seek as many of those opportunities 
as possible.
    On the other hand, if you look at the Grand Tetons National 
Park, which is a crown jewel for the Nation and for the State 
of Wyoming, there are significant inholdings within the 
national park itself. We have an effort included in this budget 
request to buy out those inholdings so we do not have trophy 
homes essentially being built in the middle of what is one of 
the Nation's crown jewels.
    Senator Blunt. Well, thank you. I appreciate that. In fact 
I have in the past encouraged the Department to buy some pieces 
of land that made parkland more whole and more secure and more 
intended for what it wanted to be.
    I will continue to be concerned, though, as I know you are, 
about maintaining what we have, whether it is the 50-year-old 
St. Louis Arch that is 50 years old this year and has 
significant challenges--I know you have been there and visited 
that location--or the mall 200 or 300 yards from where we sat. 
Maintaining what we have or making it conducive to people to 
visit is also important. And I look forward to working with you 
on that because our maintenance needs have been great in the 
system since I came to the Congress a dozen years ago, and they 
do not seem to be getting any better. They seem to be getting 
greater all the time.
    I am glad to see some of the things happening on the mall 
with lots of private encouragement, and that is good. It seems 
like all of our big projects now have to involve a public/
private partnership for lands or facilities that were 
essentially put there by the Federal Government for the people 
of the country and wind up with this big maintenance backlog. 
And I am concerned about that and will continue to be 
interested in that and want to work with you on that.

                    BUDGET REQUEST COMPARED TO 2008

    Just a fundamental question. How does the 2012 budget 
compare to the 2008 budget? Does anybody have that number?
    Secretary Salazar. Let me ask our budget director.
    Senator Blunt. While you are looking, I will let her look 
for that, and we will come back to that.

                               OIL SPILL

    On the oil spill that you mentioned as a national crisis--
and it was. I heard kids at school every day, as I would drop 
my son off there, saying has the oil spill stopped yet. And 
they were very concerned about it.
    I hear different reports as to the long-term impact of 
that, and I think the last White House report I heard was that 
the long-term impact, not to minimize the oil spill or suggest 
we would ever want it to happen again, may be not as bad as we 
had thought. What do you see in the public and private lands as 
the impact of that oil spill?
    Secretary Salazar. Senator Blunt, I have spent a good 
amount of time, obviously, in the last year over the Gulf of 
Mexico and the Mississippi Delta and have done so because I 
feel I have responsibility to make sure, as we move forward 
with oil and gas drilling, that we are doing it safely. I also 
have done it because of the great importance of protecting the 
environment and the ecosystem. My hope is that out of this 
tragedy we will basically be able to stand up a gulf coast 
restoration program that finally restores the marshlands of the 
Mississippi River and helps us with barrier reefs and a whole 
host of other things that are so important to the five States 
that share the gulf coast. I know there is legislation being 
considered to try to at least get some of the civil penalties 
coming from this case into that kind of a gulf coast 
restoration.
    My own personal view of what I have seen through my eyes as 
I have been in the area is much of the oil, yes, has been 
cleaned up, but there are still many places in the gulf where 
you can still see the remnants of oil. The assessments of what 
the damage is are still continuing. We have a Natural Resource 
Damage Assessment Program where we are working closely with the 
affected States to determine what the final damage is going to 
be. We will not know for a while, frankly, because there is a 
lot of science involved in trying to figure out what happened 
with the oil. It is an ongoing issue.

                    BUDGET REQUEST COMPARED TO 2008

    Senator Blunt. Back to the other question, I think maybe we 
have got the answer to that, the 2012 number versus the 2008 
number.
    Ms. Haze. Yes, sir. The 2012 request is $12.2 billion. The 
2008 funding level for the Department in discretionary funding 
was $11.5 billion. If you include supplemental appropriations 
from that year, it was $11.8 billion.
    Senator Blunt. And what about 2010? Do you happen to have 
that available also, which is the level we are spending right 
now.
    Ms. Haze. Right. That is $12.2 billion.
    Senator Blunt. $12.2 billion. And you are asking for----
    Ms. Haze. $12.2 billion.
    Senator Blunt. You are asking for the 2010 level.
    Ms. Haze. Essentially.
    Senator Blunt. Any new revenue sources in that that would 
not have been----
    Ms. Haze. Yes. We have increases for inspection fees in 
both the BOEMRE and the BLM. I am trying to remember if there 
is anything else.
    Senator Blunt. But level funding from 2010 and up from 2008 
even with the supplemental in 2008.
    Ms. Haze. Right.
    Senator Blunt. I think I have gone over my time here, Mr. 
Chairman. I am sorry.
    Senator Reed. Thank you, Senator Blunt.
    Secretary Salazar. If I may, Mr. Chairman----
    Senator Reed. Mr. Secretary.
    Secretary Salazar [continuing]. Just make a quick comment 
to respond to Senator Blunt.
    I think one thing, as we deal with these very difficult 
times on the deficit, Senator Blunt--and I know it is a concern 
of yours, a great concern of the members of this subcommittee, 
is to look at the history of funding of the different 
Departments. If you look at the Department of the Interior from 
2001 through 2008, it essentially was not funded at the levels 
that in my view were appropriate. The consequence is we ended 
up having a Government that, frankly, was dysfunctional in some 
areas, and including the efforts with respect to ocean energy 
and MMS. What we have been trying to do in the budgets for the 
last several years is to get up to the funding needs that will 
essentially allow us to do the job assigned to us over the now 
163 years of history of the Department of the Interior.
    Senator Reed. Senator Collins, please.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Secretary, as I said, it is great to see you here again 
today.

                          OFFSHORE WIND ENERGY

    One of the most promising renewable energy technologies in 
the country, indeed in the world, is the development of 
deepwater offshore wind energy to help us meet some of our 
Nation's electricity needs. I am very concerned that the United 
States may lose the race in developing this technology. Too 
often with the other alternative energy technologies, we have 
seen the development of the initial technology in the United 
States, but then we see China or some other country end up 
doing the development or the manufacturing. And solar is an 
example of that where the Chinese now manufacture the majority 
of solar panels.
    I do not want us to lose the race for the development of 
deepwater offshore wind technology which does offer such 
promise. In order for the United States to win that technology 
race, we are going to need a partnership with the Federal 
Government, State governments, universities, and the private 
sector.
    And that is exactly what we have been putting together in 
the State of Maine. The University of Maine, the State of 
Maine, a consortium of private companies have been working 
together to develop the research and technology and actually to 
develop a prototype of a windmill with new composite blades 
that are stronger and can more easily withstand the persistent, 
stronger offshore winds, which is, of course, the advantage of 
offshore deepwater winds.
    With respect to the role of the Department of the Interior, 
where does deepwater offshore wind fit in within Interior's 
plans for leasing opportunities?
    Secretary Salazar. Senator Collins, let me say it is a very 
high priority for the Department of the Interior. I am going to 
have David Hayes comment specifically on the deepwater offshore 
wind. But let me preface it by saying this.
    We have worked very hard over the last 2 years with the 
Governors, Democrats, and Republicans--we do not make a 
distinction--from all the States on the Atlantic. We view the 
opportunity for the development of offshore wind as a huge 
opportunity on the Atlantic because of the quality of the wind 
and the importance of not having to go through the choke you 
sometimes have to go through when you are dealing with 
transporting renewable energy on the offshore and you have to 
build transmission. We have some great opportunities and have 
been working closely with the Department of Energy in funding a 
number of different projects and are looking at including the 
research. I am going to have David answer part of the question 
because otherwise he will say, well, why do you need a deputy 
if you do all the talking?
    Secretary Salazar. So David Hayes, the Deputy Secretary.
    Senator Collins. Mr. Hayes.
    Mr. Hayes. I will resist.
    Senator, we share your enthusiasm for deepwater technology 
and think the State of Maine is the place to test drive this 
new technology. It fits in, as the Secretary is suggesting, 
with our Atlantic strategy, and Maine is the place with the 
deepwater and the strong winds. We are partnering, as you know, 
with the Department of Energy to pilot projects and with the 
efforts of the University of Maine and others. We are looking 
forward to continuing to work with the task force set up in 
Maine and with the new Governor to identify the best areas to 
pilot test the technology. We look forward to working with you 
to have Maine leading the world in terms of deepwater wind 
technology.
    Senator Collins. Thank you. I am truly so excited about 
this opportunity. And the winds off the coast of Maine, as you 
know, are some of the strongest and most persistent. That is 
why I was a little concerned when I saw that the Department was 
designating some mid-Atlantic States for the expedited 
permitting when we have better wind.
    I mean, there are a lot of opportunities, obviously, along 
the Atlantic sea coast, but truly, the studies do show that we 
have stronger and more persistent wind.
    There is a need to inform the rulemaking and permitting 
processes for deepwater floating technologies, including the 
environmental design and safety criteria. Do you see a role for 
the Department by helping perhaps to sponsor a prototype 
deployment? That is what we are looking at in Maine is 
developing an offshore windmill that could be anchored or 
floated. They are still working out the technology. Do you see 
a role for the Department in helping to sponsor such a 
prototype?
    Mr. Hayes. Absolutely, Senator. We are very interested in 
doing that. We are partnering with DOE to find some dollars, 
and they have already committed $1 million toward this effort. 
We will do our part, which is the permitting part, to help make 
that happen.
    Senator Collins. Great. Thank you very much.
    And thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Collins.
    Senator Cochran.

                           PREPARED STATEMENT

    Senator Cochran. Mr. Chairman, thank you very much. I have 
already made a comment or two, and I have an opening statement 
which I could read and I am sure everyone would appreciate my 
artful way of saying things. But I will withhold that impulse 
and ask----
    Senator Reed. We appreciate that also.
    Senator Cochran [continuing]. That my statement be printed 
in the record.
    Senator Reed. Without objection.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Mr. Chairman, I am pleased to join you in welcoming the 
distinguished Secretary of the Interior to present the fiscal year 2012 
President's budget request for the Department of the Interior to our 
subcommittee.
    The Department of the Interior has seen quite a few changes this 
year--many in response to last year's Gulf of Mexico oil spill. As you 
know, this oil spill has created much hardship in my State, from rig 
workers to restaurateurs to fishermen. The entire gulf coast economy 
has been hurt by the spill, and because we were already suffering from 
an economic recession, gulf coast residents have been hit harder than 
most.
    Mr. Secretary, I appreciate the fact that you and your staff have 
worked very hard to reorganize the agency that oversees offshore 
drilling in order to increase safety. It is important to ensure that 
nothing comparable to the Deepwater Horizon incident ever happens 
again. The effects on the drilling industry, however, have been severe. 
Domestic drilling employs thousands throughout the gulf region, and 
with every month of delay in the Department of the Interior's 
permitting process, the option of closing domestic production 
altogether becomes more of a threat. As gas prices rise to more than 
$3.50 a gallon nationally, I urge you to consider how this lack of 
energy security affects consumers all over the United States.
    The Mississippi gulf coast is a wonderful resource, and I hope that 
rehabilitation and maintenance of the Gulf Islands National Seashore 
remains at the top of your priority list. Additionally, I thank you for 
your continued support of the scenic Natchez Trace Parkway that runs 
from one corner of Mississippi to the other. It is important to 
recognize and take care of such interesting and historically 
significant areas of America.
    I appreciate your attention to our concerns, and I look forward to 
hearing your testimony.

    Senator Cochran. I join others on the subcommittee in 
complimenting the Secretary for the good job he is doing and 
finding out that he has a Deputy Secretary that he lets do some 
of the talking when pressured.
    But thank you very much, Mr. Chairman.
    Senator Reed. Thank you, Senator Cochran.
    Mr. Secretary, I think you have to depart in approximately 
10 minutes, and so let me ask one question, Mr. Secretary, then 
recognize my colleagues down the line for questions.
    Secretary Salazar. Mr. Chairman, it is another U.S. Senator 
that I can push back.
    So if the subcommittee wishes me to continue to answer 
questions, I am happy to stay here a little longer.
    Senator Reed. I admire your patience and your fidelity to 
duty.
    Secretary Salazar. It happens to be a Senator from 
Colorado. So I might be able to just tell him----
    Senator Reed. Then I am revising. We will have 10-minute 
second rounds. No.
    Let me go ahead and ask one question.
    Just for the record, all statements of my colleagues will 
be made part of the record.
    In addition, I assume additional questions will be 
submitted to you, Mr. Secretary, very promptly for your written 
response, and we would appreciate that response promptly.
    Let me ask my one question and then in the remaining time 
recognize my colleagues.

                                LANDSAT

    This is with respect to the USGS. There is a $61 million 
request for additional funding for the Landsat program, and 
there are two areas I want to focus on.
    First, there seems to be a change in the basic program. My 
understanding is that previously NASA would assume 
responsibility and budget for the preparation, the launch, that 
once the vehicle got in space, Landsat would run it and 
distribute the data and do all the things that you had to do to 
manage the satellite. Now the proposal is--and this is for 
Landsat 9 and 10. There is already 5, 7, and 8 that are 
orbiting--that essentially the Department will absorb all the 
costs and contract back to NASA the costs that they were 
previously fronting in terms of preparation and launch.
    So it raises one significant issue. Why are we changing it 
this way? Is this just sort of moving money around on the 
Federal budget between two agencies? What is the advantage?
    And it is significant because, as I look at the numbers 
going out to fiscal year 2016, maintaining or budgeting for 5, 
7, and 8, the satellites in progress now, it is about a $50 
million annual cost. With 9 and 10, because of the new regime, 
it is $264 million a year. So that is a lot of money going 
forward. Can you afford it and again why are we doing it this 
way if the previous system seems to work?
    And it raises a related question, which is then-Secretary 
Kempthorne formalized a policy that this information is no cost 
to the public. And I think in the concept of public libraries 
and the schools, that is great, but with large corporations 
that use this information for their own purposes, market it, 
sell it at a profit, there might be some consideration to some 
type of fee structure in which you would get paid for what is 
very valuable information.
    So two comments. Why are we making the changes? Can you 
substantiate in a budget authority over several years this new 
responsibility? And are you thinking about charging 
appropriately for for-profit use of the information?
    Secretary Salazar. Chairman Reed, the proposal we have in 
front of you is as a result of a very long and extensive effort 
involving the President's National Space Council. That is where 
this proposal has emerged.
    I am going to ask the Deputy Secretary to address the 
issue.
    Mr. Hayes. Senator, the reason for the change basically is 
to mirror what we do with weather satellites, which is to have 
the agency using the data, helping to develop the program and 
to implement the program for which the satellite data is used 
to have overall responsibility for managing the data, et 
cetera. That is the Interior Department. We run the Landsat 
program. Traditionally it has been awkward with NASA 
essentially being the delivery mechanism. They have also had 
sort of a gray area with us in terms of programmatic 
responsibilities. The idea is to consolidate those with us, 
have NASA as our partner as necessary in terms of the launching 
of the satellites, et cetera. We think this will be more 
efficient, we will save money in the long run, and we will have 
a more organized way to run this program.
    Of course, the information from the Landsat program is 
central to the resource mission of this Department. Our 
agricultural water management, disaster response, national 
security, all is managed through the USGS as part of the 
Department of the Interior and our companion bureaus.
    With regard to your second question about the potential 
charging for Landsat type information, under the current law we 
would only be able to charge incremental costs of the 
generation of the images themselves. That is the way the Land 
Remote Sensing Policy Act works. That incremental cost is very 
modest, particularly compared with the heavy public usage of 
this information. In fiscal year 2010, more than 2.5 million 
scenes were downloaded and used by localities, States and 
Federal Government. I actually represented the United States in 
some international discussions, and the availability of Landsat 
imagery is actually providing international benefits to the 
United States.
    The most we think we could recover would be about $200,000 
under the statute. We think the availability of this 
information for free to the public is a tremendous benefit, and 
the transaction costs of 10 cents an image probably does not 
make sense. So that is our view on that, Senator.
    Senator Reed. I appreciate it very much. Again, given the 
daunting challenges, the budget challenges, there might be an 
opportunity or an obligation to rethink not for the public 
libraries, for the individual farmers throughout the country, 
et cetera, but for large companies that are using this 
information. And if this would require a legislative change, 
then obviously we would like to be informed.
    Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Two last questions, and of course they are easy ones: 
Strategic Petroleum Reserve (SPR) and BOEM reorganization. So 
this should go really quickly.

                                  SPR

    I understand, Mr. Secretary, that it is not the Secretary 
of the Interior's decision on SPR. It is the Secretary of 
Energy. I have expressed a concern about tapping into the SPR 
in order to reduce the price of gas just temporarily. I think 
there are some other factors there. I guess the question to you 
would be if the administration were to move on such a proposal, 
do you expect that BOEM would be directed to take its royalty-
in-kind and use that to replenish the SPR? And recognizing that 
we have abolished the royalty-in-kind program, would it 
complicate our ability to do so?
    Secretary Salazar. Thank you very much, Senator Murkowski.
    The royalty-in-kind program is no longer available because 
it was part of the reform effort which we instituted in the 
last year. The program has been phased out.
    On whether or not the SPR is ultimately triggered, there 
are lots of considerations going on. I think you raise some 
very valid considerations.
    Senator Murkowski. Are you being consulted in that process?
    Secretary Salazar. We are involved in the discussions with 
other members of the Cabinet and with the White House. These 
decisions will be made in the context of what is in the best 
national interest, but no decision has been made at this point 
in time.
    In terms of the replenishment, if in fact there was a 
reduction in the amount of oil in the SPR, there would be a 
program to replenish it. How that would be put together I 
cannot tell you right now, but I would be happy to get the 
information back to you in a hypothetical sense.
    Senator Murkowski. Does it make a difference? I mean, 
recognizing that our domestic production is down, I understand 
that production will fall 13 percent in 2011 primarily because 
of the decreased activity in the Gulf of Mexico. Is that an 
issue that we need to be looking at as we discuss this as an 
option? And again, it is not one that I am supporting. But do 
we have the confidence that we will be able to replenish the 
SPR given what we are facing just domestically in terms of the 
decreased production levels?
    Secretary Salazar. Senator Murkowski, we will, number one, 
have a program and strategy for the replenishment because it is 
essential, from our point of view, for the United States.
    In terms of the decrease in production you raise, I think 
it is important for us to remind ourselves, even in the midst 
of this horrific oil spill, we were able, with a very small 
agency, to still continue to oversee the steady, very 
significant production from the Gulf of Mexico, which produces, 
I believe, 29 percent of all of the oil we domestically produce 
here in the country. As we look ahead, while there may be some 
modest decline in the production from the Gulf of Mexico 
because of the Deepwater Horizon and the need to make sure we 
were doing exploration and production in a safe way, it is 
modest from all the projections we have seen, including our own 
and those of EIA. You may see a blip, but the fact of the 
matter is we have more rigs in the Gulf of Mexico, 
interestingly, today than we did a year ago. Part of that is 
because the oil and gas industry sees the very significant 
potential with respect to oil and gas development in the gulf.

                         BOEMRE REORGANIZATION

    Senator Murkowski. Let me ask you about the reorganization, 
and I am mindful of your time here.
    The GAO came out with its list of agencies and programs 
that are at high risk of waste, fraud, and abuse, and one of 
the programs that was at the top of the list was the management 
of Federal oil and gas leases. And in their findings, they cite 
the challenges. And we have had an opportunity to talk about 
the challenges that you have with hiring and training and 
retaining the staff in some key positions.
    I know that you are engaged in the reorganization of both 
the offshore oil and gas management, the revenue collection. 
Under the reprogramming guidelines that we have in this 
subcommittee, you have got to submit your major staff 
reorganizations and the budget reorganizations for us to 
approve. Do you have any idea in terms of timelines when you 
would submit such a reprogramming?
    Secretary Salazar. We have submitted information to the 
subcommittee and to the Congress on parts of the reorganization 
which have been implemented, for example, the ONRR, which has 
been split off from what had been the former MMS. As we move 
forward with the completion of the reorganization, we will 
continue to keep the subcommittee informed.
    Let me say that the issues the GAO has raised, including 
their recommendations, are ones that we are taking seriously 
and many of them we have already implemented. At its core, as 
we look at the reorganization for this subcommittee, it is 
important to identify the three missions which were in conflict 
and which we are attempting to deconflict through the 
reorganization. Those three missions were revenue collection; 
second, leasing and permitting of the lands and the resource; 
and then the third, the safety and environmental compliance 
mission which was with MMS. The reorganization we have put 
together deconflicts those missions so we do not end up in the 
same kinds of situations which existed for the last 30 years 
while the MMS functioned from 1981 until last year.
    Senator Murkowski. And I cannot imagine what you are going 
through in terms of this kind of a reorganization because, as 
you point out--you make it sound pretty neat and tidy with 
three categories, but this is a large undertaking. And at the 
same time that you are doing this, there is the expectation 
that the work is being conducted, that the production records 
are being kept, the environmental standards are maintained. We 
certainly have an interest in making sure that all that is 
happening, and you have got a couple things going on at the 
same time, maybe more than a couple things going on at the same 
time. I know that you are paying attention to this, but I guess 
that I would just add we are very mindful of the fact that we 
do need to be doing all of the daily work, while at the same 
time the reorganization goes. So as these reprogramming 
requests come through, we will be taking careful looks at them.
    Secretary Salazar. Senator Murkowski, I very much 
appreciate the comment. The reality is you are looking at a 
relatively small agency with the revenue piece split off from 
what was MMS. You are looking at a staff of about 1,000, and 
they have the responsibility for safety, environmental 
compliance, permitting, all of the new sets of rules we have 
required of industry. There is just a tremendous amount of work 
going on, and we are mindful of that.
    We have asked the Congress for assistance with additional 
resources. We have received some of those additional resources 
in the budget for 2012. I asked for the additional resources we 
believe we need to create a robust agency.
    I will say one other thing. Director Bromwich, as he has 
worked very, very hard to stand up this robust agency needed 
for these important functions, has already gone out to the 
universities in Texas, Louisiana, and other places to try to 
recruit people to come and work in the Department in these 
positions so we make sure we have the expertise from an 
engineering, petrochemical, and financial point of view to be 
able to do the job. We are hopeful if we get the resources from 
this Congress, we will be to achieve the goal.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Reed. Senator Blunt.
    Senator Blunt. Mr. Secretary, thanks for staying. I know 
you have another appointment. Even if it is a Colorado Senator, 
I want you to be sure and make it.

                          OFFSHORE PERMITTING

    I have just two or three questions actually about drilling 
and searching for resources. I agree with you that our 
conventional resources have to continue to be an important part 
of what we are doing for a long time, and we ought to be 
looking for more of everything--more wind, more solar, more 
nuclear--how do we add on to meet the new capacity needs we 
have.
    But have there been any new offshore drilling permits in 
the gulf issued since the Deepwater Horizon? Is there one 
permit that has been issued?
    Secretary Salazar. The answer is yes. The first was issued 
on, I believe it was, Monday of last week. We expect there will 
be additional permits that will be issued very soon.
    Senator Blunt. And would you anticipate that the $500 
million increase that you asked for in the BOEM would make that 
permitting go faster, or will that have no impact on that 
particular part of what you do?
    Secretary Salazar. I think the request that we have in 
front of you for the additional personnel will help us do the 
job and hopefully we can undertake the permitting process in a 
way to meet the requirements of the law and make sure we are 
doing it in a safe and environmentally protected way. We have 
new rules of the road we created which we announced related to 
everything from certification to the kind of oil spill 
containment put into place. It is going to take a while for 
industry and for the BOEMRE to get up to speed with the post-
Macando world.
    I view the oil and gas from our Nation's oceans in the pre-
Macando well and the post-Macando well timeframe, and I think 
at the post-Macando well time frame, it is important for us to 
recognize, one, the policy of the United States has not 
changed. We continue to believe in the development of oil and 
gas in our Nation's oceans. Second, we need to learn the 
lessons from the Macando well blowout, meaning we need to make 
sure, moving forward, we are doing it in a safe and 
environmentally protected way.
    We have had the good fortune of working with a lot of 
people as we move forward with this agenda, including industry, 
and obviously this is a dynamic situation we would be happy to 
continue to brief you and other members of the subcommittee on.
    Senator Blunt. When do you think the capacity or the 
production there will reach its pre-new horizon levels, or do 
you think it ever will get back to that level of production?
    Secretary Salazar. I think it possibly could, especially 
with some of the geophysical information being developed. There 
are reservoirs out there in the Gulf of Mexico which have a 
high-production capability. You saw one of those reservoirs as 
it came up through the Macando well for 87 days. There are 
significant reservoirs out there, and there is interest, 
significant interest, on the part of industry to continue to 
explore and develop in the Gulf of Mexico.
    We have approximately 37 million offshore acres in the Gulf 
of Mexico leased, and, there is significant opportunity to 
expand oil and gas.
    Senator Blunt. And the additional rigs you mentioned that 
were in the gulf today were prior approved leases, just people 
set new platforms or something in areas that had already been 
approved? Did I not hear you say there were more drilling rigs 
in the gulf today than there were----
    Secretary Salazar. There are more rigs, and part of what we 
will do, as we issue these permits, is those rigs hopefully 
will be able to go back to work soon.
    Senator Blunt. So more rigs would include inactive rigs 
then.
    Secretary Salazar. This is our latest count. March 3, 2011, 
there were 126 rigs in the gulf. On March 3, 2010, there were 
121 rigs--an additional 5 rigs. Now, some of those rigs are 
under contract and some of them are not. Some of them have been 
going through maintenance and upgrades. That is a flotilla 
waiting to begin the exploration activities and the drilling 
activities as we get going here.
    Senator Blunt. As you know, there was a lot of concern 
whenever the moratorium was put on the deepwater rigs, if they 
were never moved out of the gulf--it was too expensive to move 
them in and out, and we would not see those rigs again. Has 
that happened?
    Secretary Salazar. I have heard anecdotes there may have 
been a few rigs that have left, but I think the presence of 
them in the gulf reaffirms the great interest on the part of 
industry to develop the gulf. I think it reaffirms the 
statements the President of the United States made and I have 
made since the Deepwater Horizon that we will look at the Gulf 
of Mexico as a central place to provide the energy to power our 
economy.
    Senator Blunt. And have you issued any nondeepwater, the 
shallower water leases since the Deepwater Horizon?
    Secretary Salazar. We have worked very hard on that, 
Senator Blunt, and at the last count, it was 37 shallow well 
permits issued in the Gulf of Mexico. Indeed, one of the things 
we did, as we started to stand up the post-Macando world, is 
the Deputy Secretary and Michael Bromwich and I spent time 
visiting the different kinds of rigs operating in the Gulf of 
Mexico, including rigs that are operating in the shallow 
waters. It was based on some of those demarcations that we felt 
we could move forward with permits in shallow water, and is why 
there have already been 37 permits issued for those waters.
    Senator Blunt. For the shallow water wells.

                            WILDLANDS POLICY

    The only other comment I would make, while you are here--
and we will talk more as the time progresses--is that I am 
concerned that the wild lands policy can have a negative impact 
on resource development in public lands. And the way that is 
phased in, whether or not there is a true resource effort to 
look at what resources are there, would be important, I would 
think, to know at what point those lands need to go into that 
wild lands category if there is some environmentally friendly 
way to utilize those resources before we set those lands--I 
assume once you go into the wild lands idea, that has the 
potential if not--maybe it definitely puts those lands off the 
list of public lands we could look at for drilling and 
exploration and other inventory issues. That is my last 
question, if you want to comment on that.
    Secretary Salazar. I will have the Deputy Secretary comment 
on this last question.
    Senator Blunt. I was hoping I could eventually ask a 
question so difficult that the Deputy Secretary would answer 
it.
    Secretary Salazar. I can answer the question, but I want to 
make sure he has a turn at the mic.
    Senator Blunt. I hear you. Thank you, Secretary. It is good 
to see you again.
    Secretary Salazar. It is good to see you.
    Mr. Hayes. I think the first part of your question was what 
the impact might be on available resources. We have 41 million 
acres already onshore leased for oil ad gas development. Only 
about 30 percent of those are currently in production. We have 
an inventory of about 30 million acres of leased oil and gas 
lands onshore that are not in production at all.
    The second part of your question, I think, Senator, was 
whether once identified as wildlands, is it a forever 
designation. The answer is no. Only the Congress can establish 
a wilderness area that is off limits. The idea of the wild 
lands policy is, as part of the normal resource management 
planning process under the Federal Lands Policy Management Act, 
the BLM will make decisions through a public process of how to 
manage the different multiple uses of lands. In an update of a 
resource management plan, it may decide that certain lands with 
wilderness characteristics should be identified and protected 
during the life of the resource management plan as wild lands. 
But the decision can be revisited with a revision to the 
resource management plan.

                               PERMTTING

    Senator Blunt. Let me ask one more thing since you brought 
this up. Just because you have given a leased area does not 
mean you have approved specific individual actions, does it? It 
is not all the fault of the leaseholder that they are not fully 
utilizing all of those leases.
    Mr. Hayes. Senator, you are right. There is a permit 
process, of course. Most of these leases are dormant; they are 
not pending applications to drill. In fact, last year we 
approved more than 5,000 applications to drill. This year we 
expect to approve more than 7,000 applications to drill 
onshore. We are processing those applications to drill as they 
come in. There is not a major backlog there.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Blunt. And would those be on public lands or on----
    Mr. Hayes. Yes. These are all on public lands.
    Senator Blunt. Thank you, Mr. Chairman, for your generosity 
with the time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Patrick J. Leahy
    Question. White Nose Syndrome (WNS) continues to spread across the 
country and we have experienced a die-off of historic proportions that 
I fear will have far reaching effects, not only for wildlife and 
ecosystems, but also American agriculture and public health. We now 
have several States considering listing the little brown, northern 
long-eared, and tri-colored bats as either threatened species or a 
species of concern, when just a few years ago these bat populations 
were considered very strong. A significant investment is needed to get 
this under control and I would like to hear from you how much funding 
you believe is needed in fiscal year 2012 to tackle this problem and 
halt the spread of WNS before our bat populations are wiped out 
entirely.
    Can you please share with us what the Department of the Interior 
(DOI) is doing to get to the bottom of this mystery disease and stop 
its spread? And are these funds coming at the expense of other Endanger 
Species Act programs?
    Answer. The Fish and Wildlife Service (FWS) is coordinating WNS 
response activities with more than 100 agencies, organizations, and 
institutions. In May 2011, the FWS published ``A National Plan for 
Assisting States, Federal Agencies, and Tribes in Managing White-Nose 
Syndrome in Bats.'' The plan outlines the actions necessary to 
coordinate Federal and State efforts and identifies actions in support 
of State, Federal, tribal, and partner WNS management efforts. The FWS 
has funded research on the fungus causing the disease, the impacts of 
the disease on bats and bat populations, and potential management 
controls. The FWS has also provided funding to States for developing 
response plans, conducting surveillance and monitoring, participating 
in research, and implementing management actions. In addition to 
leading the development of a national plan to guide the response 
effort, the FWS has issued a national cave advisory to reduce the risk 
that humans might spread the fungus to unaffected areas. The FWS' 
coordination needs will increase as WNS, now found in 16 States and 3 
Canadian Provinces, continues to spread, and as additional agencies, 
institutions, nongovernmental organizations, and individuals become 
engaged in the response effort or are impacted by response actions. The 
number of States needing assistance also continues to increase.
    The FWS received a $1.9 million congressional appropriation in 
fiscal year 2010 that was used to address these issues. The FWS 
estimates its base funding to address WNS in fiscal year 2010 was 
$712,000. The FWS' base funding for WNS comes from the endangered 
species recovery subactivity account which would be directed to 
recovery efforts for other federally listed endangered and threatened 
species.
    In partnership with the FWS and other partners, the United States 
Geological Survey (USGS) responded quickly to identify the causes and 
potential spread of the WNS outbreak once discovered, working closely 
with partners to provide critical scientific information to support 
management. Using field sampling, diagnostic testing and analysis, and 
surveillance, USGS scientists isolated and identified the causative 
fungal organism, the role of humans in WNS spread, and evaluated 
potential modes of transmission, all key factors in resolving any 
disease outbreak. The USGS has unique capabilities to address emerging 
diseases including specialized facilities for diagnosis and research.
    Bats play a major role in pest insect suppression; studying their 
ecology is important not only to understanding the disease, but to 
other public interests. Getting this problem under control requires 
additional research, and leveraging existing funding to provide the 
additional data and information critical to science-based solutions for 
State and Federal agencies charged with managing this outbreak. The 
USGS research staff has the ability to conduct a disease investigation 
and has mobilized quickly to meet this challenge. Solving this problem 
means revealing potential weak links in the disease cycle that can be 
exploited to manage and control WNS, requiring a significant increased 
effort of ongoing research to expand our understanding of the 
interactions among bats, the environment and a novel pathogen.
    Question. The FWS has functionally accepted full, Federal control 
of the Sea Lamprey Control Program on Lake Champlain. This program was 
previously run by the States of Vermont and New York and the FWS. I 
greatly appreciate FWS now leading the way. This Federal leadership has 
increased the sustainability, efficiency and effectiveness of the 
lamprey program considerably. The recent transition to Federal control 
has been facilitated by funds from the Great Lakes Fishery Commission, 
but I feel that the FWS should make the Sea Lamprey Control Program 
part of the basic operations and budgeting process within the northeast 
region. That is the most efficient and sustainable continued path for 
this important work. Lake Champlain Sea Lamprey Control Program is not, 
however, fully funded within the FWS 2012 budget proposal.
    Why has the DOI not included full funding of the Lake Champlain Sea 
Lamprey Control Program as a part of the fiscal year 2012 budget for 
the northeast region?
    Answer. The sea lamprey control program is a highly successful 
program. Because of the FWS' long history in sea lamprey control to 
support salmonid fisheries in the Great Lakes and the capability we 
have developed on Lake Champlain, it is appropriate to adopt the model 
employed in the Great Lakes, where the FWS biologists implement the 
lamprey control program. The opportunity to use $1.2 million from the 
allocation for Lake Champlain in the Great Lakes Fishery Commission 
budget in 2010 allowed the FWS to assume this lead responsibility, 
which the FWS will continue as long as funding allocations through the 
Commission allow.
    This Federal leadership provides for more effective sea lamprey 
control through dedicated, professional staff and clearer procedures to 
address bi-State and within-State administrative challenges. In 
addition to the core lamprey control program, which relies on the 
careful use of lampricides, the FWS is supporting research and 
implementation of alternatives to control sea lamprey, enhancing 
lamprey population assessment capabilities, and pursuing investigations 
toward restoring self-sustaining salmon populations to the lake. 
Because of effective lamprey control on Lake Champlain in recent years, 
the lamprey wounding rate on salmon is now at its lowest point in more 
than a decade. Record-breaking fish are being caught by anglers, and 
public support of the fishery is high.
    Question. And, will you include this program as part of the 
operations and budget for fiscal year 2013?
    Answer. The sea lamprey control program is one of many issues that 
the DOI is considering in the fiscal year 2013 budget formulation 
process, and funding decisions have not been finalized.
    Question. The final Champlain Valley National Heritage Partnership 
management plan is now complete, approved by the regional office, and I 
understand that it is at headquarters awaiting your final signature.
    Will you approve this plan as soon as possible and can you assure 
me that this partnership will be considered a fully fledged National 
Heritage Area (NHA), co-equal with the other fine areas across the 
United States when the National Park Service (NPS) allocates fiscal 
year 2011 funding among these areas?
    Also I see that your fiscal year 2012 budget proposes to cut 
funding for the NHA program from $15 million to $8 million, just when 
there are several new areas being approved. How can this important 
program be sustained under these circumstances?
    Answer. The NPS Northeast Regional Office is finalizing its review 
of the Champlain Valley National Heritage Partnership management plan. 
Upon completion of the review, the plan will be forwarded to the 
Washington program office for final approval. Once the Secretary has 
approved the management plan, the plan is implemented as funding and 
resources are available, including the 1:1 match in funding by the 
managing entities required in authorizing legislation. In fiscal year 
2012, the Heritage Partnership Program will focus on supporting 
recently authorized area planning and areas in the early stages of 
development, such as the Champlain Valley National Heritage 
Partnership.
    The reduced fiscal year 2012 funding level for National Heritage 
Areas supports the directive in the 2010 Interior, Environment, and 
Related Agencies Appropriations Act for NHAs to work toward becoming 
self-sufficient. State and local managers of NHAs continue to rely 
heavily on Federal funding, even though the Federal ``seed'' money 
authorized in legislation to help NHA organizations become established 
was not intended as a pathway to long-term Federal funding. NPS will 
continue to work with the NHAs and the Congress to develop a method for 
allocating funding that considers the age and scope of the areas, 
whether self-sufficiency plans have been put into place and cumulative 
funding provided to date.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                                 cadiz
    Question. On June 30, 2009, I wrote a letter to the Department of 
the Interior (DOI) requesting a re-examination of a 1989 Solicitor's 
Opinion that suggests that nonrail uses for railroad rights-of-way 
across public lands are permissible in certain circumstances. I raised 
this issue out of concern for the proposed use of the Arizona & 
California Railroad Right-of-Way for a water conveyance pipeline in the 
Mojave Desert. While the DOI acknowledged my letter, I have yet to 
receive a formal response. This is a matter of growing importance 
because recently a California water district announced its intention to 
begin preparing the state environmental report necessary to develop the 
Cadiz water project which proposes to use this Right-of-Way for water 
conveyance. In my opinion, it would be inappropriate for a right-of-way 
granted to a railroad by the Federal Government for rail purposes to be 
used for anything other than rail.
    What is the DOI's position in the appropriate uses of rights-of-way 
granted to railroads across public lands and this proposed use in 
particular?
    Answer. I have asked the Solicitor to review this question in close 
coordination with the Bureau of Land Management (BLM). The Solicitor's 
Office has not yet completed its review.
           fish and wildlife habitat conservation plans (hcp)
    Question. The Fish and Wildlife Service (FWS) has worked with 
communities across the country to develop and approve HCP that are 
intended to provide a ``clear regulatory mechanism to permit the 
incidental take of federally listed fish and wildlife species'' as 
explained in FWS Handbook on HCPs. Recently, however, the FWS has 
undermined the certainty that communities felt they had secured through 
the HCPs, and designated critical habitat within approved HCP 
boundaries, for example with the Santa Ana Sucker fish and the Western 
Riverside HCP.
    What assurances can you provide to communities developing HCPs that 
their work will indeed result in the clear regulatory mechanism they 
hope to secure, and not be later encumbered with further regulatory 
burden?
    Answer. When designating critical habitat, the FWS evaluates the 
physical and biological features essential to the conservation of the 
species, identifies the areas with those features and determines 
whether the features may require special management concern. The act 
provides that lands with the physical and biological features essential 
to the conservation of the species and in need of special management 
consideration may be excluded from critical habitat if the FWS 
determines that the benefits of excluding the lands outweigh the 
benefits of including them. In these instances where the FWS did 
designate lands within the Multiple Species Habitat Conservation Plan 
(MSHCP), it reviewed and evaluated the benefits of inclusion and 
benefits of exclusion and the rationale for inclusion or exclusion is 
explained in detail in each rule.
    The FWS recognizes the ongoing efforts of the Western Riverside 
County Regional Conservation Authority to fulfill its obligations under 
the MSHCP, and is committed to continuing to work in good faith with 
them to implement the MSHCP to conserve our covered species and their 
habitats.
                         central valley aquifer
    Question. In 2009, the United States Geological Survey (USGS) 
completed a study of the groundwater aquifer beneath the Central Valley 
in California, which revealed very useful information about the risk of 
subsidence beneath critical infrastructure. This work is very useful, 
and much appreciated by decisionmakers.
    What are you doing to continue to monitor the risk of subsidence in 
critical areas?
    Answer. The USGS is currently working on two studies to address 
subsidence in the Delta-Mendota and Westlands areas of the San Joaquin 
Valley (see Figure 1 below). It is also trying to find funding partners 
to do additional subsidence monitoring in the southern part of the 
valley.
    The Delta-Mendota study is titled ``Evaluation of Groundwater 
Conditions and Land Subsidence Along the Delta-Mendota Canal'' and is 
funded by the Bureau of Reclamation. The objectives of this study are 
to:
  --determine the location and characteristics of changes in land-
        surface elevation, develop and implement an approach to improve 
        understanding of groundwater conditions and land subsidence; 
        and
  --develop groundwater flow and land-subsidence simulations to provide 
        input to stakeholders.
    The Westland study is titled ``Evaluation of Groundwater Conditions 
and Land Subsidence Along the California Aqueduct'', and is funded by 
the California Department of Water Resources. The objectives of this 
study are to determine the location and characteristics in land-surface 
elevation along the California Aqueduct in the Westlands area from 2003 
to 2010, develop and implement an approach to monitor subsidence in the 
Westlands area, and improve the understanding of groundwater conditions 
and land subsidence.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     Figure 1. Location of Delta Mendota and Westlands study areas.

                                 ______
                                 
               Questions Submitted by Senator Tim Johnson
    Question. While I understand the difficult budget decisions that 
the Interior Department (DOI) is facing, I am extremely concerned about 
the inadequate resources provided to authorized rural water projects 
within the Bureau of Reclamation (BOR). The Congress provided $121 
million for authorized rural water projects in fiscal year 2010, and 
yet the administration has requested just $35 million in fiscal year 
2012. I am especially interested in the Lewis and Clark Regional Water 
System, which will provide water to 300,000 people in South Dakota, 
Minnesota, and Iowa when completed. The project is more than half-way 
complete, and the 20 local sponsors have pre-paid their share, many 
well in advance of receiving water from the project. This project 
requires approximately $35 million annually to remain on schedule for 
completion, and yet that is essentially the amount provided in the 
entire account for authorized rural water projects. The amount 
requested for Lewis and Clark--just $493,000--is insufficient and will 
not provide for any forward progress on construction. Recognizing that 
we will likely continue to face a difficult budget situation over the 
next several years, can you assure me that the DOI is committed to 
finishing these vital rural water systems in a reasonable period of 
time?
    Answer. The DOI is committed to finishing these projects in a 
reasonable period of time. We recognize and appreciate what these 
projects mean to the communities they serve: good quality water for 
municipal, industrial, and environmental purposes. BOR utilized a set 
of standard criteria to allocate funding for rural water projects. The 
first priority is funding for the required operations and maintenance 
component of all projects. Second, for the construction component, BOR 
allocated funding based on objective criteria that gave priority to 
projects nearest to completion and projects that serve on-reservation 
needs. We will continue to allocate funding to these projects as best 
as we can within available resources.
    Question. This administration has placed a high priority on 
infrastructure investments, especially in the context of creating jobs 
and growing our economy, and I agree with that philosophy. Utilizing 
funding from the American Recovery and Reinvestment Act (ARRA), BOR 
provided more than $56 million to Lewis and Clark for the water 
treatment plant--no small investment. ARRA, which I supported, was 
intended as economic stimulus; it was never meant to supplant the 
regular budget process. Jobs have already been created in these 
communities, but I am extremely concerned that economic opportunities 
will be missed and growth constrained, if the Federal Government does 
not do more to prioritize this type of crucial infrastructure project 
in the budget. What is the administration's justification for cutting 
rural water project funding so significantly, and will you work to 
provide additional funding for congressionally authorized water systems 
in coming years?
    Answer. We certainly appreciated the funding that the DOI received 
from ARRA. The BOR obligated $232.1 million of ARRA funding for rural 
water projects. This helped us make major progress on these projects, 
especially enabling us to engage in some projects that would have far 
exceeded our funding ability from our annual appropriations. Recovery 
Act funds did not supplant our regular program. Nonetheless, the BOR's 
rural water projects must compete for funding with all of our other 
priorities and programs within available resources. Commissioner Connor 
and I will be happy to work with you to identify additional funding 
opportunities in the coming years.
    Question. With regard to the DOI's energy initiatives, I commend 
your commitment to making sustainable and renewable energy a top 
priority. Wind energy is a key part of the green energy economy, and 
South Dakota can capitalize on tremendous wind potential to help meet 
our renewable energy goals. I am interested in how the DOI is balancing 
the need to grow renewable energy development with its charge to 
protect birds and other wildlife species. I have heard from wind farm 
developers and turbine manufacturers that Land-based Wind Energy 
Guidelines recently released by the DOI could put development of tens 
of thousands of megawatts of wind energy in the United States at risk. 
What is the DOI doing to harmonize the protection of birds and other 
wildlife with continued development of wind energy?
    Answer. The Guidelines are an example of how the DOI tries to 
balance protection of wildlife with the need for renewable energy 
development. It is not the intent of the draft Guidelines to inhibit 
wind energy development; rather, the goal of the draft Guidelines is to 
help guide developers to site and construct wind energy facilities in 
areas where there is least risk to wildlife species. Because 
construction and operation of wind energy facilities can have adverse 
impacts to migratory birds, western ground-nesting birds, bats, eagles, 
and other wildlife, it is important to thoroughly evaluate a site prior 
to construction to verify that the facility will not negatively impact 
wildlife populations. The draft Guidelines recommend early and frequent 
communication between wind energy developers and agencies so that it is 
known early in the development process whether a site may pose a risk 
to wildlife, and if needed, measures to further assess and address 
those risks. The assessment is dependent upon the anticipated level of 
risk to wildlife. If a development site has no or few wildlife issues, 
the need to invest in pre- and postconstruction studies will be 
minimal. The level of environmental coordination provided for renewable 
energy projects is consistent with other development project reviews, 
including residential and commercial construction, transportation, 
surface coal mining, oil and gas extraction, and construction of 
electrical generation facilities.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. Mr. Secretary, your agency delayed the next Outer 
Continental Shelf (OCS) lease sale until next year. The OCS leasing 
program brings in billions annually to the U.S. Treasury. What analysis 
have you done on the economic impacts of a delayed and scaled-back 
leasing program under the OCS leasing program? Do you have a clear 
understanding of what revenues and taxes will be lost to the U.S. 
Treasury because of the delayed lease sale?
    In addition, do you have estimates on the revenues lost to the 
Federal treasury because of the slow issuance of permits in the gulf?
    Answer. The Outer Continental Shelf Lands Act requires that the 
Secretary of the Interior balance the potential for oil and gas 
discoveries against the potential for environmental or other harms from 
the continued development of our domestic energy resources on the OCS. 
This balancing takes on new meaning in the wake of the Deepwater 
Horizon disaster.
    In light of the oil spill that resulted from the Deepwater Horizon 
event, Bureau of Ocean Energy Management, Regulation and Enforcement 
(BOEMRE) must assess the extent to which the baseline environmental 
information utilized in the 2007 Gulf of Mexico (GOM) Environmental 
Impact Statement (EIS) has changed. BOEMRE has begun appropriate 
environmental reviews, including development of a supplemental EIS for 
the remaining GOM sales. In light of the need for these environmental 
reviews, on May 27, 2010, pursuant to the presale process, I cancelled 
Western GOM Sale 215, which was scheduled for August 2010. Central GOM 
Sale 216, which had been scheduled for March 2011, is being 
consolidated with Central GOM Sale 222, currently scheduled for 2012. 
Pending completion and results of additional NEPA analysis, Western GOM 
Sale 218 remains on the schedule for the 2007-2012 program.
    BOEMRE is in the process of planning for a sale in the Western GOM 
within the next year, possibly even before the end of this calendar 
year. The bonuses that would have been received in August 2010 and 
2011, while delayed, are not lost.
    Question. The budget recommends that offshore inspection fees be 
increased to raise $65 million to help fund the BOEMRE budget. Over the 
past decade, the industry has paid on average $7 billion a year in 
royalties, bonus bids, and rental fees. This number excludes taxes paid 
by the industry. Why not reassign the $7 billion first to help fund the 
$65 million the agency needs? If the industry can't get permits to go 
back to work, it seems unfair to assess higher fees on the industry.
    Answer. Royalties and user fees are not interchangeable. The 
purpose of royalties is to achieve a fair return to the taxpayer for 
the use of Federal resources; while the purpose of a user fee is to 
recover the costs the Federal Government must pay to regulate an 
industry. Because these regulatory activities benefit the oil and gas 
industry, it is in the interest of the industry to ensure a more robust 
regulatory agency is available that can function efficiently and 
timely.
    The proposed level of inspection fees, with minor exceptions, 
amounts to less than 1 percent of gross revenues for companies 
incurring these costs. The administration does not believe this to be 
an unreasonable or burdensome cost. Findings from the numerous 
investigations of the Deepwater Horizon incident highlighted the need 
to reform the regulatory oversight of leasing, energy exploration, and 
production to assure human safety and environmental protection. This 
has resulted in new processes, rules, and regulations that must be 
followed by the oil and gas industry. In testimony before the National 
Commission on BP Deepwater Horizon and Offshore Drilling, Marvin Odum, 
President, Shell Oil Company, and Upstream Americas Director, Royal 
Dutch Shell, stated that:

    ``The industry needs a robust, expertly staffed, and well-funded 
regulator that can keep pace with and augment industry's technical 
expertise. A competent and nimble regulator will be able to establish 
and enforce the rules of the road to assure safety without stifling 
innovation and commercial success.''

    The National Commission, after noting current contributions from 
the oil and gas industry, stated that:

    ``The oil and gas industry, however, should do significantly more 
and provide the funds necessary for regulation of offshore oil and gas 
operations and oil spill preparedness planning. The amount of funding 
needs to keep pace as industry moves into ever-more challenging depths 
and geologic formations because the related challenges of regulatory 
oversight likewise increase . . . No matter the precise mechanism, the 
oil and gas industry would be required to pay for its regulators, just 
as fees on the telecommunications industry support the Federal 
Communications Commission. Regulation of the oil and gas industry would 
no longer be funded by taxpayers but instead by the industry that is 
being permitted to have access to a publicly-owned resource.''----
National Commission, Final Report p. 290.

    BOEMRE continues to review and approve applications that 
demonstrate the ability to operate safely and contain a subsea blowout 
in deepwater. The rate of deepwater permit applications is increasing, 
which reflects industry's growing confidence that it understands and 
can comply with the applicable requirements, including the containment 
requirement. However, the need for additional resources to support this 
function is widely recognized and supported by industry. With the 
additional personnel requested in the fiscal year 2012 budget, BOEMRE 
will ensure a thorough and timely review of permitting requests.
    Question. The budget presents a 45 percent increase to the agencies 
that oversee offshore drilling activity and revenue collection. 
Previously, the Minerals Management Service was funded at $338 million. 
Now, the President proposes that BOEMRE and the Office of Natural 
Resource Revenues (ONRR) be funded at $506 million. Can you please 
provide a breakdown of the number of full-time employees you expect to 
hire with this budget and the number of employees that will be hired to 
review environmental assessments and drilling applications? If BOEMRE 
is provided with the funds to hire these full-time employees, do you 
expect further permitting delays in the gulf? Or will these employees 
provide BOEMRE with enough manpower to handle the permits in a more 
timely fashion?
    Answer. The fiscal year 2012 President's budget requests a total of 
$506 million for BOEMRE and ONRR. Of this total, $358 million is 
requested for BOEMRE and $148 million for ONRR; increases of $134 
million and $39 million, respectively, more than the fiscal year 2010 
enacted level.
    BOEMRE's request is composed of funding increases for resource 
management functions; safety and enforcement functions; and 
administration, savings, and other budget adjustments. The request also 
contains funding for an independent advisory board and an 
investigations and review unit. BOEMRE is requesting a total of 1,417 
full-time equivalents (FTE), an increase of 321 more than the fiscal 
year 2010 enacted level.
    Forty-one additional FTE are requested to review and process lease 
management, qualification, bonding and unitization requests and issues, 
as well as requests for development activities, such as plan and permit 
processing and approval. A recently published report by the Department 
of the Interior OCS Oversight Safety Board to the Secretary of the 
Interior states that the ``Gulf of Mexico district offices are 
challenged by the volume and complexity of permit applications and the 
lack of a standardized engineering review protocol. In addition, the 
Pacific region's permitting staff is facing significant succession 
issues.'' It goes on to state that the workforce associated with 
regulating day-to-day activities has not increased proportionately to 
work demands, creating challenges in the need to balance an adequate 
analysis of permit requests with the need to be responsive to industry. 
For instance, Applications for Permits to Modify have increased by 71 
percent from 1,246 in 2005 to 2,136 in 2009 in the New Orleans 
district. In the Pacific region, 80 percent of current permitting 
employees will be retirement eligible in the next 2.5 years. The 
requested funds will enable BOEMRE to ensure that staffing levels are 
commensurate with increasing workloads.
    The fiscal year 2012 request includes $3.6 million for 23 FTE 
originally requested in fiscal year 2011. The reviews conducted by 
BOEMRE staff are necessary to ensure the safety and environmental 
soundness of oil and gas drilling and production on the OCS.
    Additional resources are essential to effectively meet industry 
demand for an efficient, effective, transparent, and stable regulatory 
environment given the increased review that must occur. BOEMRE 
continues to review and approve applications that demonstrate the 
ability to operate safely and contain a subsea blowout in deep water. 
We have seen the rate of deepwater permit applications increasing, 
which reflects growing confidence in the industry that it understands 
and can comply with the applicable requirements, including the 
containment requirement. BOEMRE expects additional permit approvals in 
the near future. However, the need for additional resources is 
recognized and supported by industry, as evidenced by a letter, dated 
November 17, 2010, to the House and Senate subcommittees on Interior, 
Environment, and Related Agencies signed by the American Petroleum 
Institute; American Exploration & Production Council; International 
Association of Drilling Contractors; Independent Petroleum Association 
of America; National Ocean Industries Association; and US Oil and Gas 
Association.
    Additional detail on BOEMRE's fiscal year 2012 request appears in 
the following table.

                         [Dollars in thousands]
------------------------------------------------------------------------
                                             Full-time
                  Item                      equivalents       Amount
------------------------------------------------------------------------
Fiscal year 2010 Bureau of Ocean Energy            1,684        $181,520
 Management, Regulation and Enforcement
 (BOEMRE)--direct appropriation:........
    Baseline adjustment reorganization:
        Transfer to Office of Natural               -588        -109,244
         Resource Revenues (ONRR)/
         Policy, Management and Budget
         (PMB)..........................
                                         -------------------------------
            Fiscal year 2010 BOEMRE--              1,096          72,276
             revised baseline--direct
             appropriation \1\..........
                                         ===============================
Fiscal year 2011 continuing resolution    ..............         +12,036
 (Public Law 111-322) \2\...............
                                         ===============================
Fiscal year 2012 BOEMRE changes:
    Administration, savings, and
     adjustments:
        Fixed costs.....................  ..............          +1,192
        Reorganization efficiencies and               +1          +1,058
         budget changes.................
        Administrative savings..........  ..............          -1,432
        Offsetting collections (rental    ..............          -5,273
         receipts and cost recovery
         fees)..........................
                                         -------------------------------
          Subtotal......................              +1          -4,455
                                         ===============================
    Resource management:
        NEPA and environmental studies               +52          +8,063
         staff..........................
        Environmental studies...........  ..............          +6,500
        General support.................  ..............          +2,527
        Renewable energy................             +11          +2,050
        Fair market value...............              +1          +1,930
        Marine spatial planning.........              +4          +1,000
        Bid evaluation..................              +2            +310
        Center for Marine Resources and   ..............            -900
         Environmental Technology.......
        Marine minerals.................  ..............          -2,000
                                         -------------------------------
          Subtotal......................             +70         +19,480
                                         ===============================
    Safety and Environmental
     Enforcement:
        Inspection/monitoring capability            +116         +44,483
         \3\............................
        Engineering studies--TA&R.......             +12         +11,360
        Oil spill research..............              +4          +8,620
        Permitting......................             +41          +6,945
        Environmental and operational                +33          +5,115
         oversight compliance...........
        Management operations support...             +12          +2,860
        General support.................  ..............          +1,246
        Oil spill response compliance...              +8          +1,240
        Inspection fees.................  ..............         -55,000
                                         -------------------------------
          Subtotal......................            +226         +26,869
                                         ===============================
    Other:
        Investigations and review unit..             +20          +5,782
        Independent Advisory Board......              +4          +1,200
                                         -------------------------------
          Subtotal......................             +24          +6,982
                                         ===============================
          Total, BOEMRE fiscal year 2012           1,417         133,188
           request--direct appropriation
------------------------------------------------------------------------
\1\ The direct appropriation funding shown here is provided for
  comparison with the BOEMRE fiscal year 2012 request. Because ONRR is
  funded through the ROMM appropriation in 2010 and 2011 and has access
  to offsetting collections, the actual budget reflects higher direct
  appropriations and lower offsetting collections.
\2\ Public Law 111-322 provided a total of $24.9 million in direct
  appropriations over fiscal year 2010. Of this amount, $12.9 million
  was designated for ONRR. Public Law 111-242 (a previous continuing
  resolution) included a $25 million rescission of prior year
  unobligated balances for the OCS Connect Project for which budget
  authority is restored in fiscal year 2012. FTE hired with funding from
  Public Law 111-322 are reflected in the total request for the
  Inspection/Monitoring Capability initiative.
\3\ An additional net amount of $10.2 million was provided for
  regulatory activities in the fiscal year 2011 continuing resolution
  (Public Law 111-322) which has enabled BOEMRE to initiate, on a
  limited basis, some of the efforts planned in fiscal year 2011 for
  this initiative. This includes hiring new inspection team members, the
  acquisition of additional helicopter support, vehicles, and space
  needs required to support additional inspection/monitoring capability.

    Question. The price of gas is skyrocketing, and we cannot afford to 
suddenly have our energy supplies disrupted with the resulting price 
surges, gasoline lines and uncertain economic future when we have 
reliable sources of energy here at home. American families cannot 
afford to pay $4 per gallon of gas--do you have an answer for the 
families already struggling to fill up the tank on why you are not 
aggressively making every effort you can to provide more energy now?
    Answer. In fact, we are making every effort to provide more energy 
in a safer and less environmentally risky manner. A domestic energy 
source cannot be considered reliable in a broad sense if the potential 
for a catastrophic accident, such as we have experienced both 
domestically and internationally within the past year is not minimized. 
Our assessment of the Federal offshore oil and gas program following 
the Deepwater Horizon incident was that there were readily identifiable 
actions that we could adopt and which the industry should be required 
to undertake that could reduce the program risks in a meaningful way. 
It is now up to the industry to demonstrate that it can implement the 
changes that we have codified in rules, regulations, and notices to 
lessees.
    We at the Department of the Interior continue to believe that under 
the President's energy program, conventional oil and gas resources are 
a very important part of powering our economy. We continue to operate a 
robust energy development program for both oil and natural gas.
    The President's energy agenda also includes nuclear power and 
renewable resources, such as offshore wind and onshore solar power, in 
order to have a robust energy program for the Nation into the future. 
More specifically, the Department of the Interior has made it a major 
priority to develop the renewable energy potential that we find 
offshore especially along the Atlantic coast. In November 2010, 
Secretary Salazar launched the ``Smart from the Start'' wind energy 
initiative for the Atlantic OCS. This initiative is designed to 
facilitate siting and leasing for commercial wind projects on the OCS, 
thereby spurring responsible development. This is a significant 
initiative of the Department. The budget before the Congress for 2012 
has a goal to authorize and stand up 10,000 megawatts of renewable 
energy power.
    Question. The BLM recently finished the Antelope Complex gather, 
and I understand it was stopped short of the planned removal number 
because they did not find enough horses. This suggests that the program 
is operating under an inaccurate count of how many horses are left on 
the range. In addition, the BLM has only been able to adopt 
approximately 3,000 animals per year. Considering this, in addition to 
the 39,000 horses already under the BLM's care in short and long-term 
holding, 7,600 removals per year still seems high. Since the bulk of 
costs for this program is in caring for the horses removed from the 
range, would the BLM consider limiting the number of removals to 3,000 
per year, the number they are able to adopt, at least until the 
National Academy of Sciences (NAS) study is complete?
    Answer. The Congress has asked the BLM to find ways to manage wild 
horses and burros in a more cost-effective, humane manner, and the 
Department is committed to doing that. To achieve these goals, the BLM 
has issued a proposed strategy for the Wild Horse and Burro Program and 
invited public comment. As part of this new strategy, the BLM intends 
to reduce the annual number of wild horses removed for at least the 
next 2 years from 10,000 to 7,600, a level that would essentially 
maintain the current number of wild horses and burros on the range. The 
BLM is adopting this more conservative gather approach pending the 
findings of the NAS study that will review the program's current 
policies and make recommendations on how best to manage wild horses and 
burros based on the latest scientific research.
    Question. In follow up, we cannot effectively and responsibly 
manage the wild horse and burro population without an accurate count. 
Can you confirm that population estimate methods will be considered in 
the NAS study? Is the BLM committed to a state-of-the-art Census once 
the NAS study is complete?
    Answer. The BLM is committed to using the best science available in 
managing wild horses and burros on western public rangelands. Accurate 
population survey data is the foundation for management decisions, and 
the BLM is continuing to take steps to ensure that it is using the best 
methods available to estimate horse populations. This summer, the BLM 
will fill a new wild horse and burro population survey specialist 
position and begin to train field personnel to use two new methods 
recently developed for horse surveys by the U.S. Geological Survey. 
These new methods are expected to enhance the BLM's population estimate 
data by accounting for the animals not seen during aerial surveys 
through statistical analysis. The BLM also is asking NAS to review 
these new methods and determine if there are better methods that could 
be used to estimate herd population numbers.
    Question. Mr. Secretary, I understand that gathers may continue to 
be necessary, but as you know, I still have grave concerns about the 
timing of these gathers. I have heard that the Triple B gather in 
northeastern Nevada is planned for July, one of the hottest months of 
the year. Many horses died at a gather conducted last July in the same 
area of Nevada. Gathers should not be conducted during the summer 
months except in emergencies and the Triple B does not qualify as an 
emergency. Will the BLM consider rescheduling this gather for the fall 
of 2011? If not, why not?
    Answer. The BLM is preparing to gather wild horses in the Triple B 
Complex, located near Ely, Nevada, beginning in July 2011. This 
proposed gather is needed to improve the health of the herds and public 
lands and to prevent an emergency similar to the Tuscarora gather, 
during which 13 wild horses died as a direct result of water starvation 
or of complications related to dehydration. During summer months and 
dry years, water resources become very limited within the Triple B 
Complex. When this occurs, wild horses tend to concentrate around the 
few existing water sources resulting in negative effects to riparian 
resources. These effects on water resources are compounded by a wild 
horse population in the Triple B Complex that is nearly three times 
above the appropriate management levels. Many of the limited water 
sources are unable to keep up with the current wild horse population 
and the BLM has been hauling water to designated spring sources within 
the Triple B Complex. Reducing population size would help ensure that 
the remaining wild horses remain healthy and are not at risk of death 
or suffering due to insufficient forage and/or water as a result of 
frequent drought conditions.
    A key reform to the Wild Horse and Burro Program is increasing the 
number of mares treated with fertility control. The Porcine Zona 
Pellucida vaccine should be applied to mares in the fall and winter 
months to ensure its effectiveness at preventing foaling. Therefore, 
logistically the BLM is scheduling fertility control gathers for the 
fall of 2011. All other gathers, including Triple B, are for the summer 
months.
    The BLM adjusts its operations during summer months to ensure that 
the wild horses are humanely gathered. Temperature and animal condition 
are monitored, and the gather activities are usually limited to the 
morning and early afternoon hours when the temperatures are cooler. The 
BLM and the gather contractor also make sure there is plenty of clean 
water for the animals to drink once they have been gathered and removed 
from the range.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
    Question. Mr. Secretary, your budget includes a 33 percent increase 
for cooperative landscape conservation programs, for a total of $175 
million. That amount includes a $17.5 million increase for the U.S. 
Fish and Wildlife Service (FWS) to expand its Landscape Conservation 
Cooperatives (LCC) network and a $10.4 million increase to expand the 
U.S. Geological Survey's (USGS) Climate Science Centers (CSC). Could 
you please explain what these investments will actually buy in terms of 
increased science capacity and on-the-ground restoration work?
    Answer. To protect the viability of fish, wildlife, plants, and 
their habitats from the serious threats of sea level rise, drought, 
shifting wildlife migration, habitat loss, disease and invasive species 
that are associated with the effects of compounding environmental 
stressors, the Department of the Interior (DOI), must rapidly develop 
the ability to deliver conservation across connected landscapes of 
habitats, based on the best available scientific understanding.
    To meet that goal, the DOI is establishing a new business model 
with our partners to manage at the landscape scale and leverage the 
conservation capacity of individual organizations to attain biological 
outcomes larger than any one partner could achieve alone. The 2012 
President's budget proposes an increase of $10.2 million through the 
FWS for these landscape partnerships, LCCs, which will identify 
landscapes, habitats, and species that are most vulnerable to climate 
change; define clear conservation objectives; and focus management 
actions where they will be most effective on the landscape. Building on 
the nine LCCs currently operating, the FWS will establish three LCCs by 
the end of 2011 and another six in 2012. An additional three LCCs will 
be led by other DOI bureaus, completing the national network.
    Concurrently, the FWS budget proposes an increase of $7.3 million 
to acquire key scientific information needed to inform planning and 
design and to continue to develop an in-house applied science 
capability.
    A specific example of the role LCCs will play is evidenced in the 
DOI's ecosystem restoration efforts across the Nation. The LCCs will 
conduct science assessments to appraise the current spectrum of 
scientific knowledge surrounding shared resource priorities, and will 
identify and prioritize management questions and related research and 
technical assistance gaps and needs. They will explore potential 
approaches for utilizing existing information, developing scientific 
tools, and improving the state of knowledge. These assessments will 
identify common needs for science among the various partners and 
partnerships to meet their conservation priorities and goals, and will 
be developed in coordination with CSCs.
    Specific examples of how this acquired scientific information will 
be used in ecosystem restoration are as follows:
  --In the California Bay Delta region, the California LCC will work to 
        address water supply and environmental challenges outlined in 
        the Interim Federal Action Plan for the California Bay Delta. 
        The region will use the LCC and new Strategic Habitat 
        Conservation business model to work in this changing ecosystem, 
        ensuring that our actions are driven by science, respect for 
        our partners and a focus on outcomes.
  --The Gulf Coastal Plains & Ozarks (GCPO) LCC and its partners have 
        developed habitat modeling capabilities in its geographic area. 
        Two new working groups, the Alligator Gar Conservation Group 
        and the Louisiana Pearlshell Mussel Group, have begun to model 
        habitat needs for these species, which will characterize their 
        existing habitats, identify potential areas of new or unknown 
        populations, and identify areas with potential for restoring 
        populations. The modeling process will also be used as a 
        template for aquatic habitat models for similar species within 
        the GCPO and other LCCs with similar habitats and species.
    The 2012 President's budget requested increase of $10.4 million for 
CSCs will enable the USGS to complete the network of eight climate 
science centers, by establishing the remaining five CSCs, serving all 
parts of the United States. These centers will provide access to the 
highest-quality academic talent in a rapidly evolving scientific field. 
The linkage to management--largely through the input of LCCs--will 
ensure that the funds appropriated to the USGS are directed to high-
priority needs of managers from the DOI, States, and other management 
partners. For example, the Northeast Climate Science Center will be 
faced with demands from State and Federal coastal managers to provide 
information on how climate-driven changes in sea level rise, increased 
storm surges, and increased intensity and frequency of coastal storms 
will affect coastal ecosystems, species, and human infrastructure. 
Through the CSC framework, the DOI will be able to access the most 
appropriate scientific expertise on climate change research.
    Question. How are the investments in LCCs and CSCs unique compared 
to current FWS or USGS programs?
    Answer. A common theme throughout the various response strategies 
to climate change and other environmental stressors is the recognition 
that no individual agency or program has the capacity to unilaterally 
provide the needed science and information or to stand alone in any 
effort to address the suite of threats to our natural resources. The 
conservation community must establish more effective and coordinated 
mechanisms for research, the sharing and transfer of science and 
related information, and the creation of innovative and effective 
science-based conservation tools, all predicated on collaboratively 
developed priorities. The community must also develop more effective 
processes for collaborative approaches to conservation planning, 
prioritization, and evaluation to support adapted responses to a wide 
variety of natural resource stresses including, but not limited, to 
climate change. This realization is what led to the initiation of a 
national network of LCC and CSCs.
    Both the CSC and LCC networks allow the bureaus to collaborate with 
interested parties across the landscape, breaking down traditional 
jurisdictional boundaries. CSCs provide the basic data and 
understanding of how climate will affect natural and cultural resources 
with the goal of supporting LCCs and other managers in making local 
landscape-scale decisions about climate adaptation. LCCs bring together 
public and private sector managers to apply science to resource 
management decisions in specific places or for specific species or 
other resources. The 21 LCCs are landscape-scale applied conservation 
science partnerships that will support and enhance on-the-ground 
conservation efforts by facilitating the production and dissemination 
of applied science for resource management decisionmakers. The LCCs may 
consist of Federal, State, tribal, international, local, and private 
stakeholders. The LCCs will identify and seek to coordinate among 
existing relevant conservation partnerships, plans, agreements, and 
programs with the specific goals of identifying common needs for 
information and sharing information and science. Science development 
can be accomplished through the LCCs' relationships with CSCs as well 
as through LCC-specific funded applied science and LCC-supported 
science developed by partners. LCCs will also actively share the 
results of new research and development with local partners and with 
the LCC network nationwide. Accordingly, LCCs will help the larger 
conservation community achieve better implementation of their programs 
by fostering improved communication and coordination among partners. 
Through participation in LCCs, conservation agencies and organizations 
can more strategically target and implement actions that satisfy their 
missions as well as landscape conservation priorities shared by the LCC 
partners. None of this work could be completed on this scale within 
current programs at any of the DOI's bureaus on their own.
    Question. How will the proposed LCCs and CSCs work together to help 
the DOI set its conservation priorities?
    Answer. The eight regional CSCs will provide fundamental scientific 
information, tools, and techniques that land, water, wildlife, and 
cultural resource managers and other interested parties can apply to 
anticipate, monitor, and adapt to climate change impacts. Much of the 
information and tools provided by the CSCs, including physical and 
biological research, ecological forecasting, and multi-scale modeling, 
will be in response to the priority needs identified by the LCCs. 
Working closely with the LCCs, the CSCs will help develop statistically 
sound sampling programs and processes to monitor climate change effects 
and help develop adaptive management approaches. The CSCs will be 
partnership-based regional entities functioning with LCCs as well as 
the regional management community, scientific entities, and other 
stakeholders.
    LCCs and CSCs will have strong, collaborative, and complementary 
roles and functions. These roles and responsibilities fall along a 
continuum of research and science needs, which range from fundamental 
climate science modeling and tool development by CSCs to applied 
science that is management specific through LCCs. Interactions between 
LCCs and CSCs will involve:
      Science Priority Setting.--LCCs will deliberate and communicate 
        shared priority science needs and conservation priorities to 
        the regional CSC, which will review the input of all relevant 
        LCCs to develop a regional science agenda.
      Scientific Collaboration.--LCCs and CSCs have complementary 
        science roles. Working with downscaled atmospheric climate 
        models, CSCs will produce models, datasets, decision support 
        tools, and research products that support applied conservation 
        planning through LCCs. LCCs will utilize these science 
        resources and tools to further develop and support applied 
        scientific information tailored to specific locations and 
        resource management priorities.
      Integrated Data Management.--LCCs and CSCs have a mutual goal of 
        developing integrated data management networks to facilitate 
        easy sharing of information; these systems will maintain 
        consistency with DOI-wide information standards (e.g., shared 
        data standards, databases, and GIS protocols) to enable 
        coordination and information sharing.
    Furthermore, with the creation of the DOI's Energy and Climate 
Change Council, policy oversight, and direction for the DOI bureaus 
will be provided with respect to the Department's efforts to facilitate 
renewable energy development and respond and adapt to climate change 
impacts on the resources managed by the DOI. Working groups have been 
formed within the DOI to address specific issues related to 
implementation of the CSC and LCC networks, and these entities are 
charged with facilitating coordination and communication among bureaus 
in this effort.
    Question. Your budget request assumes that the FWS will establish 
12 new LCCs in fiscal year 2011 and fiscal year 2012, for a total of 
21. It also assumes that the USGS will add five more CSCs, for a total 
of eight. These new cooperatives and centers require significant 
funding increases at the same time we are facing tight budget 
constraints. Can you maintain these new investments over the long run 
without negative impacts to other core science and land management 
programs?
    Answer. It is imperative that the DOI build and maintain the 
scientific capacities envisioned within LCCs and CSCs to achieve 
mission goals. In light of current budget constraints, it is more 
crucial than ever that we be able to effectively target programs, and 
set and evaluate goals for performance.
    Additionally, one of the key factors of success for CSCs and LCCs 
is partnerships. By building on existing partnerships, the LCC network 
will provide the information needed to accomplish conservation 
objectives that no single agency or organization can accomplish alone. 
LCCs will comprise a seamless national network with the scientific and 
technical capacities to help conservation agencies and organizations 
maintain landscapes capable of sustaining abundant, diverse and healthy 
populations of fish, wildlife, and plants. At present, no other 
organization is fulfilling this function, and we believe our 
conservation partners will assist us in ensuring that the LCC work, 
focusing on the landscape scale, will only help to inform (not harm) 
other core science and land management programs.
                u.s. geological survey--landsat funding

                                                            USGS LANDSAT FUNDING PROJECTIONS
                                                                [In millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                             Item                               Fiscal year 2012  Fiscal year 2013  Fiscal year 2014  Fiscal year 2015  Fiscal year 2016
--------------------------------------------------------------------------------------------------------------------------------------------------------
Landsat 9 and 10 estimated  costs \1\.........................              48.0             159.0            410 .0            306 .0             264.0
Landsat 5, 7, and 8...........................................              53.5              53.5              53.5              53.5              53.5
                                                               -----------------------------------------------------------------------------------------
      Total, Landsat 5, 7, 8, 9, and 10.......................             101.5             212.5             463.5             359.5             317.5
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes both NASA and USGS Landsat 9 and 10 activities.

    Total USGS Funding Levels.--Fiscal year 2010 enacted: $1,111,740; 
fiscal year 2011 request: $1,133,359; fiscal year 2012 request: 
$1,117,854.
                        impact on usgs programs
    Question. The 2012 budget includes $112 million in program 
increases, including $61 million in additional funding for the Landsat 
program. These amounts are offset by $84 million in decreases to 
existing programs and another $29 million in estimated savings for 
efficiencies. The Director of the Office of Science and Technology 
Policy in written testimony submitted to the House Committee on 
Science, Space, and Technology last month stated that significant 
reductions to USGS programs like minerals and water resources research 
were necessary to offset funding priorities like Landsat.
    Water resources programs, earthquake and volcano hazards detection, 
minerals resources investigations, and biological studies are just some 
of the areas in which the USGS currently provides information that is 
vital to the public's safety, the Nation's security and protection of 
the environment. Will these programs continue to have the funding 
needed to provide these services in a time of declining budgets or is 
this the beginning of a shift in mission for the USGS from these 
services to a satellite mission?
    Answer. The core mission of the USGS has not changed, but the 
budget is being realigned with the science missions detailed in the 
science strategy. The 2012 budget reflects tough choices. We are 
repositioning core responsibilities to better address complex 
multidisciplinary issues within a reduced funding level.
    The request for an increase to begin transitioning the National 
Land Imaging Program to the USGS will create a stable home for the 
Landsat series of satellites. While NASA will still be our partner with 
responsibility for spacecraft instrument integration and launch, by 
aligning budgetary authority with the USGS, major programmatic 
decisions will be made with the best interest of the user community in 
mind. Landsat belongs with the USGS just like weather satellites belong 
with National Oceanic and Atmospheric Administration, so that data 
users can be responsible for the determination of data requirements on 
the satellite.
    The administration supports both the development of a National Land 
Imaging Program at the USGS and the traditional USGS disciplines, and 
would be happy to work with the Congress to ensure this Landsat 
transition occurs responsibly.
                                landsat
NASA vs. USGS
    The division of responsibility for the Landsat land imaging program 
has traditionally been a shared one with NASA designing and launching 
the spacecraft and the USGS managing the operations of airborne 
satellites and the collection, processing and archiving of data. The 
new proposal would give the USGS primary budget authority for the all 
aspects of the Landsat program.
    The budget request for NASA's earth sciences program in fiscal year 
2012 is $1.65 billion, larger than the USGS' entire $1.1 billion 
request, and includes at least a dozen separate earth observation 
satellite missions. Given this fact, can you explain the rationale for 
severing the Landsat program from these other similar missions and 
moving it to the DOI?
    Answer. NASA's primary mission is to develop research missions, 
where new technology is developed and tested. Some of these instruments 
are then transitioned to operational missions, where they can collect 
routine, continuous observations over long time periods. Just as 
weather satellites have transitioned from NASA as research missions to 
NOAA as operational missions, it is time for Landsat to transition to 
an operational mission, hosted by the DOI. The model proposed by the 
DOI for a sustained land-imaging capability is similar to that of the 
Nation's weather satellite capabilities whereby NOAA provides mission 
requirements and funding to NASA, which develops and launches the 
spacecraft that NOAA then operates in order to widely and freely 
distribute meteorological data and information. This approach ensures 
that the primary data users are responsible for the development of the 
mission requirements and funding. This approach has been supported by 
the last two administrations and is reflected in the President's 
national space policy.
    Question. Under the new proposal, once funding is appropriated and 
the USGS contracts with NASA on a reimbursable basis to design and 
launch the spacecraft, doesn't business proceed as it has in the past?
    Answer. The primary difference in the business model will be that 
the USGS will have the programmatic lead for Landsat missions, 
including the development of mission requirements, which is essential 
to ensure that user needs of the Federal agencies are a priority in 
mission development. After the development of mission requirements, the 
construction of the satellite will continue in largely the same way as 
it has in the past, capitalizing on existing infrastructure, 
capabilities and lessons-learned.
    Question. What does another administrative layer with an additional 
set overhead costs add to the process and how is it more efficient than 
appropriating design and launch funds directly to NASA?
    Answer. The DOI is one of the primary users of Landsat imagery and 
has been since Landsat I was launched in 1972. It will be more 
efficient for Interior, through the USGS, to have responsibility for 
the development of Landsat data requirements. The USGS was reconfirmed 
as the organization responsible for operational land remote sensing 
requirements in the recent national space policy and will actively work 
with the other Federal agencies and Landsat users on defining Landsat 
data requirements. The USGS will be responsible for making decisions 
about trading technical capabilities defined by these requirements and 
the schedule to manage the Landsat program within its budget. 
Separating control of the budget from the data user creates conflicts 
of interest, diminishing the effective operation of the program. While 
the USGS will need to develop the capability to oversee and manage this 
project, they will not duplicate NASA's role, minimizing any additional 
costs while maximizing the overall effectiveness of the mission.
                         reimbursement of costs
    Question. In a 2004 report to the Congress, the USGS described 
Landsat as a $21.2 million annual program of which $10.2 million was 
appropriated and $11 million was derived from data product sales and 
cost share fees from International Cooperator (ICs). In 2012, base 
funding for Landsat 5, 7, and 8 will be $53.5 million and the funding 
request for Landsat 9 and 10 adds another $48 million to the bottom 
line for a grand total of $98.5 million. At the same time, there is no 
longer a revenue stream to partially support the Landsat budget. 
Technological advances have standardized and streamlined access to 
information and shifted the costs of customizing data away from the 
USGS to the end user. Former Secretary Kempthorne formalized the policy 
of data availability at no cost to the public in an announcement in 
2008.
    Given the inevitability of dwindling Federal resources, has any 
thought been given to other innovative ways in which the Landsat 
program might recoup some of the Federal investment and generate some 
sort of offsetting revenue stream?
    Answer. There has been some consideration of offsetting revenue. 
Since the USGS no longer provides products tailored to individual 
customers, the only fee-for-service that might be applicable under 
Public Law 102-555 would be for the negligible cost of each customer 
downloading a scene from a USGS server (currently around 10 cents per 
scene). If imposed, this fee would cost the USGS more to process than 
the fee charged.
    Some operational costs for Landsats 5 and 7 are recovered by the 
USGS via charges for providing data downlinks to IC ground receiving 
stations, which also serve as valuable data-capture back-ups should a 
Landsat satellite's onboard image--data recorder or image--data relay 
capability be lost, as in the case of Landsat 5. Such fees, however, 
cover only a portion of Landsat operations.
    NASA and NOAA have distributed vast amounts of digital satellite 
data at no charge to users for many years. NASA and NOAA base their 
data distribution on the following policy:

    ``Policies concerning distribution of government-produced 
information . . . are founded on the concept that government-produced 
information is a public resource and that its value is maximized when 
it is made freely available for widespread and convenient use. Policies 
on fees allow for charges for the costs of distribution only not for 
the costs of production. These policies apply to all kinds of US 
Government information--weather data, census data, geophysical data, 
financial data, etc. regardless of which agency is creating/collecting 
the information. They have served to create many information service 
industries in the US that generate jobs and create economic growth. 
Trying to use sales of government information to support government 
activities beyond recovering costs of distribution is contrary to these 
policies and would be, in effect, a form of taxation.''

    Since these data products are generated and placed on the Internet 
for timely distribution; fee-for-service or joint venture do not appear 
viable. Other reasons to maintain the current approach are:
  --Tax dollars have already paid for the development, launch and 
        operations of the satellite, plus image-data reception, 
        archiving, and processing;
  --Landsat data distribution policy is aligned with other USGS, NOAA, 
        and NASA data distribution policies;
  --By law, the data must be distributed on a nondiscriminatory basis 
        at no more than the cost of fulfilling user requests; and
  --Landsat data are considered a ``public good'' similar to GPS and 
        weather data.
                       re-examination of proposal
    Question. The concept of USGS assuming primary responsibility for 
all aspects of the Landsat program has been discussed for years and was 
formalized in a report issued in 2007 by the previous administration. 
The fiscal landscape has changed dramatically since that time and 
Federal budgets are going to contract significantly.
    What is the rationale for moving forward at this time with a 
proposal that is 4 years old and developed under more robust economic 
times? Wouldn't this be an appropriate time to re-evaluate the program 
with an eye toward forming partnerships that might reduce the overall 
cost? Why can't functions be consolidated and streamlined?
    Answer. The proposal under consideration in the 2012 budget 
reflects the administration's preferred model for future Landsat 
missions. Consolidation and partnership for Landsat missions was 
considered as an option for reducing cost, but will ultimately be less 
successful than the model presented in the budget. For example, several 
years ago, the administration directed that the Landsat primary sensor 
be added to the National Polar-orbiting Environmental Satellite System 
(NPOESS) weather satellite mission. However, the extremely precise 
pointing requirements for the Landsat sensor were not achievable by the 
NPOESS satellite bus without extensive and costly modifications. It was 
quickly determined that it was not in the Government's best interest to 
add Landsat to the already-complex NPOESS mission, and the decision was 
made to make Landsat a free-flyer mission. The same issue would arise 
again should future Landsat sensors be placed on another satellite. 
Further complicating the issue is the need for a separate thermal 
instrument to accompany the Landsat primary sensor. Adding two 
instruments with stringent pointing requirements to another satellite 
would be problematic, increasing the cost to the taxpayer.
    Landsats 4 and 5 were built and launched by NASA for NOAA. After 
the 1980s failure of Landsat commercialization, the Congress directed 
NASA to build and launch Landsat 7, which has been operated by the USGS 
since October 2000. NASA built and launched Landsats 1 through 5 and 7 
and is currently building Landsat 8 (LDCM) in partnership with the 
USGS. NASA also built and launched all of the NOAA satellites currently 
on orbit. NOAA's cancelled NPOESS Program was a departure from the 
NOAA-funded/NASA-built model, which NOAA has since returned to and 
which the USGS is proposing to follow. NOAA's scientific expertise and 
satellite operations focus on the oceans and atmosphere while the USGS 
concentrates its science and satellite operations on the land.
    The budget's Landsat proposal builds off of the successes and 
failures of Landsat's long history in various Federal agencies and the 
private sector. Ultimately, the DOI-funded/NASA-built satellite will 
best meet the needs of the data user community, at the least cost to 
the American taxpayer.
    Question. Technology continues to develop at a lightning fast pace. 
Has there been a recent assessment of Landsat's planned technology 
investments that assures us that 7 years down the line, when Landsat 9 
is scheduled to be launched, our investments will still be current and 
provide the best data? Is anyone looking at other ways of obtaining the 
information that we now get via Landsat?
    Answer. The Landsat Data Continuity Mission (LDCM or Landsat 8 
after launch), scheduled to launch in December 2012, boasts state-of-
the-art imaging technology in both the primary multispectral 
Operational Land Imager instrument and the Quantum Well Infrared Photo-
detector based Thermal Infrared Sensor. These two sensors are 
substantial improvements over past Landsat sensors, and are expected to 
deliver easily the highest-quality Landsat data in the history of the 
program, and should spawn a host of new applications to the tens of 
thousands of current Landsat users. The baseline plan with Landsat 9 is 
to take maximum advantage of the recurring engineering development work 
already accomplished with the LDCM imaging instruments in order to 
significantly reduce development risk and launch the new mission on 
time and budget.
    Under the budget proposal, NASA would continue in its role of 
investigating, developing, and testing cutting-edge technology for 
land-imaging sensors plus data transmission and processing systems. The 
USGS, in turn, would operate Landsat satellites built by NASA using 
technology it has already found to be flight-proven and reliable.
    The Landsat Science Team, a 16-member group of external independent 
scientists and engineers (from government, academia, the private 
sector, and international organizations) advises the USGS on 
requirements for sensors to meet the needs of Landsat users to ensure 
the technological needs of Landsat missions are achieved. The science 
team has repeatedly called for Landsat data continuity for the future. 
Alternate sources of data identical to that of Landsat and routinely 
captured on a global scale are not available.
    Beyond contracting for another Government-managed free-flyer space 
system, there really are no other acceptable ways to obtain the 
information we now receive from Landsat. Alternate sources of data 
identical to that of Landsat are not available. Other possible imaging 
systems either have spectral or spatial resolutions inconsistent with 
that of Landsat, have insufficient ground systems to capture global 
datasets, or lack the operational characteristics necessary to support 
the tens of thousands of current Landsat users. Landsat has provided a 
38-year record of continuous land use imagery data. The value of the 
Landsat data is the consistent record of land imagery with common 
imaging characteristics over a significant period of time. Changing key 
technical characteristics would significantly alter the data set and 
diminish the utility of the continuity of data.
                       offshore wind development
    Question. I applaud your efforts to streamline the regulatory 
process to approve offshore wind development through your Smart from 
the Start initiative. Rhode Island has already made great strides in 
preparing for offshore wind development, which is why I was 
disappointed that Rhode Island was not included in the initial group of 
States announced last February for this initiative. In particular, 
through extensive data collection and stakeholder outreach, Rhode 
Island developed a comprehensive coastal resource management plan 
called the Ocean Special Area Management Plan (SAMP). I believe these 
efforts have positioned Rhode Island well to prudently, but rapidly 
advance through the all stages and components of the regulatory process 
in offshore wind development. Can you explain how the extensive work of 
the Ocean SAMP will be incorporated into developing the DOI's plan for 
Rhode Island? Will the plan also include clearly defined next steps for 
Rhode Island to take that build upon the Ocean SAMP and will help Rhode 
Island rapidly advance through the regulatory process?
    Answer. BOEMRE has coordinated closely with Rhode Island throughout 
development of the Ocean SAMP. As we consider leasing in the Area of 
Mutual Interest agreed to by Rhode Island and Massachusetts, the 
information gathered through the SAMP effort will be instrumental in 
identifying a Wind Energy Area (WEA) that is suitable to offer for 
lease for commercial wind development under Smart from the Start. The 
SAMP will continue to be a source of useful information as we complete 
environmental analysis of the WEA to be offered for lease, as well as 
in the preparation of required plans by the eventual lessee(s) and 
subsequent review by BOEMRE. The SAMP information has great potential 
for allowing lessees to prepare and submit combined Site Assessment/
Construction and Operations Plans (SAP/COP), which would significantly 
reduce the permitting timeline. This approach has been discussed by 
BOEMRE and Rhode Island officials in developing a Rhode Island pilot 
project under the Atlantic Offshore Wind Energy Consortium established 
by Secretary Salazar and 10 Atlantic States to focus and expedite 
offshore wind development efforts. BOEMRE and Rhode Island officials 
have discussed process steps and will develop a timeline for SAP/COP 
submission and review after the lease process is initiated and we 
determine whether a commercial lease(s) will be issued competitively or 
noncompetitively.
      america's great outdoors initiative/environmental education
    Question. Mr. Secretary, I appreciate the emphasis that the 
America's Great Outdoors initiative places on environmental education 
for young people. I have long advocated including environmental 
education in elementary and secondary education because it can pique a 
child's interest in learning and reinforce concepts taught in the 
classroom. That's why I have been proud to sponsor the No Child Left 
Inside Act, which I'll be reintroducing this Congress. I believe that 
the keys to success in these initiatives are strong coordination among 
environmental agencies and education agencies. Can you please tell me 
how the DOI and other environmental agencies will work with the 
Department of Education to coordinate environmental education programs? 
How will you work assess outcomes from your programs?
    Answer. The America's Great Outdoors report to the President 
recommends that the Department of Education and other Federal agencies, 
including the DOI align and support programs that advance the awareness 
and understanding of nature. To that end, Secretary of the Interior 
Salazar and Secretary of Education Duncan have discussed collaborating 
on education programming in the areas of environmental science, social 
studies, history and civics, and science, technology, engineering, and 
mathematics (STEM) education. As a result, the Departments of Education 
and the Interior have drafted a Memorandum of Understanding (MOU) due 
for signature later this spring. Following establishment of the MOU, 
the National Park Service (NPS) will work with the Department of 
Education on a detailed interagency agreement establishing specific 
collaboration efforts including environmental science, STEM, and 
history and civics teacher preparation and development, distance 
learning, higher education through tribal colleges and universities, 
and place-based learning research. All programs jointly managed between 
the two agencies will have a built-in evaluation component to assess 
student and teacher outputs and learning outcomes. Currently, the NPS 
works to integrate evaluation into many of its curriculum-based 
programs. Outcomes often include increases in students' motivation for 
and confidence in learning science and history, improved test scores, 
increased desire to care for the environment, and increases in teacher 
confidence in using hands-on, interactive and place-based teaching 
methods.
    The DOI has also recently developed a Youth Programs Impact 
Evaluation Tool-Kit that will provide another tool to program managers 
for evaluating the impact of participating in our environmental 
education programs; the Tool-Kit will provide yet another way for 
managers to assess a program's impact on environmental literacy, civic 
engagement, and career preparedness.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester
     implementation of the indian land consolidation program (ilcp)
    Question. With no funds requested in the President's budget request 
for fiscal year 2012, what is your vision for how the ILCP will be 
implemented and when will that begin?
    Answer. On December 8, 2010, the President signed into law the 
Claims Resolution Act of 2010 that includes the $3.4 billion Cobell 
settlement. Under the terms of the settlement, approximately $1.5 
billion will be distributed to the class members to compensate them for 
their historical accounting claims and to resolve potential claims that 
prior U.S. officials mismanaged the administration of trust assets. The 
second part of the settlement establishes a $1.9 billion fund for the 
voluntary buy-back and consolidation of fractionated land interests to 
address the continued proliferation of thousands of new trust accounts 
caused by the division of land interests through succeeding 
generations. The land consolidation program will continue to provide 
individual Indians with an opportunity to obtain cash payments for 
divided land interests and consolidate ownership(s) for the benefit of 
tribal communities. In response to this provision, funds for the ILCP 
are not requested in the Bureau of Indian Affairs (BIA) budget in 
fiscal year 2012. In addition, as an added inducement to facilitate the 
purchase of fractionated land interests, up to $60 million of the $1.9 
billion for land acquisition will be contributed to an existing, 
nonprofit organization for the benefit of educating American Indians 
and Alaska Natives. Upon final approval by the U.S. District Court for 
the District of Columbia, the Cobell v. Salazar settlement agreement 
will be implemented.
    Question. Has the Department of the Interior (DOI) consulted with 
or otherwise communicated with the congressional committees of 
jurisdiction, Indian tribal leaders, or class members in the Cobell 
lawsuit?
    Answer. The DOI stands ready to implement the Cobell settlement 
when it is approved by the court. The court-supervised process of 
notifying class members has begun, and is being handled by the 
plaintiffs. The court anticipates holding a ``fairness hearing'' in 
June prior to finalizing the settlement. During the pendency of this 
process, the court is continuing to restrict communications between DOI 
officials and class members. As a result, the DOI cannot yet begin the 
Government-to-government consultations with tribes and tribal members 
to discuss how we will move forward with the implementation process.
    The DOI has a briefing with the congressional committees of 
jurisdiction scheduled in April 2011. Deputy Secretary David Hayes and 
Solicitor Hilary Tompkins began hosting monthly calls with tribal 
leaders in February 2011, and hosted a call on March 25, 2011. Tribal 
leaders from all 565 federally recognized tribes were sent an 
invitation.
    Question. What new structures does the DOI believe are needed to 
successfully implement the trust land consolidation fund?
    Answer. As mentioned above, the DOI cannot yet begin the 
Government-to-government consultations with tribes and tribal members 
to discuss how we will move forward with the implementation process, 
which includes implementation of the land consolidation fund. 
Nonetheless, we will use these intervening months to have internal 
discussions regarding how best to proceed with implementation, so that 
we will be prepared to have productive discussions with the tribes and 
trust beneficiaries, as soon as the settlement is finalized and 
approved by the court.
    Question. What has the DOI's experience been in the ongoing land 
consolidation efforts?
    Answer. The ILCP was established in 1999 on three reservations 
within the Midwest region to study the feasibility and provide the 
groundwork for the reduction or elimination of the fractionation 
problem. In 2000, an amendment to Indian Land Consolidation Act 
initiated a land consolidation acquisition program within the BIA to 
consolidate fractionated lands. The program became permanent through 
American Indian Probate Reform Act in 2004. Its mission is to acquire 
fractionated interests. Overall, the program has acquired 427,153 
interests (642,554.6 acres) through February 4, 2011.
    Question. Are there regional or statewide differences in progress 
made thus far in consolidating Indian land that is fractionated?
    Answer. The ILCP focus has been targeted in the Great Plains, 
Midwest and Eastern Navajo Regional land bases as the strategy was to 
target highly fractionated interests. A majority (not all) of the 
tracts that resided in the Midwest land base and some Navajo tracts 
were valued by the Office of Appraisal Services in a timely manner as 
those tracts were relatively homogenous, could be valued at the same 
time, and the Office of Mineral Evaluation had already completed 
mineral evaluations where tracts were identified as having low mineral 
content. The Great Plains Region has an automated valuation system that 
allows for many of these tracts to be valued with minimal preparatory 
work. Due to these factors, these interests within the Great Plains 
were consolidated at a much faster rate.
                      renewable energy development
    Question. Mr. Secretary, When I was president of the Montana State 
Senate, I led the charge to institute a renewable portfolio standard. 
That standard has created a number of good jobs in Montana and 
attracted investment throughout the State.
    Though we don't have a renewable energy standard here, your 
Department is working toward the goal developing 10,000 MW of renewable 
energy on public lands by 2012. I know you've worked hard to achieve 
this goal and have approved 4,000 MW on Bureau of Land Management (BLM) 
land. You've requested an increase in funding ($14 million increase to 
$73 million) to achieve this.
    How do you plan to double these efforts this year, while still 
adhering to a strong environmental review?
    Answer. The President's fiscal year 2012 budget request includes a 
$13.9 million increase for renewable energy efforts for the DOI, 
including a $3 million increase for the BLM. To help meet the goals for 
permitting renewable energy projects on public lands, the BLM has 
identified 20 projects (10 solar, 5 wind, and 5 geothermal) on our 2011 
Priority Project List (PPL). To be a priority project, a company must 
demonstrate to the BLM that the project has progressed sufficiently to 
formally start the environmental review and public participation 
process, as well as have the potential to be approved by the end of 
2011. In addition, the projects must be sited in an area that minimizes 
impacts to the environment. All renewable energy projects proposed for 
BLM-managed lands will receive the full environmental review required 
by the National Environmental Policy Act, and will include the same 
opportunities for public involvement required for all other land-use 
decisionmaking by the BLM. PPL projects have been screened in 
accordance with this policy and are generally located away from 
sensitive areas and believed to have relatively few conflicts with 
other important resources.
    Question. What are you doing in expand renewable energy development 
in Montana?
    Answer. In the BLM's Montana/Dakotas State office, the agency has 
staffed a renewable energy team of five positions (two permanent, three 
limited term) to facilitate development of renewable energy on public 
lands. While wind testing and monitoring locations approved on BLM-
administered lands over the last several years have not resulted in 
development applications from industry, the BLM is reviewing lands to 
determine if there are areas that have limited conflicts with other 
resources and values where renewable energy development might be 
focused. Funding is also being used to inventory for golden eagles and 
cultural resources in areas across the State with high-potential wind 
resources. The BLM also has been conducting proactive work with tribal 
representatives to engage them in discussions on renewable energy and 
enhance consultation protocols. Additionally, the BLM has placed a 
priority on the processing and review of transmission projects crossing 
BLM-administered lands in Montana that may result in opening markets 
for energy generated in Montana, including the State's high potential 
wind energy resources.
      land and water conservation fund and conservation easements
    Question. Mr. Secretary, your budget emphasizes conservation of our 
special landscapes, and conservation easements can be a particularly 
useful way of maintaining these assets for the future. In Montana's 
Crown of the Continent and elsewhere, we've seen what an economic 
driver to the local economy easements can be. I know Lyle Hodgskiss--a 
banker from Choteau, Montana--has testified before the Congress that 
easements create $4 in the local economy for each $1 invested.
    They help ranchers get working capital protecting traditional land 
uses and jobs on our ranches and in our forests, while safeguarding the 
places we all care about.
    In fiscal year 2012 you plan to continue the easement-based 
conservation effort on the Rocky Mountain Front, as well as to acquire 
key in-holdings including one at Glacier National Park.
    Can you tell us how conservation easements fit into your 
conservation strategy?
    Answer. With more than 70 percent of the Nation's lands privately 
owned, working lands are vital to conserve water resources, ecosystems, 
and wildlife and to provide recreational opportunities for hunters, 
anglers, and other outdoor enthusiasts. In the 21st century, 
partnerships with both private and public stakeholders will be critical 
to the success of conservation and restoration goals.
    The 2012 Federal land acquisition request includes $41.3 million 
for conservation easements. Conservation easements are one cost-
effective tool through which private landowners and the Federal 
Government can enter into mutually beneficial agreements that help keep 
our working lands--forests, farms, and ranches--in production, while 
delivering conservation benefits to the broader landscape. These 
voluntary agreements provide an economic boost for rural landowners who 
wish to undertake conservation activities on their own lands, often 
alongside agricultural operations.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                        gulf of mexico drilling
    Question. Mr. Secretary, the Oil Spill Commission appointed by the 
President recently concluded that the oil spill in the Gulf of Mexico 
(GOM) was the fault of one company's errors, and not a systemic issue 
within the industry of offshore oil drilling.
    The gulf coast remains plagued by issues related to the oil spill, 
Hurricane Katrina, and the overall slow national economy, yet the 
Department of the Interior continues to hold back drilling in the GOM 
by dragging its feet in issuing permits and creating new hurdles for 
offshore drilling companies to maintain operations. The offshore 
drilling industry is incredibly valuable not only to the livelihood of 
the gulf coast, but also to the Nation. As gas prices continue to 
climb, it would be beneficial to all Americans to open up more waters 
for drilling.
    Question. How is the newly formed Bureau of Ocean Energy Management 
(BOEMRE) working to accelerate operations in the gulf so that precious 
American jobs are not lost to overseas operations?
    Answer. There are some that dismiss Deepwater Horizon incident as 
an isolated event that does not represent a systemic problem. The 
evidence developed by the National Commission convincingly refutes the 
notion that Deepwater Horizon was a one-in-a-million event. The 
commission identified 79 loss-of-well control incidents in the GOM 
between 1996 and 2009. That implies a much higher risk than one in a 
million. Very recently, we saw a loss of well control in the GOM 
involving a platform in shallow water. Thankfully, the consequences 
were not dire, but that event certainly undermines the claim that such 
events are exceedingly rare. Moreover, the National Commission cited 
failures not only by BP, but by TransOcean and Haliburton as 
contributors to the Deepwater Horizon accident and oil spill, which 
supported its view that Deepwater Horizon reflected a systemic issue.
    The primary focus of BOEMRE is to make future drilling and 
production activities significantly safer than they were before the 
Deepwater Horizon event. We are doing so through the issuance of new 
prescriptive regulations to bolster safety, and to enhance the 
evaluation and mitigation of environmental risks. BOEMRE has raised the 
bar for equipment, safety and environmental safeguards in the drilling 
and production stages of offshore operations; we will continue to do so 
in open and transparent ways in the coming months and years. We have 
also introduced performance-based standards similar to those used by 
regulators in the North Sea. We have done this through the 
implementation of two new rules.
    The Drilling Safety Rule is an emergency rule prompted by the 
Deepwater Horizon event. It has put in place tough new standards for 
well design, casing, cementing and well control equipment, including 
blowout preventers. Operators are now required to obtain independent 
inspection and certification of each stage of the proposed drilling 
process. In addition, blowout preventers must meet new standards for 
testing and maintenance and must be capable of severing the drill pipe 
under anticipated well pressures.
    The second rule is the Workplace Safety Rule, which aims to reduce 
the human and organizational errors that lie at the heart of many OCS 
incidents. The development of this rule was in process well before the 
Deepwater Horizon incident. Operators now are required to develop a 
comprehensive Safety and Environmental Management System (SEMS) that 
identifies the potential hazards and risk-reduction strategies for all 
phases of activity, from well design and construction, to operation and 
maintenance. Although many forward-looking companies developed SEMS 
systems on a voluntary basis in the past; others had not.
    In addition to these important new rules, we have issued Notices to 
Lessees (NTLs) that provide additional guidance to operators on 
complying with existing regulations.
  --In June 2010, we issued NTL-06, which requires that operators' oil 
        spill response plans include a well-specific blowout and worst-
        case discharge scenario--and that operators also provide the 
        assumptions and calculations behind these scenarios.
  --In November 2010, we issued NTL-10 which requires that operators 
        provide a mandatory corporate statement that they will conduct 
        the applied-for drilling operation in compliance with all 
        applicable agency regulations. The NTL also confirms that 
        BOEMRE will be evaluating whether each operator has submitted 
        adequate information to demonstrate that it has access to, and 
        can deploy, subsea containment resources that would be 
        sufficient to promptly respond to a deepwater blowout or other 
        loss of well control.
    We are working hard to ensure that this important industry 
continues to operate successfully. Since February 17, 2011, when the 
groups organized by industry established that they had developed a 
suite of options capable of dealing with a subsea blowout, we have 
approved eight deepwater permits for seven unique wells. More permits 
will be approved in the coming weeks and months as operators 
demonstrate that they meet our requirements. BOEMRE believes firmly 
that developing programs and policies that ensure drilling safety must 
be the Bureau's highest priority.
                humanities and preservation funding cuts
    Question. Secretary Salazar, for the second year in a row, you have 
recommended stopping funding for the Save America's Treasures (SAT) 
grant program and reducing funding for both the National Endowment for 
the Humanities and the Historic Preservation Program.
    I have been a supporter of such funding for years, and I believe 
that refurbishing historic buildings has a rippling effect of good 
throughout a community--from job building to improving blighted 
neighborhoods. I understand budget constraints, but I notice that you 
have created and seek funding for a new cultural investment program 
called America's Great Outdoors.
    Question. Can you please explain why you have replaced SAT, an 
extremely popular and competitive program, with this new initiative?
    Answer. The National Park Service (NPS) administers the Historic 
Preservation Fund and within that appropriation, SAT grants. The 
National Endowment for the Humanities is part of the National 
Foundation on the Arts and the Humanities and is an independent grant-
making agency.
    The America's Great Outdoors initiative recognizes that the 
protection of the Nation's historic heritage is an objective shared by 
all Americans and that lasting conservation solutions should arise from 
the American people. The initiative seeks to empower all American 
citizens, community groups, and local, State and tribal governments to 
share in the leadership responsibility for protecting, improving, and 
providing greater access to the Nation's historic heritage.
    In a time of difficult budget trade-offs, the America's Great 
Outdoors initiative focused the 2012 budget on nationwide historic 
preservation goals. The 2012 budget includes a total increase of $6.5 
million in the Historic Preservation Fund for grants-in-aid to States, 
territories, and tribes to operate and provide grants through State and 
Tribal Historic Preservation Offices (THPOs) to carry out Federal 
responsibilities under the National Historic Preservation Act. The 
budget eliminates funding for SAT grants that are duplicative of grants 
available through SHPOs and THPOs and do not necessarily fund 
priorities established in statewide comprehensive historic preservation 
plans. Further, the Federal Government has no obligation to provide 
historic preservation grant funding through this program under the 
National Historic Preservation Act. Many high-quality projects have 
been awarded through the SAT program, but there is no long term or 
systematic strategy in awarding grants and at least half of SAT 
projects are annually earmarked by the Congress without using merit-
based criteria.
    The 2012 request includes an increase of $3.5 million for a total 
of $50 million to fund historic preservation Grants-in-Aid to States 
and territories to carry out Federal responsibilities under the 
National Historic Preservation Act. Increased funding will facilitate 
the ability of State Historic Preservation Offices (SHPOs) to respond 
to the steadily increasing number of section 106 compliance reviews on 
federally funded infrastructure projects Government-wide. It will also 
increase the number of individual National Register of Historic Places 
eligibility opinions, as part of compliance reviews, which have 
increased by between 5,000 and 10,000 annually; from 73,900 opinions in 
fiscal year 2005, to an estimated more than 110,000 determinations 
nationwide in fiscal year 2010. In addition, the increased funding will 
support additional and larger grants to Certified Local Governments 
(CLGs) and more preservation activities at the local level. The number 
of CLGs participating in the Federal Historic Preservation Program will 
increase to approximately 1,870 in fiscal year 2012, an increase of 
16.3 percent from the 1,608 CLGs participating in fiscal year 2007. The 
National Historic Preservation Act requires that States pass 10 percent 
of their HPF allotment to CLGs.
    The 2012 request also includes an increase of $3 million for a 
total of $11 million to fund grants-in-aid to tribes. This funding will 
enable approved tribes to develop fully effective, ongoing cultural and 
historic programs and provide the necessary funding for the steadily 
increasing number of Indian tribes that are approved by the NPS to 
assume Historic Preservation Officer duties on tribal lands pursuant to 
the National Historic Preservation Act. In fiscal year 2010, there were 
100 approved THPOs. The number of approved THPOs is expected to grow to 
125 in fiscal year 2012.
                     bureau of indian affairs (bia)
    Question. Why does your fiscal year 2012 budget provide for only 65 
percent of actual need for education-related tribal support costs, 
while it provides approximately 92 percent of actual need for contract 
support costs (CSC) for all other tribally run programs?
    Answer. The administration has committed to support and advance 
tribal self-determination and self-governance for the 565 federally 
recognized American Indian tribes. Approximately 63 percent of the 
annual BIA appropriation is transferred to Indian tribes or tribal 
organizations through Public Law 93-638 contracts and self-governance 
compacts. Tribes and tribal organizations utilize the contracted funds 
to employ individual Indians as tribal police officers, social workers, 
school teachers, foresters, and firefighters. The Congress amended the 
act to provide that, under self-determination contracts, tribes would 
receive funds for CSCs in addition to the base program amount to manage 
their contracts. Contract Support Funds (CSF) are used by tribal 
contractors to pay a wide range of administrative and management costs 
including, but not limited to, finance, personnel, maintenance, 
insurance, utilities, audits, communications, and vehicle costs. The 
BIA CSC policy stabilizes funding to each tribe, expedites annual 
payments, and prevents the reduction of CSF from one year to the next.
    In fiscal year 2012, the President's budget includes a $25.5 
million increase in funding for CSC; this is an approximate 15 percent 
increase more than the 2010 enacted level. The budget increase provides 
almost all of the indirect CSC need and approximately half of the 
direct contract support need. Indirect CSCs are incurred for a tribe's 
common services, such as financial management and accounting. Direct 
CSCs are the costs that tribes incur, but are not provided in program 
funding or indirect funding, such as the cost of program-specific 
training, and costs related to direct program salaries (i.e., 
unemployment taxes, workers compensation insurance, and retirement 
costs).
    Tribal Grant Support Costs (TGSC) are provided to schools to cover 
administrative expenses and indirect costs incurred in operating 
contract and grant schools. All 126 tribally controlled schools and 
residential facilities receive TGSCs. During the fiscal year 2012 
formulation process, tribal priorities led to the decision to increase 
CSC over TGSCs.
    Tribal priorities weighed heavily in the formulation of the fiscal 
year 2012 budget request, as it includes additional funding to bring 
both CSC and TGSC levels closer to full funding. However, given the 
fiscal constraints of Federal funding for fiscal year 2012, the urgency 
of funding increases was a factor that tribal representatives 
considered during consultation. As a result, the budget request 
prioritizes a larger funding increase ($25.5 million) for CSC primarily 
because it impacts a larger number of tribes on a nationwide basis, as 
the vast majority of tribes have at least one self-determination 
contract or self-governance compact and are thus eligible to receive 
CSC funding. Also included in the balance of tribal priorities in the 
fiscal year 2012 budget, is a $3 million increase in TGSC to ensure 
that progress continues to be made toward full funding in this critical 
area as well.
    Question. What is the impact of underfunding education-related 
tribal support costs, particularly as it pertains to the self-
determination of tribes in the educational context?
    Answer. By not funding TGSC, tribally controlled schools and 
residential facilities have to resort to other funding sources to cover 
administrative and indirect costs that include finance, procurement, 
records management, insurance, and legal services.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
    Question. Secretary Salazar, in the summer of 2009, we enjoyed a 
wonderful visit to Acadia National Park, a jewel of Maine's coast and 
an important economic driver in the region. Thank you for making that 
trip, and we look forward to hosting you in Maine again soon.
    As you saw during your visit, Acadia is unique among National Parks 
in that it still contains many privately owned land parcels within the 
Park's official boundaries. With the present uncertainty about the 
remainder of fiscal year 2011, I wanted to highlight the $1.7 million 
in Land and Water Conservation Fund (LWCF) funding included in the 
previous budget request for Acadia to purchase a key 39-acre parcel 
near Lower Hadlock Pond, which is appraised at $3 million. Recognizing 
that things are still very much in the air with the fiscal year 2011 
budget, has the Department of the Interior (DOI) considered how it 
might allocate funding within the LWCF if the account is not funded at 
President's requests level for fiscal year 2011? How might a reduced 
fiscal year 2011 funding level affect the prioritization of funding in 
fiscal year 2012?
    Answer. The National Park Service (NPS) has a prioritization 
process that allows parks, their respective regional offices, and the 
national office to calculate a priority for each request, as submitted 
on an annual basis. In each of the fiscal years 2011 and 2012, more 
than 300 projects were submitted through this process for funding. Once 
the NPS has set its priorities, Department-wide criteria were applied 
to come up with a final list for each fiscal year.
    For the fiscal year 2011 request, the Acadia National Park's 
request ranks number 26 of 27 line-item projects requested for funding. 
This request of $1.76 million is to acquire approximately 23 acres that 
border Round Pond located in a section of Mount Desert Island within 
the park boundary. For the 2012 request, the Acadia National Park's 
request ranks number 13 of 34 projects requested for funding. The 
funding requested, $3 million, would be used to acquire approximately 
37 acres located near Lower Hadlock Pond within the park boundary.
    If the LWCF account is funded below the President's request level 
for fiscal year 2011 projects would be funded by priority. Upon 
enactment of the 2011 budget, the NPS and the DOI would have to re-
prioritize the projects requested in 2012 with those not funded in 2011 
to ensure that the highest land acquisition priorities are addressed. 
The projects requested but not funded in 2011 may or may not be funded 
in 2012 under this scenario.
    Question. The LWCF accrues $900 million annually, primarily from 
offshore oil and gas revenues. These credited monies cannot be spent 
unless appropriated by the Congress. From fiscal year 1965 through 
fiscal year 2010, about $32.6 billion has been credited to LWCF, but 
only about half that amount--$15.5 billion--has been appropriated. What 
happens to the unappropriated balance of funds?
    Answer. Unappropriated funds remain in the Treasury account. Today 
there is approximately $17 billion in unappropriated balances within 
the LWCF.
    Question. One of the most important Federal programs to assist in 
the preservation of recreation and environmental resources is the LWCF. 
Secretary Salazar, you have been such a leader in this area, and I was 
pleased to be able to work with you to support this important program 
during your time in the Senate. In this challenging economy where 
budgets are stressed and we are identifying ways to cut spending, 
prioritization and partnerships are going to be absolutely essential. 
With the recent release of the new America's Great Outdoors report, I 
would like to pick up on your mention of landscape conservation 
cooperatives.
    Maine provides an outstanding example of how important it is to 
engage and support the efforts of private landowners to sustain working 
farms, ranches, and forests--we have been able to support a robust 
forest products industry, protect biodiversity, public access to 
recreation and increase opportunities for tourism.
    What do you see as the role of private landowners when it comes to 
the administration's efforts to focus on large-scale landscape 
conservation? Do you see maintaining working lands as compatible with 
conservation efforts?
    Answer. About two-thirds of the landscape in the contiguous United 
States is owned and managed by farmers, ranchers, and forest and other 
landowners. A small portion of these private lands are under easement 
and other arrangements that ensure that they are protected over the 
long term; the majority is in active agriculture and forestry uses. 
Even in areas with large Government ownership of land, privately owned 
lands often provide important wildlife habitat and migration corridors. 
These working lands are an essential piece of vibrant and diverse rural 
communities that are part of the fabric of our Nation.
    What is increasingly clear is that well-managed private lands also 
support healthy ecosystems that provide clean water, wildlife habitat, 
recreational opportunities and other environmental services that 
benefit all of our communities. One of the goals of the America's Great 
Outdoors initiative is to catalyze large-scale land conservation 
partnership projects through economic incentives and technical 
assistance. To implement this goal, the Federal Government will support 
and catalyze landscape-scale efforts for conservation of working lands 
by using the LWCF and other existing revenue sources and grant 
programs. We will also obtain this goal by improving coordination and 
alignment in use of technical and financial resources among Federal, 
State, tribal, and local governments and other partners.
    The 2012 budget provides some key tools to advance these goals. The 
budget requests full funding of the LWCF, including a total of $117 
million for a new competitive component of the NPS LWCF Stateside Grant 
program. Projects that are consistent with State Comprehensive Outdoor 
Recreation Plans and promote large-scale land conservation through the 
use of voluntary conservation easements, among other criteria, will be 
eligible for these funds.
    Additionally, $41.3 million of the Federal land acquisition 
component of the LWCF request is for conservation easements. 
Conservation easements are a cost-effective tool through which private 
landowners and the Federal Government can enter into mutually 
beneficial agreements that help keep our working lands--forests, farms, 
and ranches--in production, while delivering conservation benefits to 
the broader landscape. These voluntary agreements provide an economic 
boost for rural landowners who wish to undertake conservation 
activities on their own lands, often alongside agricultural operations.
    Question. As the ranking member of the Homeland Security and 
Government Affairs Committee, I read with interest the recent findings 
of the Government Accountability Office (GAO) and the Office of 
Inspector General (OIG) with regard to weaknesses in the oversight and 
collection and management of royalties. Specifically that the OIG has 
listed revenue collections as a top management challenge for more than 
10 years, and a finding that the Department's systems are too reliant 
on industry-supplied data.
    Can you elaborate on how the system is being updated to remedy this 
situation to ensure the right revenues are being collected? Do we have 
a clear picture at the moment of what is owed and has not been 
collected?
    Answer. The GAO's high-risk report identified three major 
shortcomings in the DOI's revenue collection policies, including 
ensuring that:
  --the Federal Government receives a fair return on its oil and gas 
        resources;
  --the DOI completes its oil and gas production verification 
        inspections; and
  --Interior's data on production and royalties are consistent and 
        reliable.
    In their related reports, GAO provided estimates of the amount of 
revenue that the Department of the Interior did not collect due to 
shortcomings with production and royalty data. Specifically, the GAO 
``reported that MMS was missing about 5.5 percent of royalty reports 
for fiscal years 2006 and 2007 that were due on sales of oil and gas 
from leases in the Gulf of Mexico, potentially resulting in $117 
million in uncollected royalties''.
    The Office of Natural Resources Revenue (ONRR) has a comprehensive 
risk-based audit and compliance program to target underpayments and to 
ensure that royalties do not go uncollected. On average, over the last 
5 years, the DOI's audit and compliance program collected payment of 
approximately $110 million a year from companies. These amounts 
represents companies' underpayments in their initial voluntary 
reporting, which were discovered through on-going compliance 
activities.
    In 2008, the former Minerals Management Service agreed with GAO, 
that detection of missing royalty reports cannot wait until an audit is 
performed. Since GAO's 2008 report, ONRR has undergone several reforms 
to catch underreporting sooner and ensure that the right revenues are 
being collected. Up front system edits now put more emphasis on 
industry to report correctly through a series of royalty and production 
edits to ensure that data is correct before it arrives at ONRR. Current 
technology and system capabilities have opened new avenues for ONRR to 
identify and analyze erroneous data on a real-time basis. The ONRR has 
initiated a data mining effort to provide earlier detection of missing 
or inaccurate royalties. In our fiscal year 2012 budget request, we are 
seeking funding of $1.98 million and 12 full-time equivalents to expand 
data mining reviews addressing earlier detection of missing or 
inaccurate royalties in direct response to GAO's recommendation. The 
ONRR is also taking preliminary steps to evaluate alternative methods 
of collecting output data.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                          energy fee increases
    Question. The fiscal year 2012 budget proposes new fees on the oil/
gas industry to pay for both onshore operations administered by the 
Bureau of Land Management (BLM) and offshore operations by the Bureau 
of Ocean Energy Management, Regulation and Enforcement (BOEMRE). For 
onshore operations, the new fees are $38 million and at BOEMRE you 
propose to raise fees on offshore operators from $10 million to $65 
million.
    Can you tell me how you determined the amount of these fees and if 
there are any circumstances under which they might be adjusted?
    Answer. The proposed $55 million increase in inspection fees 
roughly offsets the $56.4 million requested to increase inspection/
monitoring capability. Additional resources are essential to 
effectively meeting industry demand for efficient, effective, 
transparent, and stable regulatory environment given the increased 
review that must occur. The need for additional resources is broadly 
recognized and supported by industry, as evidenced by a letter, dated 
November 17, 2010, to the House and Senate subcommittees on Interior, 
Environment, and Related Agencies signed by the American Petroleum 
Institute; American Exploration & Production Council; International 
Association of Drilling Contractors; Independent Petroleum Association 
of America; National Ocean Industries Association; and US Oil and Gas 
Association.
    The proposed level of inspection fees provides sufficient funding 
in fiscal year 2012 to meet industry and public demands for efficient 
and effective regulation of the OCS at no additional cost to the 
taxpayer. Fees may be adjusted in the future as required to maintain as 
recommended by the Department of the Interior (DOI) Inspector General 
``. . . a robust, sufficiently staffed inspection program that 
possesses the tools necessary to conduct inspections effectively.''
    BLM fees are based on the cost of inspections onshore, and are 
designed to recoup the majority of these costs. The fees will be re-
evaluated each year to ensure funding is adequate to fulfill the BLM's 
inspection and enforcement responsibilities and to meet the needs of 
the program.
    Question. No one likes to pay more fees, but I also understand that 
the oil/gas industry is always a convenient target. I think what many 
companies are troubled by is that they paid for roughly one-half of the 
budget of the Minerals Management Service (MMS) through rental payments 
on their OCS leases from the Government. Under the fiscal year 2012 
budget request they would pay for two-thirds of the BOEMRE budget, 
while at the same time they see a confusing maze of new rules and an 
organization that is becoming more of an obstacle to developing 
projects that cost them billions of dollars. How would you address 
these concerns?
    Answer. Royalties and user fees are not interchangeable. The 
purpose of royalties is to achieve a fair return to the taxpayer for 
the use of Federal resources; while the purpose of a user fee is to 
recover the costs the Federal Government must pay to regulate an 
industry. Because these regulatory activities benefit the oil and gas 
industry, it is in the interest of the industry to ensure a more robust 
regulatory agency is available that can function efficiently and 
timely.
    The proposed level of inspection fees, with minor exceptions, 
amount to less than 1 percent of gross revenues for companies incurring 
those costs. The administration does not believe this to be an 
unreasonable or burdensome cost. Findings from the numerous 
investigations of the Deepwater Horizon incident highlighted the need 
to reform the regulatory oversight of leasing, energy exploration, and 
production to assure human safety and environmental protection. This 
has resulted in new processes, rules, and regulations that must be 
followed by the oil and gas industry.
    The National Commission on BP Deepwater Horizon and Offshore 
Drilling, after noting current contributions from the oil and gas 
industry, stated that:

    ``The oil and gas industry, however, should do significantly more 
and provide the funds necessary for regulation of offshore oil and gas 
operations and oil spill preparedness planning. The amount of funding 
needs to keep pace as industry moves into ever-more challenging depths 
and geologic formations because the related challenges of regulatory 
oversight likewise increase . . . No matter the precise mechanism, the 
oil and gas industry would be required to pay for its regulators, just 
as fees on the telecommunications industry support the Federal 
Communications Commission. Regulation of the oil and gas industry would 
no longer be funded by taxpayers but instead by the industry that is 
being permitted to have access to a publicly-owned resource.''----
National Commission, Final Report p. 290.

    Question. If these fees are approved by the subcommittee, can 
industry expect more timely processing of permits with the new 
personnel that you will hire?
    Answer. BOEMRE continues to review and approve applications that 
demonstrate the ability to operate safely and contain a subsea blowout 
in deepwater. The rate of deepwater permit applications is increasing, 
which reflects industry's growing confidence that it understands and 
can comply with the applicable requirements, including the containment 
requirement. BOEMRE expects additional permit approvals in the near 
future. However, the need for additional resources to support this 
function is widely recognized and supported by industry. With the 
requested additional personnel in the fiscal year 2012 budget, BOEMRE 
will ensure a thorough and timely review of permitting requests.
    Question. The BLM fees are intended to cover the inspection and/or 
processing of permits and will not affect the time necessary to 
complete environmental reviews. The fee replaces existing 
appropriations in order to shift costs from the taxpayer to the 
industry that benefits from these activities; it does not supplement 
existing appropriations to hire additional personnel. The BLM has a 
good record of clearing pending permits. For example, fiscal year 2010 
began with 5,370 pending Application for Permit to Drill (APD) and BLM 
received an additional 4,251 new APDs. The BLM processed 5,237 APDs 
during the year, reducing the pending APDs by nearly 1,000 to 4,384 at 
fiscal year end.
    There are still some smaller operators onshore--will there be any 
exemptions for certain operators under your fee structure?
    Answer. The proposed BLM inspection and enforcement fee is not a 
blanket per-well fee, but is tiered in a way so that smaller producers 
pay less than larger producers. For example, a producer with one lease 
with 5 wells would pay a $1,200 inspection fee, while a producer with 
one lease with more than 50 wells would pay $5,700. The following fee 
schedule is tied to the number of active and inactive wells for each 
lease or agreement:
  --$600 for each lease or agreement with no active or inactive wells, 
        but with surface use, disturbance, or reclamation;
  --$1,200 for each lease or agreement with 1 to 10 wells, with any 
        combination of active or inactive wells;
  --$2,900 for each lease or agreement with 11 to 50 wells, with any 
        combination of active or inactive wells; and
  --$5,700 for each lease or agreement with more than 50 wells, with 
        any combination of active or inactive wells.
     blm/environmental protection agency hardrock mining financial 
                               assurances
    Question. Mr. Secretary, I sent a letter to both you and Secretary 
Vilsack yesterday concerning the EPA's efforts to impose financial 
assurance requirements on hardrock mining operations. Since you are 
here today, I thought I'd raise the issue with you to get your initial 
reaction. The BLM and the U.S. Forest Service (USFS) have required 
financial assurances for hardrock mines on Federal lands since 1981 and 
1974, respectively.
    In light of the statutory authorities and years of experience that 
those agencies already hold, do you think adding another layer of 
bureaucracy to this process is warranted?
    Answer. On February 25, 2009, the U.S. District Court for the 
Northern District of California ordered the EPA to comply with the 
requirements set forth under CERCLA Sec. 108(b) by identifying a 
priority list of facility classes requiring financial assurance for 
potential future cleanup activity (see, Sierra Club, et al., v. 
Johnson, 2009 U.S. Dist. LEXIS 14819). On July 28, 2009, the EPA 
identified the hard rock mining industry as a facility class falling 
under the financial responsibility requirements under CERCLA 
Sec. 108(b) (see, 74 FR 37213-37219). The EPA has been coordinating 
with the BLM as it develops the rule for this industry in order to 
ensure that both agencies meet their statutory requirements while 
demonstrating good government--protecting the public interest in 
ensuring that the taxpayers do not bear the cost of addressing past and 
future releases of hazardous substances, while ensuring that the 
Federal Government provides a streamlined set of requirements for those 
developing hardrock mineral resources. We defer further questions on 
the timing and content of the rule to the EPA.
           alaska conveyance cuts--tribal contracting impacts
    Question. I mentioned the severe cut to the Alaska Conveyance 
Program in my opening statement and some of the reasons that I find it 
unacceptable. But I should also point out that it really is, for lack 
of a better phrase, a ``double whammy'' for the Native Alaskan 
community. Not only are they not getting the patents for lands that 
they are entitled to in a timely manner, but much of the survey work is 
in remote locations and is performed through tribal contracting. This 
provides job opportunities for Native Alaskans where jobs are hard to 
come by. I'm going to work with Chairman Reed and the House and I hope 
to get funds restored for the program this year.
    This is the second year in a row that the DOI has proposed 
substantially reducing the Conveyance program. We've spoken about this 
issue many times, is the real problem here, Office of Management and 
Budget?
    Answer. The budget reflects difficult choices. The administration 
proposes to reduce funding for the BLM Alaska Conveyance Program as 
part of an effort to re-evaluate and streamline the conveyance process 
so that available resources are focused on completing the goal of 
transferring title to 150 million acres the agency is required to 
convey. The BLM has already issued final or interim conveyance on most 
of these acres but now needs a strategy to complete final transfers. 
The reduction will mean the BLM will reduce some work performed by 
contractors and some by Federal employees, in the least disruptive 
fashion possible. The DOI remains committed to working with tribal 
governments to ensure the available funding for the land conveyance 
program is used in the best manner possible.
      izembek wildlife refuge environmental impact statement (eis)
    Question. I am very pleased that the Fish and Wildlife Service 
(FWS) is moving forward to complete the EIS required before a land 
exchange approved in 2009 involving lands in the Izembek National 
Wildlife Refuge can go forward. I understand the FWS plans to issue a 
draft EIS this spring and a Record of Decision in 2012.
    Can you assure me that this timeline will be met? This is critical 
for the residents of King Cove, Alaska.
    Answer. The FWS is planning to complete the draft EIS this fall and 
deliver the final EIS to the Secretary by the early summer of 2012.
                    bia contract support costs (csc)
    Question. Federal law and policy encourages Indian tribes to take 
over direct operations of many Federal trust programs for the benefit 
of tribal members. Tribes and tribal organizations that exercise these 
responsibilities are entitled by law to receive Tribal Grant Support 
Costs (TGSC) to cover the administrative or indirect costs incurred.
    I am pleased that your budget increases both budget line items 
which pay these CSCs, one for education-related costs and one for all 
other tribally run programs. The budget line which pays for education-
related CSCs is funded at 65 percent of actual need. And the budget 
line for all other tribally run programs is funded at 92 percent of 
actual need.
    When we don't fully fund the CSCs, the tribes are reducing teachers 
and other personnel and diverting funds from the programs they are 
administering to meet their statutorily mandated administrative 
requirements. Do you have any thoughts on how we can improve the budget 
for these costs?
    Answer. During formulation of the Bureau of Indian Affairs (BIA) 
budget, tribal consultation is engaged by the Assistant Secretary to 
ensure that tribal priorities are reflected in the request each year. 
This occurs formally through quarterly meetings of the Tribal/Interior 
Budget Council, which is comprised of BIA senior leadership, two tribal 
representatives from each of the 12 BIA regions, and two tribal co-
chairs. The tribal members are designated representatives of all tribes 
in their respective regions to ensure that the priorities of tribes on 
a nationwide basis are represented to the greatest extent possible 
during budget consultation.
    Tribal priorities weigh heavily in the fiscal year 2012 budget 
request, as it includes additional funding to bring both CSC and TGSC 
levels closer to full funding. However, given the fiscal constraints of 
Federal funding for fiscal year 2012, the urgency of funding increases 
was a factor that tribal representatives considered during 
consultation. As a result, the budget request prioritizes a larger 
funding increase ($25.5 million) for CSC primarily because it impacts a 
larger number of tribes on a nationwide basis, as the vast majority of 
tribes have at least one self-determination contract or self-governance 
compact and are thus eligible to receive CSC funding. The budget 
increase provides almost all of the indirect CSC need and approximately 
one-half of the direct CSC need.
    Also included in the balance of tribal priorities in the fiscal 
year 2012 budget, is a $3 million increase in TGSC to ensure that 
progress continues to be made toward full funding in this critical area 
as well.
united states geological survey (usgs): national land imaging (landsat)
    Question. The budget includes $100 million for the Landsat program 
within the USGS, a $60 million increase. I understand almost $50 
million, or half of Landsat's budget, is the amount that NASA 
historically would cover and you are proposing that the USGS begin 
paying for and managing the entire program. What is extremely troubling 
is that your budget projects that this funding will triple to $159 
million in fiscal year 2013 and balloon to $410 million in fiscal year 
2014. The entire USGS budget is only $1.1 billion, so it's realistic 
that the Landsat program could be 42 percent of the USGS's budget in 
the near future.
    At a time when budgets are staying flat and everyone is tightening 
their belts, why would the USGS decide to take on this enormous 
undertaking? It's obvious that this funding will come at the expense of 
other programs within the USGS, many of which are core functions that 
provide critical scientific information to Federal agencies including 
State and local governments. One that is critical to us in Alaska is 
the Alaska Volcano Observatory that ensures air traffic safety when 
volcanoes erupt, which not uncommon.
    Answer. The Landsat series of satellites has been an important 
element of America's extensive suite of Earth observation capabilities. 
With almost 40 years of recording both natural and human-induced 
changes on the global landscape, Landsat is the world's gold standard 
for Earth observation. Consecutive administrations have concluded that 
Landsat is a vital national asset, and its importance to a broad array 
of users across the country justifies its move from the realm of NASA 
research missions to a sustained operational program within the USGS. 
Landsat furthers the DOI's important role in land remote sensing under 
the President's national space policy and provides invaluable data for 
land change analysis, agriculture, forestry, water management, natural 
resource management, geology, emergency response, wildfire mitigation, 
and energy. The USGS has been involved with Landsat since its inception 
and currently operates two Landsat satellites, is developing a new 
ground system for the next Landsat mission, manages the Nation's 
Landsat data archive, and distributes the data to users throughout the 
United States and around the world. As the primary operational agency 
responsible for Landsat, it's a logical step for the USGS to take 
overall leadership of the program to ensure the next mission continues 
to meet user requirements for highly calibrated land imaging data far 
into the future.
    The USGS recognizes the magnitude of this project relative to its 
existing portfolio. For that reason, it has moved to establish a 
separate Treasury account for Landsat, to responsibly fund an 
operational Landsat program while ensuring the Bureau continues to 
sustain its vital core functions, like the Alaska Volcano Observatory. 
The new account will include funding for current satellites (Landsats 5 
and 7), the Landsat Data Continuity Mission (Landsat 8), which is 
scheduled to launch in December 2012, and the development of Landsats 9 
and 10. Establishment of this account and the increase in funding will 
provide the stable budgetary foundation needed for a continuous land 
imaging capability. A permanent budgetary and managerial structure will 
ensure the continued collection and maintenance of the important data 
the Landsat satellite series provides.
                coastal impact assistance program (ciap)
    Question. The CIAP was created by the Energy Policy Act of 2005 and 
provides funding to six Outer Continental Shelf (OCS) oil and gas-
producing States, including Alaska, to conserve and protect the coastal 
environment. The fiscal year 2012 budget proposes to transfer the 
management of this program from the BOEMRE to the FWS to allow the 
BOEMRE to focus on its regulatory and enforcement mission. It's my 
understanding that in the beginning the MMS and the BOEMRE had 
regulations that were very confusing for the States to follow. I 
believe that things have improved, but my staff tells me the DOI still 
has approximately $700 million in unspent funds for the program.
    I'm concerned that just as things appear to be improving with this 
program now it's being moved to another agency and we may have a new 
system that the States will have to comply with. Can the States be 
assured that they won't have a new layer of ``redtape'' to deal with 
when the program is moved to the FWS?
    Answer. The purpose of moving administration of CIAP from BOEMRE to 
the FWS is two-fold:
  --to focus the role of BOEMRE on its regulatory and enforcement 
        mission; and
  --to capitalize on the achievement record of the FWS to work 
        productively with States and other grantees to effectively and 
        efficiently implement grant programs while maintaining 
        accountability and public transparency. The FWS' Wildlife and 
        Sport Fish Restoration Program has been the FWS model to 
        implement conservation grant programs with State partners for 
        more than 50 years. The expectation is that efficiencies will 
        be gained by centralizing administration within an experienced 
        the FWS grant function to reduce delays in the internal review 
        and award processing. Every effort is being made to minimize 
        impacts to recipients during this transfer of CIAP 
        responsibilities within the DOI.
    Question. Everyone knows that the budget is tight and it doesn't 
look very good to have a program with such high unobligated balances. 
Plenty of folks up here are looking to rescind money. When do you see 
getting this money out to the States for the purposes intended by the 
Energy Policy Act?
    Answer. Currently, the BOEMRE has stated that all grant 
applications are due from eligible CIAP applicants by December 31, 2013 
and all CIAP projects are to be completed by December 31, 2016. These 
milestones are not expected to change when the FWS takes on CIAP 
administration duties. However, increased the FWS efficiencies in 
administering the program are expected to decrease delays in awards and 
more quickly address any backlog in application processing.
                    usgs--data preservation program
    Question. I note the USGS budget proposal eliminates funding for 
the Data Preservation Program claiming that this program is ``largely 
duplicative of other Federal and private programs.''
    Each year I am visited by the State geologists and each year they 
remind me how very important this program is to their efforts dealing 
with traditional and renewable energy programs. I worry that by 
eliminating this program, we will lose the core samples and data 
already collected and we will certainly not be adding new information 
to the collection.
    Can you tell me exactly what other Federal agencies are collecting 
and maintaining these drill logs and whether those agencies are more 
committed than the USGS at maintaining this information?
    Answer. This program is not duplicative: it is the only Federal 
program dedicated to preserving physical and analog geoscience data, 
including rock and ice core samples, fossil and fluid samples, and 
derived and indirect data, such as geochemical and geophysical data, 
maps, and field notebooks. The Program cooperates with and grants money 
to State geological surveys to facilitate these preservation efforts. 
However, this program is a lower Federal priority than other USGS 
programs, and therefore proposed for elimination.
    Question. Your document also suggested that there are private 
programs that are collecting and maintain similar information. Can you 
assure me that those private programs will allow other potential users 
of that data free and unfettered access to the information?
    Answer. While private industry collects and maintains rock and ice 
cores, fossils, and fluid samples, the data and information are 
proprietary and generally not available for others to use. Some 
commercial vendors supply similar data, but only at a significant cost 
to the user.
                land and water conservation fund (lwcf)
    Question. The LWCF budget request provides a 100 percent increase 
to $900 million. Of this request, $465 million is included for the 
Federal Government to buy more land.
    Can you address why, with such an enormous maintenance backlog 
totaling billions of dollars, the DOI is focusing such a large amount 
of money on acquiring more Federal lands?
    Answer. Through the America's Great Outdoors (AGO) listening 
sessions and public input process, the DOI learned there is a powerful 
consensus across America that outdoor spaces--public and private, large 
and small, urban and rural--remain essential to our quality of life, 
our economy, and our national identity. Americans communicated clearly 
that they care deeply about our outdoor heritage, want to enjoy and 
protect it, and are willing to take collective responsibility to 
protect it for their children and grandchildren.
    Americans support concrete investments in conservation. Last 
November, voters across the country overwhelmingly approved a variety 
of measures for land conservation, generating a total of $2 billion in 
new land protection funds. Of 36 proposals on State and local ballots 
for conservation funding, 30 passed--an approval rate of 83 percent. 
This is the highest rate during the past decade and the third highest 
since 1988.
    Consistent with these results at the State and local levels, the 
feedback received during the AGO listening sessions indicated that full 
funding of the LWCF program is a high priority for the American people. 
Respondents also suggested that LWCF funding could be more effectively 
used if it was strategically focused on specific project types and/or 
locations.
    The DOI's 2012 request, together with USFS' request, fully funds 
the LWCF at $900 million. Activities funded under LWCF ensure public 
access to the outdoors for hunting, fishing, and recreation; preserve 
watersheds, viewsheds, natural resources, and landscapes; and protect 
irreplaceable cultural and historic sites. LWCF funds are also used to 
protect historical uses of working lands, such as grazing and farming.
    According to a return-on-investment (ROI) analysis by the Trust for 
Public Lands, for every $1 invested in Federal land acquisition through 
LWCF, there is a return of $4--a ROI of 4 to 1. The ROI can be even 
higher when future returns beyond 10 years are added to the equation. 
The $675 million DOI LWCF request will contribute an estimated $1 
billion in economic output and support about 7,600 jobs. Along with 
this significant economic impact, full funding in 2012 will increase 
the Federal Government's ability to engage in strategic conservation 
that yields community benefits and measurable ecological outcomes.
    The DOI's acquisition programs work in cooperation with local 
communities, rely on willing sellers, and maximize opportunities for 
easement acquisitions. Proposed acquisition projects are developed with 
the support of local landowners, elected officials, and community 
groups. This year, the Departments of the Interior and Agriculture took 
a highly strategic approach to using LWCF land acquisition funds: The 
Departments collaboratively identified opportunities throughout the 
country where the LWCF could be used to leverage other Federal 
resources, along with those of non-Federal partners, to achieve the 
most important shared conservation outcome goals in the highest 
priority landscapes.
    More than 97 percent of the DOI's acquisition request will be used 
for inholdings--isolated parcels of non-Federal land that lie within 
the boundaries of parks, refuges, or other Federal units. Acquisition 
of inholdings does not generally require any significant additional 
operating costs as no new staff or equipment are required to manage new 
lands within existing boundaries. In addition, these acquisitions 
greatly simplify land management for Federal managers and neighboring 
landowners. For instance, the National Park Service request for $2.5 
million at Katmai National Park and Preserve would acquire an easement 
interest in two tracts containing a total of 6,932 acres at the park. 
The Igiugig Native Corporation owns the surface estate, and the Bristol 
Bay Native Corporation owns the subsurface estate of these lands. The 
Igiugig Corporation is in need of revenue and is considering offers 
from developers. Increasing numbers of park visitors start float trips 
on the Alagnak Wild River in this currently undeveloped area. 
Acquisition of these easements would mitigate the threat of residential 
or recreational development that would plague the NPS's ability to 
protect the natural resources of this Alaskan park. The corporations 
are interested in selling a conservation easement to the NPS that would 
prohibit any large-scale development. Within the Togiak National 
Wildlife Refuge, a request for $1.2 million would acquire 720 acres in 
six riparian parcels within the Western Alaska Landscape Conservation 
Cooperative. All six parcels provide vital habitat for moose, bears, 
wolves, wolverines, and caribou and are currently owned by Native 
Alaskans who wish to sell for financial reasons, but prefer the lands 
remain undeveloped and available for subsistence uses. This acquisition 
would also protect world-class salmon and trout fisheries, threatened 
eiders, and to promote landscape-level conservation.
    The LWCF funds for Federal acquisition will: support simpler, more 
efficient land management; create access for hunters and anglers; 
create long-term cost savings; address urgent threats to some of 
America's most special places; and support conservation priorities that 
are set at the State and local level.
    Question. Can the DOI use land exchanges to acquire the in holdings 
of sensitive lands rather than paying to acquire new property?
    Answer. Land exchanges are used to acquire inholdings when the 
opportunity is available. Land exchanges are one of the tools that can 
be used to acquire land or access to the land along with fee title, 
conservation easements and donations. However, the seller of the 
property has to be willing to accept a land exchange, which is also 
dependent on the sellers' interest in the land that the government has 
available for exchange. There are also expenses involved with land 
exchanges that include appraisal fees, surveys, permits, closing costs, 
and relocation costs.

                          SUBCOMMITTEE RECESS

    Senator Reed. Thank you, Mr. Secretary, Deputy Secretary 
Hayes, and Ms. Haze. I assume there will be written questions 
we will submit. I would ask my colleagues to submit the 
questions to the respective clerks so we can get them to you 
and would ask for your speediest response so we can complete 
the record.
    Again, thank you, Mr. Secretary, and the hearing is 
adjourned.
    [Whereupon, at 5:15 p.m., Wednesday, March 9, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
